<html>
<title> - THE FUTURE OF NATO</title>
<body><pre>[Senate Hearing 107-678]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-678
 
                           THE FUTURE OF NATO
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                               MAY 1, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate








                       U. S. GOVERNMENT PRINTING OFFICE
81-761                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)




 


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     4
Clark, Gen. Wesley K., U.S. Army (Ret.), former Supreme Allied 
  Commander Europe, The Stephens Group, Washington, DC...........    43
    Prepared statement...........................................    47
Enzi, Hon. Michael B., U.S. Senator from Wyoming, prepared 
  statement......................................................     9
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................     6
Feith, Hon. Douglas, Under Secretary of Defense for Policy, 
  Department of Defense, Washington, DC..........................    22
    Prepared statement...........................................    26
    Responses to additional questions for the record from Senator 
      Gordon Smith...............................................    72
Grossman, Hon Marc, Under Secretary of State for Political 
  Affairs, Department of State, Washington, DC...................    12
    Prepared statement...........................................    18
    Responses to additional questions for the record from Senator 
      Gordon Smith...............................................    70
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................     7
Lugar Hon. Richard G., U.S. Senator from Indiana, prepared 
  statement......................................................     7
Odom, Lt. Gen. William E., U.S. Army (Ret.), former Director, 
  National Security Agency, Yale University and The Hudson 
  Institute, Washington, DC......................................    49
    Prepared statement...........................................    51

                                 (iii)

  


                           THE FUTURE OF NATO

                              ----------                              


                         WEDNESDAY, MAY 1, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:14 a.m., in 
room SD-419, Dirksen Senate Office Building, the Hon. Joseph R. 
Biden (chairman of the committee), presiding.
    Present: Senators Biden, Bill Nelson, Lugar, Hagel, Gordon 
Smith, Allen, Brownback and Enzi.
    The Chairman. Ladies and gentlemen, I welcome you to the 
hearing. I do not know what Bertie told you, but I would listen 
to him, because he controls the place.
    All kidding aside, the hearing will come to order.
    It is a pleasure to welcome you to the Foreign Relations 
Committee for what I believe to be is an important hearing. 
This morning, we are going to examine the future of an 
institution that understandably has taken a back seat in 
capturing our attention in the last several months.
    But no one should doubt that NATO, the North Atlantic 
Treaty Organization, remains absolutely critical to the 
security of the United States, in my opinion.
    For more than half a century, NATO has been the cornerstone 
of our strategic defense. It is our most important tangible 
link to Europe. It demonstrates the continuing commitment of 
the United States, and the continuing commitment of the United 
States to being a European power.
    Despite September 11 and all that it implies about a new 
security environment, I would submit that the circumstances I 
just mentioned have not changed.
    Without a stable Europe, we cannot hope to carry out our 
ambitious goals elsewhere in the world. And without the active 
cooperation of vibrant, loyal European partners, we cannot 
succeed in our multifaceted war on terrorism. Nonetheless, the 
war on terrorism does require a reexamination of our rationale 
for NATO and how it should adapt to meeting these new 
challenges.
    This is a particularly opportune moment to conduct a 
reexamination. In little more than 6 months, the Alliance will 
hold a momentous summit in Prague, the capital of the Czech 
Republic. And the Prague summit will deal with three 
interrelated issues.
    The first is the fundamental questions of NATO's scope and 
purpose. Second is the new relationship between NATO and 
Russia. And third is the next round of NATO enlargement.
    It is no secret that many of our European allies have begun 
to question the depth of America's commitment to NATO. On the 
day after the terrorist attacks of 9/11, the Alliance for the 
first time in its 52-year history invoked Article 5 of the 
North Atlantic Treaty of 1949. I know the witnesses know this 
language well, but we the public hears us talk about the 
invocation of Article 5 and how momentous that was, and how 
significant it was, but I want to read the language: ``The 
Parties agree,'' I am quoting, ``that an armed attack against 
one or more of them in Europe or North America shall be 
considered an attack against them all, and consequently they 
agree that, if such an armed attack occurs, each of them . . . 
will assist the Party or Parties so attacked by taking 
forthwith, individually, and in concert with other Parties, 
such action as it deems necessary, including the use of armed 
force, to restore and maintain the security of the North 
Atlantic area.''
    As I said that day on the floor of the U.S. Senate, 
invoking Article 5 was a big deal, a very big deal. It was the 
ultimate gesture of solidarity with us by our European and 
Canadian allies.
    And how did we react? I would submit that is a matter of 
debate as to whether we reacted in the way that was 
appropriate.
    It is true that European NATO allies have piloted AWACS 
planes flying along the east coast of the United States in 
order to free up American crews for combat in Afghanistan. It 
is also true that special forces units of the United Kingdom 
and other allies alongside American forces have recently 
engaged units of al-Qaeda and the Taliban. Some allied aircraft 
have flown close air support for U.S. troops.
    But all in all, and one must raise the question, our NATO 
allies have until now played a peripheral role in the Afghan 
campaign. Maybe the Pentagon was correct in its apparent 
judgment that the war would go smoother if prosecuted in this 
manner because of the well-known capabilities gap between our 
allies and ourselves.
    Whatever the accuracy of that assessment, NATO allies 
inevitably in my view, have concluded, A, that the United 
States demonstrated unmistakable, overwhelming domination of 
the war in Afghanistan; B, we have conveyed a strong impression 
that in future conflicts the United States will do the war 
fighting; and C, given our war-fighting capability, we choose 
to leave the other participants to start the international 
peacekeeping force in Afghanistan; and, D, the Europeans will 
be expected to clean up after the parade.
    My trip to Afghanistan in January convinced me that we must 
become actively involved in the International Security Afghan 
Force [ISAF]. The International Security Afghan Force, in order 
to bring security and stability to all parts of that country as 
quickly as possible, in my view, has to be enlarged.
    Our allies have already stepped up to the plate, two of 
them in leadership roles. The U.K. currently leads ISAF; and 
Turkey has agreed to take over the command for 6 months 
beginning later this spring.
    Does their example argue for NATO, through peacekeeping, to 
be the key player in strategically important countries outside 
of Europe? With regard to the capabilities gap, should NATO put 
together a quick start capabilities package, as suggested by 
former Assistant Secretary of Defense, Frank Kramer?
    Such an effort would enhance Alliance interoperability and 
enable European NATO expeditionary forces rapidly to become 
operational.
    The complexity of the Afghan situation raises questions. 
How extensively outside the North Atlantic area should NATO be 
involved? Before answering that question, we must look at the 
new challenges to our security. How much relative weight should 
NATO give to missions that until now have been peripheral? For 
example, what institutional role might NATO have in the 
struggles against terrorism, international crime, and the 
proliferation of weapons of mass destruction?
    More fundamentally, what if there is no common threat 
perception within the Alliance? Most obviously, there is no 
unanimity about Saddam Hussein and whether or not he 
constitutes a clear and present danger to the United States and 
Europe. In that case, does NATO defer to a ``new coalition of 
the willing,'' led by the United States? Is that the likely 
model for future campaigns outside of Europe?
    Our witnesses today will have no shortage of ``big 
picture'' topics to discuss.
    Ladies and gentlemen, I am pleased that President Bush is 
carrying on important work begun by the last administration of 
bringing new members into NATO and reaching out to Russia. 
September 11 has created historic opportunities to continue the 
process of reconciliation with Russia. And if we get it right, 
we can reverse the titanic rivalry that dominated the second 
half of the 20th century.
    President Putin, as I have said on numerous occasions, has 
cast his country's lot with the West with a determination not 
seen since Peter the Great. We should assist him in every way 
consistent with our national security interests.
    Domestically, that means helping democratic civil society 
in Russia flourish. It means helping genuine rule of law take 
root. It means cementing rights for all segments of society, 
including safeguarding of the rights of religious groups.
    We must also broaden our security cooperation with Russia. 
At the Reykjavik NATO Ministerial meeting later this month, a 
new NATO-Russian Council will be launched.
    I would be very interested in hearing from our two 
distinguished administration witnesses exactly how that body 
will be structured and what issues it will have within its 
purview.
    My own feeling is that, at the outset, the council should 
emphasize areas where there is already a meeting of the minds 
between NATO and Russia. The struggle against international 
terrorism is the most obvious example.
    I would prefer to see the council not include peacekeeping 
operations in its initial catalog of responsibilities, since 
Russia was relatively actively opposed to NATO's last two 
peacekeeping operations in Bosnia and Kosovo, before eventually 
deciding to join them.
    Despite the considerable suspicion and mistrust to 
overcome, I am optimistic that the new relationship between 
NATO and Russia can be mutually beneficial.
    And I will ask unanimous consent that the remainder of my 
statement be put in the record.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

        ``the future of nato: preparing for the prague summit''
    It's a pleasure to welcome you to the Senate Foreign Relations 
Committee for what I believe is a very important hearing.
    This morning we will examine the future of an institution that 
understandably has taken a back-seat in capturing our attention for the 
last several months. But no one should doubt that NATO--the North 
Atlantic Treaty Organization--remains absolutely critical to the 
security of the United States.
    For more than a half-century, NATO has been the cornerstone of our 
strategic defense. It is our most important tangible link to Europe. 
And it demonstrates the continuing commitment of the United States to 
being a European power.
    Despite September 11th and all that it implies about a new security 
environment, I would submit that the circumstances I just mentioned 
have not changed.
    Without a stable Europe, we cannot hope to carry out our ambitious 
goals elsewhere in the world.
    Without the active cooperation of vibrant, loyal European partners, 
we cannot succeed in our multi-faceted war on terrorism.
    Nonetheless, the war on terrorism does require a re-examination of 
the rationale for NATO--and how it should adapt to meet new challenges.
    This is a particularly opportune moment to conduct a re-
examination. In little more than six months, the Alliance will hold a 
momentous summit in Prague, the capital of the Czech Republic.
    The Prague summit will deal with three great inter-related issues.
    The first is the fundamental question of NATO's scope and purpose.
    Second is the new relationship between NATO and Russia.
    And, third, is the next round of NATO enlargement.
    It's no secret that many of our European allies have begun to 
question the depth of America's commitment to NATO.
    On the day after the terrorist attacks of September 11, the 
Alliance, for the first time in its then 52 year history invoked 
Article 5 of the North Atlantic Treaty of 1949 whereby:

          The Parties agree that an armed attack against one or more of 
        them in Europe or North America shall be considered an attack 
        against them all, and consequently they agree that, if such an 
        armed attack occurs, each of them. . . . will assist the Party 
        or Parties so attacked by taking forthwith, individually, and 
        in concert with the other Parties, such action as it deems 
        necessary, including the use of armed force, to restore and 
        maintain the security of the North Atlantic area . . .

    As I said that day on the floor of the United States Senate, the 
invoking of Article 5 was a big deal--a very big deal. It was the 
ultimate gesture of solidarity with us by our European and Canadian 
allies.
    How did we react? I would submit that it's a matter of debate as to 
whether we reacted in a way that was appropriate.
    It is true that European NATO allies have piloted AWACS planes 
flying along the East Coast of the United States in order to free up 
American crews for combat in Afghanistan.
    It is also true that Special Forces units of the United Kingdom and 
other allies, alongside American forces, have recently engaged units of 
al-Qaeda and the Taliban. Some allied aircraft have flown close air 
support for U.S. troops.
    But, all in all, one must come to the conclusion that our NATO 
allies have until now played a peripheral role in the Afghan campaign. 
Maybe the Pentagon was correct in its apparent judgment that the war 
would go smoother if prosecuted in this manner because of the well-
known ``capabilities gap'' between our allies and ourselves.
    Whatever the accuracy of that assessment, NATO allies inevitably 
have concluded that:

          (a) The United States demonstrated unmistakable, overwhelming 
        domination of the Afghan war.

          (b) We have conveyed the strong impression that in future 
        conflicts the United States will do the war fighting.

          (c) Given our war-fighting capability, we choose to leave to 
        others participation in the international peacekeeping force in 
        Afghanistan.

          (d) The Europeans will be expected to clean up after the 
        parade.

    My trip to Afghanistan in January convinced me that we must become 
actively involved in ISAF--the International Security Assistance 
Force--in order to bring security and stability to all parts of the 
country as quickly as possible.
    Our allies have already stepped up to the plate--two of them in 
leadership roles. The U.K. currently leads ISAF, and Turkey has agreed 
to take over command for six months, beginning later this spring.
    Does their example argue for NATO, through peacekeeping, to be a 
key player in strategically important countries outside of Europe?
    With regard to the ``capabilities gap,'' should NATO put together a 
``quick-start'' capabilities package, as suggested by former Assistant 
Secretary of Defense Frank Kramer?
    Such an effort would enhance Alliance inter-operability and enable 
a European NATO Expeditionary Force rapidly to become operational.
    The complexity of the Afghan situation raises the question of how 
extensively outside of the North Atlantic area NATO should be involved.
    Before answering, we must look at the new challenges to our 
security. How much relative weight should NATO give to missions that, 
until now, have been peripheral? For example, what institutional role 
might NATO have in the struggles against terrorism, international 
crime, and the proliferation of weapons of mass destruction?
    More fundamentally, what if there is no common threat perception 
within the Alliance? Most obviously, there's no unanimity about whether 
Saddam Hussein constitutes a clear and present danger to the United 
States and Europe.
    In that case, does NATO defer to a new ``coalition of the willing'' 
led by the U.S.? Is that the likely model for future campaigns outside 
of Europe?
    Our witnesses today will have no shortage of ``big picture'' topics 
to discuss.
    Ladies and Gentlemen, I am pleased that President Bush is carrying 
on the important work begun by the Clinton administration of bringing 
new members into NATO and reaching out to Russia.
    September 11 has created historic opportunities to continue the 
process of reconciliation with Russia. If we get it right, we can 
reverse the titanic rivalry that dominated the second half of the 20th 
century.
    President Putin, as I have said on numerous occasions, has cast his 
country's lot with the West with a determination not seen since Peter 
the Great.
    We should assist him in every way consistent with our own security 
interests.
    Domestically, that means helping a democratic civil society 
flourish in Russia. It means helping genuine rule of law take root. It 
means cementing rights for all segments of society, including 
safeguarding the rights of all religious groups.
    We must also broaden our security cooperation with Russia. At the 
Reykjavik NATO Ministerial meetings later this month, a new NATO-Russia 
Council will be launched.
    I would be very interested in hearing from our two distinguished 
administration witnesses how that body will be structured and what 
issues it will have in its purview.
    My own feeling is that, at the outset, the Council should emphasize 
areas where there is already a meeting of the minds between NATO and 
Russia. The struggle against international terrorism is the most 
obvious example.
    I would prefer to see the Council not include peacekeeping 
operations in its initial catalogue of responsibilities, since Russia 
actively opposed NATO's last two peacekeeping operations in Bosnia and 
Kosovo, before eventually deciding to join.
    Despite the considerable suspicion and mistrust to overcome, I am 
optimistic that the new relationship between NATO and Russia can be 
mutually beneficial.
    The third major issue for Prague is NATO enlargement.
    Four years ago, I had the privilege of being the floor manager for 
the Resolution of Ratification that gave Senate approval to the 
accession to NATO of Poland, Hungary, and the Czech Republic. Since 
then, all three countries have proven themselves to be dependable 
allies.
    The most persuasive argument for NATO enlargement remains as valid 
today as it was in 1998: extending the zone of stability eastward in 
Europe. Through the well-conceived program of Membership Action Plans, 
many more aspirant countries are on the brink of being invited to join 
the Alliance.
    By this summer it will be time to ``name names''--to openly declare 
exactly which countries should be invited.
    On many occasions I have said that Slovenia has been ready for 
several years. Recently the three Baltic countries of Estonia, Latvia, 
and Lithuania have made great strides toward qualifying. Slovakia has 
made similar progress, and if it elects a democratic government in 
October, it should be a strong candidate.
    In the last few months, support for a so-called ``Southern 
Dimension'' has been gaining momentum.
    Both Romania and Bulgaria are working hard to meet the NATO norms. 
Their case is strengthened both by their strategic geographic location, 
and by their exemplary support for the anti-terrorism campaign since 
September 11.
    Aside from meeting the military criteria, all the aspirant 
countries must demonstrate to NATO that they truly are members of an 
Alliance of shared democratic values. In particular, ugly remnants of 
war-time fascism must be totally--and permanently--suppressed.
    Whatever the final number of invited countries, the process of NATO 
enlargement will continue to strengthen the Alliance and to move the 
Continent toward the goal of a ``Europe whole and free.''
    Ladies and gentlemen, to discuss these and other issues this 
morning we have a truly outstanding group of witnesses.
    Under Secretary of State for Political Affairs Marc Grossman is a 
long-time friend. I didn't say ``old friend'' because Marc certainly 
doesn't fit that description. He is the State Department's Wunderkind.
    He served as our Ambassador to Turkey shortly after leaving high 
school--and that's only a slight exaggeration. He now occupies the 
senior career post in the Department.
    Doug Feith is Under Secretary for Policy at the Department of 
Defense. He came to the Pentagon from a distinguished career in the 
private sector and has already made his mark as a keen analyst and 
effective spokesman for the Department.
    General Wes Clark, of course, capped a long, star-studded career in 
the U.S. Army as Supreme Allied Commander Europe, where he successfully 
prosecuted the Yugoslav air war. Most recently he has become a best-
selling author. I have long turned to him for incisive advice, and he 
has never disappointed me.
    Lieutenant General Bill Odom also served in the U.S. Army with 
great distinction. An internationally recognized strategist, he did a 
tour as Director of the National Security Agency. He is now affiliated 
with Yale University and the Hudson Institute.
    Gentlemen, we are grateful to all of you for agreeing to appear 
before this committee.

    [The following statement was submitted by Senator Feingold 
for inclusion the record:]

           Prepared Statement of Senator Russell D. Feingold

    Mr. Chairman, thank you for calling this important hearing. I think 
we are all eager to consider how to move forward at this crucial moment 
in building stronger, larger and ultimately more effective structures 
within NATO. And I am particularly grateful for this opportunity to 
consider specific issues related to the next round of NATO expansion, 
along with the establishment of a dynamic new NATO-Russia partnership.
    As we begin the first of many such dialogues on these topics, I 
think we must first pause to consider the larger policy objectives that 
should guide future efforts to transform what is clearly the most 
crucial of our security alliances. We must ask how robust of an 
expansion we can support, while simultaneously maintaining military 
preparedness, preserving the close security relationships of existing 
member states, and securing a long-term but cost-effective investment 
in our own national defense.
    Many of the candidate states have made exceptional progress in 
meeting the required standards for future NATO membership. I wish to 
congratulate all of the candidates on their progress. But now we must 
ask careful questions about how far each state has come in meeting 
those obligations. We must also consider the additional regional 
security advantages and potential economies of scale that could be 
gained by inviting a larger slate of candidates to join the alliance at 
the same time.
    This is a security alliance, and our own national security 
interests must guide these decisions. But at the same time we must give 
careful consideration to the likely effect of NATO membership within 
each candidate state, as our long-term objective must be to create 
secure democratic allies with effective military capacities that are 
willing to participate actively in the alliance. Some states could 
benefit tremendously from early membership, even if their membership 
could be premature by certain development standards. Other states could 
also find it difficult and ultimately unproductive to struggle to meet 
difficult membership standards prematurely. These will be difficult 
decisions that must be made on a case-by-case basis. I look forward to 
beginning these considerations here today.

    [The following statement was submitted by Senator Helms for 
inclusion the record:]

               Prepared Statement of Senator Jesse Helms

    Thank you Mr. Chairman for holding this significant hearing today. 
You did so at my request and I am grateful to you for doing so. During 
the previous debate over enlargement of the NATO Alliance, the Senate 
Foreign Relations Committee held a total of nine hearings on the issue 
of NATO enlargement. I am pleased that we are starting the process 
again today for what I expect will be a robust enlargement of our 
Alliance at the Prague summit in November.
    In January of 2001 in a speech to the American Enterprise 
Institute, I said, ``perhaps the greatest moral challenge we face at 
the dawn of a new century is to right the wrongs perpetrated in the 
last century at Yalta, when the West abandoned the nations of Central 
and Eastern Europe to Stalin and a life of servitude behind the Iron 
Curtain.''
    When the Senate voted to admit Poland, Hungary and the Czech 
Republic into NATO in 1998 we began the process of righting that wrong. 
Senate ratification of the protocols to enlarge NATO and ensure that 
the new members would secure their rightful place in the community of 
Western democracies was one of my proudest achievements as chairman of 
the Senate Foreign Relations Committee.
    However, the first round of NATO enlargement into the new 
democracies of Central Europe did not fully erase the scars of Yalta. 
During the cold war, many of us in the Senate fought to defend the 
independence of what came to be known as the ``captive nations''--the 
Baltic countries of Lithuania, Latvia and Estonia. This second and 
historic enlargement of the NATO Alliance into Eastern and Central 
Europe will, I hope, bring the Baltic nations squarely into the 
transatlantic alliance.
    Last June in a stirring speech in Warsaw, President Bush said that 
there would be ``no more Yaltas'' and committed ``NATO membership for 
all of Europe's democracies that seek it and are ready to share the 
responsibility.'' Senate bill 1572, The Freedom Consolidation Act, 
which I introduced with Senator Lieberman and numerous other 
cosponsors, endorses the President's vison. I hope that it will be 
enacted before he travels to Europe later this month.

    [The prepared statement of Senator Lugar follows:]

                Prepared Statement of Senator Dick Lugar

                   nato enlargement and nato's future
    Mr. Chairman, you are to be commended for calling this hearing and 
for assembling two panels of very fine witnesses.
    Government deliberations as well as public debate are beginning to 
heat up on the NATO issue as Alliance members contemplate the run-up to 
the NATO summit in Prague this November.
    When I refer to the NATO issue, I refer not only to the enlargement 
question or to the efforts to establish a new Russia-NATO relationship. 
I also refer to the question of NATO's purpose, of its transformation 
and its ability and willingness to adapt its roles, its missions and 
its capabilities to the post-September 11 world and to the war on 
terrorism in particular.
    I would suggest for purposes of our hearing today that, on some 
NATO-related issues, there is considerable common ground in Congress, 
within the administration, and with Allies. But there also remain some 
rather weighty issues concerning the Alliance on which efforts at 
consensus remain difficult.
NATO Enlargement, NATO-Russia
    I sense that there is a common view on two key issues. First, there 
is general agreement that NATO enlargement should continue, that we 
should think about an ambitious round for Prague, and that the war on 
terrorism makes it all the more important to accelerate the task of 
consolidation democracy and security in Central and Eastern Europe. The 
recent V-10 Bucharest summit has given added impetus to the prospect of 
including Bulgaria and Romania as possible candidates at Prague as part 
of a new ``southern dimension.'' Thus, we are now considering a second 
round of candidates that could include seven countries--Estonia, 
Latvia, Lithuania, Slovakia, Slovema, Bulgaria, and Romania.
    Second, there would appear to be something of a common view that 
the United States and NATO are also moving forward constructively on 
the NATO-Russia track. Reassurances provided by administration 
officials have answered many of the concerns that had been raised about 
the new NATO-Russia Council. While we await the outcome of the 
Ministerial in Iceland later this month, I believe it is fair to say 
that the administration's approach has been a constructive one that is 
consistent with the provisions of the Senate resolution of ratification 
regarding the NATO-Russia Pennanent Joint Council.
NATO's Purpose, NATO's Future
    The third issue where there is less agreement and where the 
thinking of the administration as well as Alliance officials is also 
less developed, has to do with NATO's future missions and capabilities. 
What do we want NATO to do in the future? I believe that this issue 
will and should be a central issue at the Prague summit.
    The ongoing pace of military operations in Afghanistan and the 
escalating violence in the Middle East serve to underscore the simple 
fact that the greatest security challenges of our day no longer lie 
within Europe but outside of it. As a result, the trans-Atlantic 
relationship faces a paradox. We have the most successful Alliance ever 
created but it is or seems to be marginal or even irrelevant when it 
comes to dealing with the most urgent issues of the day.
    And the fact that NATO--ostensibly America's premiere alliance and 
the linchpin of the trans-Atlantic relationship--appears to be 
completely absent in our strategy on these critical issues raises 
important questions about this institution's future centrality and 
vitality.
    It also seems to me that the issue for NATO is also pretty simple 
if far-reaching: Should NATO remain focused on managing security in an 
already fairly stable European Continent? Or should it now seek to 
expand its missions beyond Europe in order to deal with the new 
threats? And should this issue be part of the agenda for the Prague 
summit in November of this year?
    Addressing this challenge is the strategic issue of our time. It is 
as daunting as dealing with the USSR was in its day. September 11 can 
and, in my view, should lead to a renaissance of trans-Atlantic 
cooperation around this new agenda. If it does not, if NATO remains 
focused on Europe, the Alliance will be reduced to what might be called 
the ``housekeeping'' function of managing security on an already stable 
continent. It will cease to be America's premier alliance for the 
simple reason that it will not be addressing the major security issue 
of our time. And if we stop investing in it, we can hardly expect the 
European allies to invest in it either.
    On a more basic level, we must address a strategic disconnect. We 
have the most developed Alliance to deal with those strategic issues 
that are largely resolved and receding in importance and urgency, yet 
no alliance to deal with the most important and more deadly and 
immediate threats to our nations. That is hardly a recipe for a sound 
strategy or a healthy alliance!
    The problem we face in NATO today is not just one of capabilities 
but of purpose. The two are inextricably linked. One cannot be solved 
without addressing the other. And our answer cannot be limited to the 
technocratic issue if devising a more effective successor to the 
Defense Capabilities Initiative (DCI). A DCI-2 that focuses on 
specialization and special forces might be helpful but it no substitute 
for a common strategy that addresses the key strategic challenge for 
our time and harnesses U.S. and European will and purpose. Formulation 
of and fidelity to that common purpose is a fundamental prerequisite 
for generating the resources to create new capabilities, not the other 
way around.
    The issue of what NATO is for, its basic purpose, is already part 
of the public debate. It will inevitably be an issue for the Prague 
summit--especially if events in the Middle East or Iraq make it a 
central issue in European-American relations this fall. Thus, the 
question is whether the United States will lead in embracing this kind 
of reform agenda or not. If U.S. policy wants to produce a strategic 
shift of this magnitude, then, in my view, there will never be a better 
opportunity for the Bush administration to initiate that process than 
the Prague summit.
    I look forward to hearing from Under Secretary of State for 
Political Affairs, Marc Grossman, and Under Secretary of Defense for 
Policy, Doug Feith, on the administration's efforts in these important 
areas. Our second panel is also very qualified to speak on these 
subjects, General Wes Clark, has led the Alliance in combat and General 
Odom has been a longtime commentator and student of NATO and the trans-
Atlantic relationship.
    Thank you, Mr. Chairman and I look forward to our witnesses 
testimony.

    [The following statement was submitted by Senator Enzi for 
inclusion the record:]

             Prepared Statement of Senator Michael B. Enzi

    Mr. Chairman, thank you for calling this hearing to look at the 
future of NATO. As we all know, NATO, as an organization, has been one 
of the strongest supporters of the United States following the attacks 
of September 11. The historical landmark of having NATO invoke Article 
5 of the mutual defense policy was a good example of how NATO is 
supposed to work. The support from those nations currently being 
considered for NATO membership also showed how effective this alliance 
is and can continue to be. The aspiring nations, along with our NATO 
allies, provided the United States with permission to use their air 
space and many have sent their own troops to Afghanistan. We have also 
seen many of these countries take immediate action to address terrorism 
and the financing of terrorism within their own borders. As the United 
States continues to fight terrorism internationally, I believe we can 
be proud that so many nations stand with us.
    I am pleased that the Bush administration has endorsed robust 
enlargement of the NATO Alliance. I personally have had the opportunity 
to meet with representatives of many of the aspiring countries. In 
these meetings, I have seen evidence of progress and strong desires to 
continue to have improved economies and stable governments. So much 
progress has been made in each of the countries over the last 10 years 
that each nation should be commended. As the President has stated 
repeatedly about the Prague summit in November, ``We should not 
calculate how little we can get away with, but how much we can do to 
advance the cause of freedom.'' I believe the President is correct. 
NATO is a defense alliance of nations who want to protect the freedom 
of their people and the freedom of their allies. The summit in Prague 
is an opportunity not just for aspiring countries to join the alliance, 
but for the world to see the continued advancement of freedom and 
democracy.
    I believe NATO enlargement should continue to be a focus and a 
priority of the United States. I was pleased when Senator Helms led the 
effort in the Senate on the Freedom Consolidation Act and that this 
committee approved the Act last year. The Freedom Consolidation Act is 
an important statement that the Congress of the United States supports 
the President and supports NATO enlargement. The Act includes 
statements from both President Bush and President Clinton and has 
strong support from both parties. I hope the Senate will be able to 
take up this Act for consideration as soon as possible.
    In this hearing we are not only examining NATO enlargement, but 
more generally, the future of the Alliance. One area where we can see 
the future of NATO changing almost immediately is in the relationship 
between Russia and NATO. While there will be many issues that the new 
NATO-Russia Council will not be able to address or reach consensus on, 
the Council can provide a good forum for an improved NATO-Russia 
dialog. I believe one of the most important ways to improve relations 
with Russia, on any issue, is through communication. The Council has 
great possibilities and should go forward with support from the United 
States. Critics must be assured that the Council does not give Russia a 
``back door'' into NATO. The Council gives both NATO and Russia the 
opportunity to take actions together but does not threaten the 
Alliance. I believe the Council is a constructive tool that can improve 
international security.
    As we look at improving the relationship between the Alliance and 
Russia, I believe it is important to see other areas in need of 
improvement. NATO has been criticized for taking actions that go beyond 
the original mandate. This is simply not true. NATO continues to be a 
strong alliance with an important mandate of providing defense and 
security for its members. We saw the evidence that this remains true 
after September 11. The organization of NATO, however, should be 
examined by its members to determine how it can be made better. 
Improvement can and should be made in how the organization operates. I 
believe it is our responsibility to ask the questions: Is NATO 
operating efficiently, is NATO responding timely and appropriately to 
international crisis, and what can be done to improve NATO operations? 
These questions must be addressed by the United States and our 
delegates should have proposals to take to the organization.
    Mr. Chairman, I am impressed with the witnesses prepared to testify 
before this committee. Experience is a learning tool that cannot be 
reproduced, but it can be shared. Today's witnesses have the experience 
and knowledge that will make this hearing a productive discussion on 
NATO's future. I look forward to hearing the testimony of both panels. 
Thank you again, Mr. Chairman, for holding this important hearing.

    The Chairman. And by way of closing, I am suggesting that 
of the two witnesses whom I will introduce later, Under 
Secretary of State for Political Affairs Marc Grossman is a 
long-time friend. I did not say ``old friend,'' because Marc 
certainly does not fit that description.
    Mr. Grossman. Yes.
    The Chairman. Marc served as Ambassador to Turkey shortly 
after leaving high school. That is only a slight exaggeration. 
He now occupies a senior career post in the Department.
    And Doug Feith is Under Secretary for Policy at the 
Department of Defense. He came to the Pentagon from a 
distinguished career in the private sector and has already made 
his mark as a keen analyst and effective spokesman for the 
Department.
    We are also going to hear from others; I will introduce 
them later. Well, I might as well do it now, so I do not have 
to do it later. General Wes Clark, of course, capped a long, 
star-studded career in the U.S. Army by serving as Supreme 
Allied Commander of Europe, where he successfully prosecuted 
the Yugoslav air war. Most recently, he has become a best-
selling author. And I have long turned to him for advice, as 
have many of us up here on this panel. And he has never 
disappointed me, or I suspect, anyone on the panel.
    Lieutenant General Bill Odom also served in the U.S. Army 
with great distinction. An internationally recognized 
strategist, he did a tour as Director of the National Security 
Agency, and he is now affiliated with Yale University and the 
Hudson Institute.
    We have a very, very distinguished group of Americans 
before us today and I am anxious to, after I turn to my friend 
from Indiana, to get to hear what they have to say and be able 
to question them.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, thank you for calling this 
hearing, for assembling two panels of excellent witnesses.
    Government deliberations, as well as public debate, are 
beginning to focus on the NATO issue, as Alliance members 
contemplate the runup to the NATO summit in Prague this 
November.
    When I refer to the NATO issue, I refer not only to the 
enlargement question, or to the efforts to establish a new 
Russian-NATO relationship, I also refer to the question of 
NATO's purpose, of its transformation, its ability and 
willingness to adopt its roles, its mission, its capabilities 
to the post-September 11 world and to the war on terrorism in 
particular.
    I would suggest for purposes of our hearing today that on 
some NATO-related issues there is considerable common ground in 
Congress, within the administration and with our allies. But 
there also remains some weighty issues concerning the Alliance, 
on which efforts at consensus remain difficult.
    I sense there is a common view on two key issues. First 
there is general agreement that NATO enlargement should 
continue, that we should think about an ambitious round for 
Prague and that the war on terrorism makes it all the more 
important to accelerate the task of consolidating democracy and 
security in Central and Eastern Europe.
    The recent V-10 Bucharest summit has given added impetus to 
the prospect of including Bulgaria and Romania as possible 
candidates at Prague, as part of a new southern dimension. Thus 
we are now considering a second round of candidates that 
include seven countries, Estonia, Latvia, Lithuania, Slovakia, 
Slovenia, Bulgaria and Romania.
    Second, there would appear to be a common view that the 
United States and NATO are moving forward constructively on the 
NATO-Russia track. Reassurances provided by administration 
officials have answered many of the concerns that have been 
raised about the new NATO-Russia Council.
    While we await the outcome of the Ministerial in Iceland 
later this month, I believe that the administration's approach 
has been a constructive one that is consistent with the 
provisions of the Senate resolutions of ratification regarding 
NATO-Russian Permanent Joint Council.
    The third issue, where there is less agreement and where 
the thinking of the administration as well as Alliance 
officials, is also less developed, has to do with NATO's future 
missions and capabilities. What do we want NATO to do in the 
future?
    I believe that this issue will and should be a central 
issue at the Prague summit. The ongoing pace of military 
operations in Afghanistan, the escalating violence in the 
Middle East serve to underscore the simple fact that the 
greatest security challenges of our day no longer lie within 
Europe, but outside of it.
    As a result, the transatlantic relationship faces a 
paradox. We have the most successful Alliance ever created, but 
it is or seems to be marginal or even irrelevant when it comes 
to dealing with the most urgent issues of the day.
    And the fact that NATO, ostensibly America's premiere 
alliance and the linchpin of the transatlantic relationship, 
sometimes appears to be absent in our strategy on these 
critical issues raises important questions about NATO's future 
centrality and vitality.
    It also seems to me that the issue for NATO is also simple 
if far-reaching. Should NATO remain focused on managing 
security in an already fairly stable European continent, or 
should it now seek to expand its mission beyond Europe in order 
to deal with the new threats? And should this issue be a part 
of the agenda for the Prague summit in November of this year?
    Addressing this challenge is the strategic issue of our 
time. It is as daunting as dealing with the USSR was in its 
day.
    September 11 can and, in my view, should lead to a 
renaissance of transatlantic cooperation around this new 
agenda. If it does not, if NATO remains focused on Europe, the 
Alliance will be reduced to what might be called the 
housekeeping function of managing security in an already stable 
continent. And it will cease to be America's premiere alliance 
for the simple reason that it will not be addressing the major 
security issues of our time. And if we stop investing in it, we 
can hardly expect European allies to invest in it either.
    On a more basic level, we must address strategic 
disconnect. We have the most developed alliance to deal with 
those strategic issues that are largely resolved and receding 
in importance and urgency, yet no alliance to deal with the 
most important and more deadly and immediate threats to our 
nations, United States and European.
    That is hardly a recipe for a sound strategy or a healthy 
alliance. The problem we face in NATO today is not just one of 
capabilities, but of purpose. The two are inextricably linked, 
and one cannot be solved without addressing the other.
    And our answer cannot be limited to the technocratic issue 
of devising a more effective successor to the Defense 
Capabilities Initiative, the DCI. A DCI-2, that focuses on 
specialization and special forces might be helpful, but is no 
substitute for a common strategy that addresses the key 
strategic challenge for our time and harnesses U.S. and 
European will and purpose. Formulation of and fidelity to that 
common purpose is a fundamental prerequisite for generating the 
resources to create new capabilities and not the other way 
around.
    The issue of what NATO is for, its basic purpose, is 
already part of the public debate, and it will be an issue for 
the Prague summit, especially if events in the Middle East or 
Iraq make it a central issue in the European-American relations 
this fall. Thus the question is whether the United States will 
lead in embracing this kind of reform agenda or not. If U.S. 
policy wants to produce a strategic shift of this magnitude, 
then in my view, there will never be a better opportunity for 
the Bush administration to initiate that process than the 
Prague summit.
    I will look forward to hearing from Under Secretary of 
State for Political Affairs Marc Grossman, and Under Secretary 
of Defense for Policy Doug Feith, on the administration's 
efforts in these important areas.
    Our second panel is exceptionally well qualified to speak 
on these subjects. General Wes Clark has led the Alliance in 
combat, and General Bill Odom has been a long-time commentator 
and student of NATO and the transatlantic relationship.
    I thank you, Mr. Chairman, for this hearing. I look forward 
to the testimony of our witnesses.
    The Chairman. Thank you very much, Senator.
    Under Secretary Grossman.

 STATEMENT OF HON. MARC GROSSMAN, UNDER SECRETARY OF STATE FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Grossman. Yes, Mr. Chairman. Thank you very much. First 
of all, Mr. Chairman, Senator Lugar, other members of the 
committee. I thank you very much for this opportunity to 
testify today. It is always an honor and a privilege to be 
here.
    Mr. Chairman, with your permission, I would like to submit 
a longer statement for the record, and if you might just allow 
me to make----
    The Chairman. Without objection, the whole statement will 
be placed in the record.
    Mr. Grossman. If you would allow me to make some comments, 
I would very much appreciate it to start this conversation.
    First of all, before I do anything else, let me thank you 
and all of the members of the committee and, indeed, Members of 
the Senate for all the consultation and the time and the effort 
that you have taken with us, not just over the past few months, 
but over the past few years as we try to get NATO right.
    Those are in formal sessions and informal sessions and we 
have always very much benefited from your advice and from your 
wisdom. And we know that as we go forward, especially on the 
issues of capabilities and relationships and this relationship 
with Russia, we will need to be in the closest possible 
consultation with the Senate. And we very much look forward to 
that.
    Mr. Chairman, as you both said, the conversation about NATO 
and ``What is NATO's purpose? What is NATO all about? Is NATO 
relevant to the future?'' is now on--in our publics, in our 
parliaments and in our administration. And I have got to say I 
welcome this debate. This is not something that I shrink from 
at all. And I do not think the administration shrinks from it 
at all, because we ought to be talking about the future of 
NATO, and we ought to be considering new relationships and new 
partners and new members for NATO. And that seems to me what 
democratically supported foreign and defense policy is all 
about.
    As you said, Mr. Chairman, and also Senator Lugar, the 
attacks on the 11th of September and NATO's response, which as 
Senator Biden said was a big deal, proved to me that NATO's 
continuing value in the world, in this world of new and 
unpredictable threats, to me, as to Senator Biden, invoking 
Article 5 for the very first time in NATO's history sent a 
clear message that this is an Alliance that is united and is 
very much determined.
    We very much, all of us, ought to very much welcome NATO's 
collective response as well as the contributions of individual 
allies. From our perspective, these 50 years of people working 
together in NATO made it possible for allied forces to work 
together in Operation Enduring Freedom.
    Take first the collective response. As Senator Biden noted, 
NATO AWACS have logged over 3,000 hours patrolling American 
skies. NATO standing naval forces are working with U.S. naval 
forces in the eastern Mediterranean.
    All of the NATO allies have provided blanket overflight 
rights, access to ports and bases, refueling assistance, and 
stepped up intelligence efforts. Sixteen of the 19 allies are 
supporting Operations Enduring Freedom and Noble Eagle with 
military forces and with military capabilities. Fourteen of our 
19 allies have deployed forces in the region, and 9 are 
actually participating in combat operations in Afghanistan.
    So we believe that what the NATO allies have done is made a 
significant contribution both collectively and individually to 
Operation Enduring Freedom.
    As Senator Biden pointed out, almost all of our allies are 
also involved in the International Security and Assistance 
Force in Afghanistan. Current allies, aspiring allies are all 
there to be part of the effort to bring Afghanistan into the 
modern world. NATO, to me, still matters.
    Senator Lugar talked a little bit about the question of the 
vision of NATO. Where do we want to take this Alliance? I think 
when President Bush and his counterparts meet in Prague later 
this year, their gathering will symbolize the changes that have 
taken place in Europe and NATO's central role in making these 
changes possible.
    Think about Prague: Prague, a city that was once behind the 
Iron Curtain; Prague, a city that was once synonymous in a 
famous spring in 1968 with the rebellion against the system 
that we defeated. And in 1991, Prague was the city in which the 
Warsaw Pact was dissolved. So it seems, to me anyway, that it 
is a perfect place to think about the future of this Alliance.
    NATO remains a fundamental pillar of our foreign and 
defense policy. As President Bush said last month when NATO 
Secretary General Robertson was here, ``NATO remains an anchor 
of security for both Europe and the United States.''
    As you both know, Senators, I have just returned from a 
meeting with all of our NATO allies in Brussels and then I went 
on to 8 individual allies to consult on our agenda for Prague, 
our vision of the future. And we proposed that Prague be 
defined by three themes: First, new capabilities; second, new 
members; and third, new relationships.
    And Mr. Chairman, with your permission, I would just like 
to say a word about each of these categories.
    First, September 11 brought home to every single person in 
this room and certainly in the United States, and I believe to 
each one of our allies, how dangerous our world still is, as 
you both noted.
    Czech President Havel, who will host the Prague summit, 
observed that September 11, and these are his words, ``alerted 
us to the evil existing in this world.''
    September 11 also demonstrated how important it is that we 
have allies if we are to defend our way of life and if we are 
to defend our democracy.
    So to me, NATO is no less important to our security today. 
Indeed, it is possible that NATO is more important to our 
security today. And so as I report to you, our agenda for 
Prague has three parts. First, ensuring that NATO has the 
capabilities needed to meet emerging new threats; second, to 
extend NATO membership to more new European democracies; and 
third, to renew NATO's partnerships and relationships with 
Russia and the Ukraine and other partners. It is new 
capabilities, new members, and new relationships.
    It seems, to me anyway, that these three themes are very 
much rooted in NATO's values and goals as set out in the 1949 
treaty. The chairman read from that treaty.
    I also took a look, since we are 53 years almost exactly 
from the treaty being signed, at what President Truman had to 
say on April 4, 1949 about this NATO treaty. And I think it 
goes very much along with what the chairman said.
    This is what Truman said in announcing this treaty, ``It is 
altogether appropriate that nations so deeply conscious of 
their common interests should join in expressing their 
determination to preserve their present peaceful situation and 
protect it in the future. And with our common traditions, we 
face common problems.''
    He did not talk about one problem. He did not talk about 
one geography. He did not talk about one set of issues. But in 
Truman's speech, he talked about the need to defend common 
values, common traditions and our common security.
    Since the end of the cold war, Mr. Chairman, the Alliance 
has taken steps to revise its doctrine and improve its command 
and force structures to meet today's threats. The 1999 
strategic concept, which all of us worked so hard on, defined 
those new threats explicitly, noting that the new risk to the 
Euro-Atlantic peace and stability were becoming clearer: 
oppression, ethnic conflict, the proliferation of weapons of 
mass destruction and the global spread of weapons technology 
and terrorism.
    I think it is clear that while we have recognized these new 
threats, there has to be lots more done at NATO to meet them. 
In order to defend ourselves against these new threats, NATO 
needs to be able to deploy at short notice flexible, well armed 
forces capable of conducting sustained military operations 
across a range of options.
    And while the United States now possesses these kinds of 
forces, in large measure our European allies do not. And I 
believe that this growing capabilities gap between Europe and 
the United States is the most serious long-term problem facing 
NATO. It must be addressed.
    And I would say to Senator Lugar that I think there is 
consensus on this; there is consensus that Europeans need to do 
more to close this capabilities gap. In order to fight 
effectively alongside the United States, our European allies 
need more flexible, sustainable forces able to move long 
distances quickly and deliver overwhelming firepower on 
arrival. This will mean that they need to invest in airlift, 
and in sealift, precision strike capabilities and the ability 
to communicate with the rest of us at the fight.
    In our view, at Prague, NATO must begin to address these 
issues and must begin to take serious steps to improve overall 
Alliance capabilities. Under Secretary Feith will have more to 
say on this. I would like--as I have said, I have more on mine 
that is part of the record, but this is a very, very important 
issue.
    The Chairman. Do not short-circuit your comments on that 
issue, I mean, do not worry about the time.
    Mr. Grossman. OK.
    The Chairman. This is the central issue for most of us 
sitting up here.
    Mr. Grossman. It is a central issue. I will just make one 
more comment since both of you raised it.
    What I said at NATO the other day to all of our allies 
sitting around the table was, ``If we get to a point where it 
is the truth that the United States fights and NATO cleans up 
or the United States fights and the European Union cleans up, 
that is bad for us and it is very, very bad for our European 
allies.''
    So I just could not agree with both of you more and, as I 
say, the Under Secretary will say more about the precise parts 
of these capabilities. But I believe that if we work ourselves 
into this position where there is this division of labor, we 
will all have done ourselves--we will have done ourselves a 
considerable amount of damage, not just to the United States, 
but certainly to the Europeans as well.
    I will talk for a minute about new members, Mr. Chairman. 
Our second goal for Prague is to continue the process of 
building a united Euro-Atlantic community, by extending 
membership to those democratic European countries who have 
demonstrated their determination and their ability to defend 
the principles of democracy, individual liberty and the rule of 
law.
    As the President observed last year in Warsaw, ``Yalta did 
not ratify a natural divide. It divided a living 
civilization.''
    And I believe that a fair review of the enlargement to 
Europe's new democracies in 1997, which this committee so 
successfully supported, has brought us closer to completing the 
vision of NATO's founders of a free and united Europe. But our 
work on this is not yet done.
    In his first meeting with allies last June, President Bush 
secured a consensus to take concrete, historic decisions in 
Prague to advance enlargement. And we take as our guidance the 
President's view that NATO ``should not calculate how little we 
can get away with, but how much we can do to advance the cause 
of freedom.''
    We have been working very hard with the aspirant countries 
and with other allies so that people are ready for NATO 
membership.
    You all know that a team led by U.S. Ambassador to NATO 
Nick Burns completed a tour of all 9 of the aspirant countries 
focusing on the need for reform. We have told aspirants that 
the United States has made no decision on which countries to 
support for membership, and we have urged them all to 
accelerate their reforms between now and Prague.
    Members of this committee, Members of the Senate, members 
of the public, I think will rightly ask: ``What capabilities, 
what contributions will these aspirant countries bring to the 
Alliance if they are allowed to join our treaty?''
    Well, the Washington treaty makes clear that states invited 
to join NATO should be in a position to further the principles 
of the treaty and contribute to the security of the Euro-
Atlantic area. Many aspirants have already demonstrated their 
determination to do just this.
    The Vilnius Group, which met in Sofia last October declared 
its shared intention, and I quote here from their statement, to 
``fully support the war against the terrorism'' and to ``act as 
Allies of the United States of America.'' And when Deputy 
Secretary Armitage was in Bucharest not 3 weeks ago, this 
commitment was very much reaffirmed.
    Aspirants have offered overflight rights, transit and 
basing privileges, military and police forces, medical units 
and transportation support to U.S. efforts. Most of them will 
participate in the International Security Assistance Force in 
Afghanistan. And most aspirant countries have contributed 
already to our efforts in the Balkans.
    Some people have said that after September 11, enlargement 
should not remain a priority. I think that is wrong. I believe 
that enlargement should remain a priority for this Alliance 
because, as you said, Senator Lugar and Senator Biden, the 
events of September 11 show us that the more allies we have, 
the better off we are going to be. The more allies we have to 
prosecute the war on terrorism the better off we are going to 
be.
    And if we are going to meet these new threats to our 
security, we need to build the broadest and strongest coalition 
possible of countries that share our values and are able to act 
effectively with us. With freedom under attack, we must 
demonstrate our resolve to do as much as we can to advance our 
cause.
    It is our goal and it is also our expectation that, working 
with you, we will be able to forge a solid and united approach 
to enlargement and to build an equally strong consensus within 
the Alliance.
    I might say, if I could take this opportunity also, that we 
very much appreciate the support that members of this committee 
have given to the Freedom Consolidation Act, and we hope that 
the solid bipartisan support for this act might help it pass in 
the very near future. We look forward to the closest possible 
consultations with the Congress, and especially the Senate, as 
we go forward on the questions of enlargement.
    Finally, Mr. Chairman, a word or two about new 
relationships. And I appreciate what Senator Lugar said, that 
there seems to be a consensus on the fact that we need to have 
the right new relationship with Russia, but I also appreciate 
the point that you made, Mr. Chairman, that we have got to get 
it right and we should not leave doubts and anxieties on either 
side about what this relationship is to be about.
    Our goal for Prague is to advance this NATO core principle, 
which is that NATO ought to live in peace with all peoples and 
promote stability in the Euro-Atlantic area. NATO-Russia have 
taken important steps to give new emphasis and direction to 
their extensive cooperation in the aftermath of September 11.
    And as you both said, NATO is now working with Russia to 
complete negotiations on the creation of a new body to be 
called the NATO-Russia Council that will permit joint decisions 
and actions in areas of common interests. At the upcoming 
Reykjavik Ministerial, we are optimistic that Secretary of 
State Powell will be able to conclude with his colleagues the 
agreement on this new structure.
    And then to acknowledge the potential significance of the 
new relationship, President Bush and other NATO leaders have 
been invited to a summit on the 28th of May in Rome to 
celebrate the new NATO-Russia Council.
    Mr. Chairman, let me answer your question as directly as I 
can. From our perspective, here is what this new NATO-Russia 
Council will do: First, it will focus on practical, well-
defined projects, where NATO and Russia share a common purpose 
and a common goal. Second, it will offer Russia the opportunity 
to participate in shaping the development of cooperative 
mechanisms in areas such as counterterrorism, nonproliferation, 
and civil emergency preparedness.
    Very importantly as well, here is what the NATO-Russia 
Council will not do: The body will not give Russia the ability 
to veto any NATO actions in any area. Second, it is not a back 
door to NATO membership. Third, the NATO-Russia Council will 
not infringe on NATO's prerogatives.
    NATO members will continue to take any decision by 
consensus on any issue. And the NATO-Russia Council will be 
fully separate from the North Atlantic Council, which will 
continue to meet and make decisions as it always has on the 
full range of issues on NATO's agenda.
    Mr. Chairman, while forging these new links with Russia, we 
also need to pay attention to countries like Ukraine, to the 
countries we are working with in Central Asia. And very 
importantly from my trip to the region, we want to pay 
attention to what is called NATO's Mediterranean dialog as 
well.
    Mr. Chairman, nearly 53 years after its creation, NATO 
remains the core of the United States commitment to Europe and 
the bedrock of our security. A Europe whole and free and at 
peace is a goal fast becoming a reality thanks to NATO.
    As we look to Prague and to our agenda for new 
capabilities, new members and new relationships, we look 
forward to working closely with members of this committee to 
ensure that NATO will meet tomorrow's challenges as 
successfully as it met those of the past. I thank you very 
much.
    The Chairman. Thank you, Marc.
    [The prepared statement of Mr. Grossman follows:]

Prepared Statement of Hon. Marc Grossman, Under Secretary of State for 
                           Political Affairs

    Senator Biden, Senator Lugar, Members of the Committee, it is an 
honor and a privilege to be here. I thank you for the opportunity to 
address the Senate Foreign Relations Committee with my friend and 
colleague, Doug Feith.
    Mr. Chairman, I would like to begin by thanking you and other 
members of this Committee and the Senate for your strong and consistent 
support for NATO, which has helped ensure it remains the greatest 
Alliance in history.
    It has been a privilege and my good fortune to have had the 
opportunity to consult with you and take your advice over the years on 
NATO. I look forward to continuing this dialogue and consultation in 
the future.
    Mr. Chairman, I appreciate your invitation today at a time when the 
future of NATO is being actively discussed on both sides of the 
Atlantic.
    I welcome this debate. Our governments, our parliaments and our 
publics ought to talk about the future of NATO. That is what 
democratically supported foreign and defense policy is all about.
    The attacks of September 11 and NATO's response prove to me NATO's 
continuing value in a world of new and unpredictable threats. Invoking 
Article 5 for the first time in history, NATO sent a clear message that 
the Alliance is united and determined.
    We greatly value NATO's collective response, as well as the 
contributions of individual Allies. Fifty years of NATO cooperation 
made natural the participation of Allied forces in Operation Enduring 
Freedom. NATO AWACS have logged over 3,000 hours patrolling American 
skies. All NATO Allies have provided blanket overflight rights, access 
to ports and bases, refueling assistance, and stepped up intelligence 
efforts. Sixteen of our Allies are supporting Operations Enduring 
Freedom and Noble Eagle with military forces and capabilities. Fourteen 
Allies have deployed forces in the region, and nine are participating 
in combat operations with us in eastern Afghanistan as we speak.
    Almost all contributors to the International Security Assistance 
Force, initially led by Britain and soon by Turkey, are current Allies, 
aspiring Allies, or countries who have trained with NATO in the 
Partnership for Peace. Their varied contributions include air 
reconnaissance, refueling, cargo, and close air support missions, 
special forces missions, specialized nuclear, biological, and chemical 
weapons units, mine clearing and medical units, and naval patrols. 
Altogether Allies and Partners have deployed nearly 4,000 troops to 
Afghanistan.
    NATO's actions in response to September 11 come as no surprise to 
me. Throughout its history, NATO has adapted to meet new threats and 
seize new opportunities.
    Nothing illustrates this fact better than the number of countries 
seeking to join. Secretary Powell made this point last week, observing 
that countries want to join ``because they want to be a part of a 
political and security organization that is anchored in its 
relationship with North America.''
            nato today: enduring values and common purposes
    When President Bush and his counterparts meet in Prague later this 
year, their gathering will symbolize the changes that have taken place 
in Europe and NATO's central role in making these changes possible.
    Prague: Once behind an Iron Curtain.
    Prague: Synonymous in a famous spring in 1968 with rebellion 
against oppression and thirst for democracy. And in 1991, Prague hosted 
the meeting that dissolved the Warsaw Pact.
    In 2002, NATO leaders will come to Prague to continue shaping that 
new Europe and to reaffirm the strength, unity and vitality of the 
Atlantic Alliance.
    The North Atlantic Treaty Organization remains a fundamental pillar 
of our foreign and defense policy. As President Bush said last month, 
NATO remains ``an anchor of security for both Europe and the United 
States.''
    I have just returned from meeting with all of our Allies at NATO. I 
then traveled to eight Allied capitals to consult on our agenda for 
Prague.
    We proposed that Prague be defined by three themes: New 
Capabilities, New Members, and New Relationships.
  21st century nato: new capabilities, new members, new relationships
    September 11 has brought home to us how dangerous our world has 
become. Czech President Vaclav Havel, who will host the Prague summit, 
observed that September 11 ``alerted us to the evil existing in this 
world.'' September 11 has also demonstrated how important our Allies 
are in helping to defeat the new threats that face us. To protect our 
way of life, the Alliance must be an effective tool in the world after 
September 11.
    That is why NATO ministers agreed last December to intensify common 
efforts to meet the threats from terrorism and weapons of mass 
destruction that all Allies face. When President Bush meets with Allied 
leaders in Prague later this year, we expect that Allies will approve 
an action plan aimed at enhancing NATO's ability to deal with these and 
other threats.
    NATO is not less important to our security today, NATO is more 
important.
    Our agenda at Prague will be threefold:

  <bullet> Ensuring NATO has the capabilities needed to meet emerging 
        new threats,

  <bullet> Extending NATO membership to more new European democracies, 
        and

  <bullet> Renewing NATO relationsships with Russia, Ukraine and other 
        Partners.

    New capabilities. New members. New relationships.
    This agenda is rooted in NATO's values and goals as set out in the 
1949 Washington Treaty--to safeguard the freedom, common heritage and 
civilization of our peoples, live in peace with all peoples and 
governments, and promote the stability and well-being of the North 
Atlantic area.
                            new capabilities
    Since the end of the Cold War, the Alliance has taken steps to 
revise its doctrine and improve its command and force structures to 
meet today's threats. The 1999 Strategic Concept defined these new 
threats explicitly, noting that ``new risks to Euro-Atlantic peace and 
stability were becoming clearer--oppression, ethnic conflict, the 
proliferation of weapons of mass destruction, and the global spread of 
weapons technology and terrorism.''
    While we have recognized the new threats, we have more to do to 
prepare NATO to meet them. The September 11 terrorist attacks 
demonstrated that the threats to Allies and to our Alliance can come 
from anywhere, at any time, employing devices ranging from a box cutter 
to weapons of mass destruction. In order to defend ourselves against 
these new threats, NATO needs to be able to deploy at short notice 
flexible, well-armed forces capable of conducting sustained operations 
across a range of military options.
    While the U.S. currently possesses forces with such capabilities, 
in large measure our European Allies do not. I believe the growing 
capabilities gap between the United States and Europe is the most 
serious long-term problem facing NATO and must be addressed. In order 
to fight effectively alongside the U.S., our European Allies need 
flexible, sustainable forces, able to move long distances quickly and 
deliver overwhelming firepower on arrival. This will require improved 
strategic lift and modern precision strike capabilities, as well as 
enhanced combat support and combat service support. Unless the 
disparity is substantially narrowed, NATO will be increasingly less 
able to play its part in countering the threats that now face us.
    At Prague, NATO must begin to redress this imbalance by agreeing to 
steps aimed at improving overall Alliance capabilities. These will 
include further streamlining NATO's command structure to make it more 
responsive to today's threats and a commitment to provide the 
deployable, capable and ready forces NATO needs.
    We are seeking a comprehensive improvement in European military 
capabilities. Although the DCI initiative identified many areas where 
improvements were needed, much remains to be done to fulfill its goals. 
We need to sharpen and narrow our focus. Increased defense spending 
remains an important goal, and we believe Alllies can also use 
resources more effectively by greater pooling of their efforts. Among 
the proposals we would favor is creation of a European Mobility Command 
to coordinate existing and future European airlift assets.
    Afghanistan has also demonstrated the importance of Special 
Operations forces in combined land-air operations. To enhance NATO 
capabilities in this area we will also propose creation of a Special 
Operations Coordination Center at SHAPE.
    NATO must also develop the means to defend its forces and members 
against weapons of mass destruction fielded either by rogue states or 
terrorist groups or by some combination of the two. Here we have 
proposed initiatives on biological weapons defense and bio-terrorism 
and will soon offer proposals on missile defense.
                              new members
    Our second goal for Prague is to continue the process of building a 
united Euro-Atlantic community by extending membership to those 
democratic European countries who have demonstrated their determination 
and ability to defend the principles of democracy, individual liberty, 
and the rule of law.
    As the President observed last year in Warsaw, ``Yalta did not 
ratify a natural divide, it divided a living civilization.'' He made it 
clear that his goal is to erase the false lines that have divided 
Europe and to ``welcome into Europe's home'' every European nation that 
struggles toward democracy, free markets, and a strong civic culture.
    The process of enlargement to Europe's new democracies launched in 
1997 has fulfilled NATO's promise and brought us closer to completing 
the vision of NATO's founders of a free and united Europe. But our work 
is not done.
    In his first meeting with Allies last June, the President secured a 
consensus to take concrete, historic decisions at Prague to advance 
enlargement. We take as guidance the President's view that NATO 
``should not calculate how little we can get away with, but how much we 
can do to advance the cause of freedom.''
    We have been working with Allies and the nine current aspirant 
countries to strengthen their preparations. A team led by U.S. 
Ambassador to NATO Nick Burns visited the aspirant countries earlier 
this year to reinforce the importance of addressing key reform 
priorities in the months before Prague. Our team came away from its 
meetings impressed by the commitment of the aspirants to meeting their 
Membership Action Plan goals and advancing reforms, even while 
recognizing that they all have serious work ahead to prepare for 
membership. We have told aspirants that the U.S. has made no decision 
on which countries to support for membership, and we have urged them to 
accelerate their reforms between now and Prague.
    Members of this Committee and the rest of the Senate will rightly 
ask what capabilities and contributions potential new members will 
bring to the Alliance.
    The Washington Treaty makes clear that states invited to join NATO 
should be in a position to further the principles of the Treaty and 
contribute to the security of the Euro-Atlantic area. This is the 
standard that we and our Allies will apply as we approach decisions at 
Prague. Many aspirants have already demonstrated their determination to 
contribute to Euro-Atlantic security and stability. The Vilnius Group, 
meeting in Sofia last October declared its shared intention to ``fully 
support the war against terrorism'' and to ``act as Allies of the 
United States.'' Aspirants have offered overflight rights, transit and 
basing privileges, military and police forces, medical units and 
transport support to U.S. efforts. Most will participate in the 
International Security Assistance Force in Afghanistan. Most aspirant 
countries have also contributed actively to NATO efforts to prevent 
further hostilities in the Balkans.
    Some have asked in the aftermath of September 11 whether 
enlargement should remain a priority. I believe the answer is ``yes.'' 
The events of September 11 have reinforced the importance of closer 
cooperation and integration between the United States and all the 
democracies of Europe. If we are to meet new threats to our security, 
we need to build the broadest and strongest coalition possible of 
countries that share our values and are able to act effectively with 
us. With freedom under attack, we must demonstrate our resolve to do as 
much as we can to advance its cause.
    It is our goal and expectation that, working with you, we will be 
able to forge a solid and united approach to enlargement and build an 
equally strong consensus with the Alliance.
    We welcome the support from members of this Committee for the 
Freedom Consolidation Support Act, and believe that a solid bipartisan 
majority behind this bill will send a message of our commitment to an 
enlarged and strengthened Alliance.
    We look forward to the closest consultations with the Congress on 
this subject and to the debate in the Senate on ratification as we 
approach these historic decisions.
    Our third goal for Prague is also aimed at advancing NATO's core 
principles--those of living in peace with all peoples and promoting 
stability in the Euro-Atlantic area. As we work to complete the vision 
of a united Europe from which, Winston Churchill once observed, ``no 
nation should be permanently outcast,'' we must continue to reach out 
and expand cooperation and integration with all of NATO's Partners.
    NATO and Russia have taken steps to give new impetus and direction 
to their extensive cooperation in the aftermath of September 11. 
President Bush's vision is of a Russia ``fully reformed, fully 
democratic, and closely bound to the rest of Europe,'' which is able to 
build partnerships with Europe's great institutions, including NATO.
    NATO is now working with Russia to complete negotiations on 
creation of a new body--the NATO-Russia Council--that will permit joint 
decisions and actions in areas of common interest. At the upcoming 
Reykjavik ministerial, we are optimistic that Secretary Powell will 
conclude with his colleagues the agreement on the new structure. To 
acknowledge the potential significance of the new relationship, 
President Bush will join NATO and Russian leaders at a summit May 28 in 
Italy to inaugurate the NATO-Russia Council.
    Here's what the proposed NATO-Russia Council will do:

  <bullet> It will focus on practical, well-defined projects where NATO 
        and Russia share a common purpose and a common goal.

  <bullet> It will offer Russia the opportunity to participate in 
        shaping the development of cooperative mechanisms in areas such 
        as counter-terrorism, nonproliferation, and civil emergency 
        preparedness.

Here is what the NATO-Russia Council will not do:

  <bullet> The new body will not give Russia the ability to veto NATO 
        actions in any areas.

  <bullet> It is not a back door to NATO membership.

  <bullet> It will not infringe on NATO prerogatives. NATO members will 
        continue to take any decision by consensus on any issue.

    The NATO-Russia Council will be fully separate from the NAC, which 
will continue to meet and make decisions as it always has on the full 
range of issues on NATO's agenda.
    While forging new links with Russia, our cooperative vision for 
NATO embraces all of NATO's Partners, including Ukraine, countries in 
the Caucasus and Central Asia, and Mediterranean Dialogue partners.
    Our Distinctive Partnership with Ukraine has helped ensure that 
Ukraine continues to progress along the reform path and expand its 
links to the West. Ukraine has signaled its desire for closer 
integration with NATO. NATO has made clear to Ukraine the need for 
greater substantive progress in a number of areas. At Prague, we should 
welcome Ukraine's interest while looking to develop initiatives aimed 
at concrete results in strategic areas of common interest.
    We want to focus at Prague on NATO's Partner activities with 
countries of Central Asia that have played such constructive roles in 
the war against terrorism. The Partnership for Peace and EAPC have been 
successful vehicles for integration, but we believe that much more can 
be done to expand cooperation between NATO and these countries. Through 
the PfP, NATO can help build reformed, stable, democratic societies in 
Central Asia and the Caucasus. We need to make sure PfP programs and 
resources are tailored to their needs, so that they can develop the 
forces and training they need to meet common threats and strengthen 
stability.
    Nearly fifty-three years after its creation, NATO remains the core 
of the United States commitment to Europe and the bedrock of our 
security. NATO has kept peace in Europe for over half a century, it 
continues to provide for Allies conventional and nuclear defense, and 
it is the nexus of cooperation with Russia, Ukraine, Central Asia and 
the Caucasus. No other organization can fulfill these roles.
    A Europe whole, free and at peace is a goal fast becoming a reality 
thanks to NATO. We and our Allies have much work ahead, but also an 
historic opportunity to achieve our goals of defending, integrating, 
and stabilizing the Euro-Atlantic area and continuing to strengthen 
this greatest of Alliances. As we look to Prague and our agenda of new 
capabilities, new members, and new relationships, we look forward to 
working closely with members of this Committee to ensure that NATO will 
meet tomorrow's challenges as successfully as it has those of the past.

    The Chairman. Secretary Feith.

STATEMENT OF HON. DOUGLAS J. FEITH, UNDER SECRETARY OF DEFENSE 
       FOR POLICY, DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Mr. Feith. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Lugar, members of the committee, I 
would like first to echo Secretary Grossman's comment about the 
usefulness of the consultation that we in the administration 
have had with members of this committee and other Members of 
the Senate.
    We have been impressed by the degree of interest in NATO. 
It is useful to us to learn your perspectives and it is 
gratifying to see that there is the kind of support, bipartisan 
support for NATO that remains very strong today despite all--
no, I would not even say ``despite.'' I would say largely 
because of all the questions that people continually raise 
about NATO's relevance to the current world.
    Chairman Biden began his remarks by reading from the North 
Atlantic Treaty. He quoted from Article 5. I would like to 
quote a short passage from the preamble of the 1949 treaty. It 
said, ``The parties are determined to safeguard the freedom, 
common heritage and civilization of their peoples, founded on 
the principles of democracy, individual liberty, and the rule 
of law. They seek to promote stability and well-being in the 
North Atlantic area.''
    NATO achieved these purposes during the cold war, and since 
then it has fulfilled them in the Balkans through its 
peacekeeping work in Bosnia and in the war against ethnic 
cleansing in Kosovo.
    NATO has adapted itself to play an important role now in 
supporting the U.S.-led war on terrorism. And in the future, an 
expanding list of NATO members will continue to promote Euro-
Atlantic stability. The Alliance will continue to safeguard the 
community of North Atlantic democracies against all types of 
threats, including, I suppose, threats that we cannot now 
anticipate.
    Since 1949, we have had a broad and bipartisan support for 
NATO as an element of U.S. national security policy. I take 
this as a sign that the phrase ``Atlantic community'' is 
meaningful.
    The United States and its European and Canadian allies 
indeed are a community. We are not just a collection of members 
of a multinational forum. We share fundamental beliefs, for 
example about the nature of human beings, their rights and 
their relationship to their respective governments. And the 
security of the community's different elements is of a piece.
    Among the Atlantic community's members there are common 
interests, large common interests, economic and political, as 
well as military. And there is true fellow feeling that 
motivates action.
    For an alliance of this kind to remain vital for over 50 
years, there must be more than a treaty underlying it. There 
must be sentiment, a sense of community, that makes the 
Alliance richer than a simple legal obligation. And this point, 
I think, was illustrated in the response of NATO and NATO 
members to the attack on the United States on September 11. Our 
allies responded to the attack quickly, loyally and usefully.
    Less than 24 hours after the World Trade Center and 
Pentagon were hit, the Alliance for the first time in history, 
as Chairman Biden noted, invoked Article 5, the collective 
defense provision of the NATO treaty. And since last fall, as 
has been commented on, we have 7 NATO AWACS aircraft patrolling 
U.S. skies.
    The war effort and the post-Taliban reconstruction and 
security effort in Afghanistan are benefiting from the 
contributions of our NATO allies and partners. Those 
contributions have come from within and outside the formal 
Alliance structures. All, as Secretary Grossman stressed, are 
the result of more than 50 years of joint planning, training, 
and operations within NATO.
    The contributions have entailed great sacrifice. America is 
not the only NATO ally to have lost soldiers in Operation 
Enduring Freedom. The forces of our Canadian and European 
allies have also suffered losses, as have other Enduring 
Freedom coalition states.
    In speaking to the NATO Defense Ministers last June, 
Secretary Rumsfeld listed terrorism first among the new threats 
facing the Alliance. The other threats he mentioned were cyber 
attack, high-tech conventional weapons and ballistic and cruise 
missiles armed with weapons of mass destruction.
    Members of this committee also recognize these new threats. 
As Senator Lugar pointed out in a recent speech, ``The 
terrorist attacks on the United States of last September have 
graphically demonstrated how vulnerable we are. And when I say 
`we,' I mean the West in general, including Europe. The next 
attack could just as easily be in London, Paris, or Berlin as 
in Washington, Los Angeles or New York. And it could involve 
weapons of mass destruction.''
    NATO's core mission remains the collective defense of its 
members, as stated in Article 5. But there is room and need for 
change in how NATO fulfills its responsibility to protect the 
Alliance's interests and promote its principles. NATO will need 
to transform itself to handle new threats and serve its other 
purposes.
    The Prague summit will be an important event and as 
Secretary Grossman said, it is going to stress the themes of 
new capabilities, new members and new relationships.
    The military forces of the Alliance are the essence of the 
Alliance's essential function, common defense. But I agree with 
Secretary Grossman that the notorious capabilities gap between 
the United States and its European and Canadian allies 
continues to grow, and if the divergence is not reversed, it 
will impede the allies' ability to operate with U.S. forces in 
the future and will ultimately weaken the Alliance's political 
cohesion.
    So our first goal at Prague must be to remedy the 
capabilities deficiencies within the Alliance. We will work to 
secure the commitment of allied leaders to specific measures 
and definite timelines to fix shortfalls in four top priority 
areas. And I would like to review these top priority areas:
    First, nuclear, biological, and chemical defenses to 
protect allied forces and missile defenses to protect Alliance 
forces, territory and population centers against the range of 
missile threats; second, platforms and support capabilities to 
transport Alliance forces rapidly to wherever they are needed 
and to supply them until their mission is completed; third, 
communication and information systems that will connect 
Alliance forces securely before and during combat and peace 
enforcement operations; and, fourth, modern weapons systems, 
such as all-weather precision guided munitions, jamming systems 
and capabilities to suppress enemy air defenses that will 
enable allies to make first tier contributions to combat 
operations.
    To achieve these goals, we believe allies should seek both 
to increase defense spending and to use their resources more 
effectively by pooling efforts.
    At Prague, the United States will also seek agreements to 
streamline NATO's command force structures. As you know, the 
United States is changing its own Unified Command Plan. 
Likewise, NATO should ensure that its command and force 
structures are reorganized for 21st century missions.
    One of the U.S. Unified Command Plan changes has 
implications for the job of Supreme Allied Commander, Atlantic, 
SACLANT. SACLANT heads one of the two existing NATO strategic 
commands. Today, the commander of the U.S. Joint Forces Command 
serves as SACLANT.
    The new U.S. Unified Command Plan, however, is going to 
refocus the U.S. Joint Forces Command solely on its 
transformation mission. Secretary Rumsfeld has approved the 
decision to divest the commander of the U.S. Joint Forces 
Command of his SACLANT responsibilities.
    Now, various allied officials have told us that NATO's 
connection to an American four-star combatant commander based 
in the United States is an important transatlantic link for the 
Alliance. And we are consulting with Lord Robertson, NATO's 
Secretary-General, and with the allies on the future 
arrangements for SACLANT.
    We are intent on bolstering, not cutting the transatlantic 
links of NATO. And we will do so in ways that serve the common 
interest in promoting defense transformation and streamlining 
NATO's Command Structure.
    Now, Mr. Chairman, I would like to offer a word or two on 
this issue of new members. The goal of inviting additional 
European democracies to join the Alliance has been well 
addressed by Secretary Grossman, who cited this important 
statement by President Bush that, as we plan the Prague summit, 
``We should not calculate how little we can get away with, but 
how much we can do to advance the cause of freedom.''
    Mr. Chairman, I recall that you and Senator Helms and other 
members of this committee wrote to President Bush a few weeks 
before his Warsaw speech stating that, ``It is in America's 
strategic interest that the process of NATO enlargement 
continue.''
    The events of September 11 have intensified the President's 
commitment to this goal. The administration wants to preserve a 
bipartisan approach as we move forward. An enlarged Alliance of 
democratic states with improved military capabilities and 
interoperability, joint defense and operational planning, and 
realistic training will be better able to fulfill the 
Alliance's purpose to increase the security of its members and 
provide for their common defense effort against terrorism and 
other threats.
    The aspirant countries are demonstrating their ability to 
operate with the Alliance. For example, in the past year, 7 of 
the 9 NATO aspirants contributed forces to the NATO-led 
operation in Kosovo; and 8 of the 9 participated in the NATO-
led operation in Bosnia.
    Aspirants have contributed in various ways to Operation 
Enduring Freedom through intelligence, overflight rights, use 
of their air bases, offers of personnel to support operations 
in the region, and public and diplomatic support. They have 
conducted themselves as we want our allies to act.
    Mr. Chairman, we recognize that enlargement of the Alliance 
is not an exercise free of risks and difficult judgments. 
People of experience and wisdom have warned us of the dangers 
of making the Alliance unwieldy. They do not want the Alliance 
to dilute its military capabilities through enlargement, and 
they are concerned about NATO's relations with neighbors.
    They want to ensure that any enlargement will strengthen 
NATO's ability to perform its defense mission. And they want to 
ensure that the commitment of new members to the Alliance's 
principles and work will be real and enduring. We respect these 
views and share the concerns. Receiving these concerns is one 
of the useful elements of the dialog that the administration 
has been having with the Senate. It is clear that enlargement 
must be done with care.
    As part of this process, the Defense Department is working 
with the aspirants to help them become the best possible 
candidates. We are assessing the state of each aspirant's 
military structures, its implementation of defense reforms, the 
readiness of its military units dedicated to NATO-led missions, 
and the military value it can bring to NATO. We are telling 
them clearly where improvements are necessary.
    As to the issue of new relationships and NATO's 
relationship in particular with Russia, President Bush has made 
a top priority of creating a new, cooperative U.S.-Russian 
relationship. And that effort is integrated with the work that 
we are doing with the NATO allies to create the NATO-Russia 
relationship based on specific practical cooperation. The goal 
is to erase the vestiges of cold war hostility.
    Fostering improved NATO-Russia cooperation can induce 
further democratic, market and military reform in Russia and 
contribute to improving Russia's relations with its neighbors.
    As we move forward, first to the NATO-Russia summit that is 
coming at the end of this month, and then beyond, NATO should 
take, and will take care to retain its ability to decide and 
act on security issues as its members see fit.
    The North Atlantic Council will decide by consensus on the 
form and substance of our cooperation with Russia. As Secretary 
Grossman stressed, Russia will not have a veto over Alliance 
decisions, and we will ensure that NATO-Russia cooperation does 
not serve to discourage or marginalize other partners.
    Mr. Chairman, in conclusion, we plan to use the Prague 
summit to improve the Alliance, to make it more capable 
militarily, better able to secure the peace and more tightly 
knit across the Atlantic.
    I believe we have strong bipartisan support for this 
approach. I look forward to working with you and the members of 
this committee as we move forward to the NATO summit in Prague. 
Thank you.
    [The prepared statement of Mr. Feith follows:]

Prepared Statement of Hon. Douglas J. Feith, Under Secretary of Defense 
                               for Policy

    Mr. Chairman, Members of the Committee, I appreciate the 
opportunity to discuss with you NATO's future in the run-up to the 
Alliance's summit meeting in Prague next November.
    The preamble to the 1949 NATO Treaty states:

          [The Parties] are determined to safeguard the freedom, common 
        heritage and civilization of their peoples, founded on the 
        principles of democracy, individual liberty and the rule of 
        law. They seek to promote stability and well-being in the North 
        Atlantic Area.

    NATO achieved these purposes during the Cold War. Since then, it 
fulfilled them in the Balkans through its peacekeeping work in Bosnia 
and in the war against ethnic cleansing in Kosovo. NATO has adapted 
itself to play an important role supporting the current U.S.-led war on 
terrorism. In the future, an expanding list of NATO members will 
continue to promote Euro-Atlantic stability. The Alliance will continue 
to safeguard the community of North Atlantic democracies against 
threats of all types, including, I suppose, threats we cannot now even 
anticipate.
    Since 1949, broad, bipartisan support for NATO has been an element 
of U.S. national security policy. This is a sign that the phrase 
``Atlantic community'' is meaningful. The United States and its 
European and Canadian Allies indeed constitute a community. We are not 
just a collection of members of a multinational forum. We share 
fundamental beliefs--for example, about the nature of human beings, 
their rights and their relationship to their respective governments. 
And the security of the community's different elements is of a piece. 
Among the Atlantic community's members, there are large common 
interests--economic and political as well as military--and there is 
true fellow feeling that motivates action. For an alliance of this kind 
to remain vital for over fifty years, there must be more than a treaty 
underlying it. There must be sentiment--a sense of community--that 
makes the Alliance richer than a simple legal obligation.
    This point, I think, was illustrated in the immediate aftermath of 
the September 11 attack on the United States.
    NATO and our NATO Allies responded to the attack quickly, loyally 
and usefully. Less than 24 hours after the World Trade Center and 
Pentagon were hit, the NATO Alliance, for the first time in history, 
invoked Article 5--the collective defense provision of the 1949 NATO 
Treaty. Since last fall, seven NATO Airborne Warning and Control System 
(AWACS) aircraft have been patrolling U.S. skies. The war effort and 
the post-Taliban reconstruction and security effort in Afghanistan are 
benefiting from individual NATO Allies' and Partners' contributions. 
Such Allied contributions have come within and outside formal NATO 
structures. All those contributions, however, are the result of more 
than 50 years of joint planning, training and operations within NATO.
    Those contributions have entailed great sacrifice. America is not 
the only NATO Ally to have lost soldiers in Operation Enduring Freedom. 
The forces of our Canadian and European Allies also have suffered 
losses, as have other coalition states in Operation Enduring Freedom.
    In his statement to NATO defense ministers last June, Secretary 
Rumsfeld listed terrorism first among the new threats facing the 
Alliance. The others he mentioned were cyber-attack, high-tech 
conventional weapons, and ballistic and cruise missiles armed with 
weapons of mass destruction.
    Members of this Committee also recognize these new threats. As 
Senator Lugar pointed out in a recent speech:

          The terrorist attacks on the United States of last September 
        have graphically demonstrated how vulnerable we are. And when I 
        say ``we'', I mean the West in general, including Europe . . . 
        The next attack could just as easily be in London, Paris, or 
        Berlin as in Washington, Los Angeles or New York. And it could 
        involve weapons of mass destruction.

    NATO's core mission remains the collective defense of its members, 
as stated in Article 5. But there is room and need for change in how 
NATO fulfills its responsibility to protect the Alliance's interests 
and promote its principles. NATO will need to transform itself to 
handle with new threats and serve its other purposes.
    NATO's Prague summit meeting this fall will be an important event. 
At Prague, the United States will stress three themes: new 
capabilities, new members, and new relationships.
                            new capabilities
    NATO's military forces are the essence of the Alliance's essential 
function: common defense. But the notorious ``capabilities gap'' 
between the United States and its European and Canadian Allies 
continues to grow. If this divergence is not reversed, it will impede 
the Allies' ability to operate with U.S. forces in the future and will, 
ultimately, weaken the Alliance's political cohesion.
    So our first goal at Prague must be to begin to remedy the 
capabilities deficiencies within NATO. We shall work to secure the 
commitment of Allied leaders to specific measures and definite 
timelines to fix shortfalls in four top-priority areas:

  <bullet> First: Nuclear, biological, and chemical defenses to protect 
        Allied forces, and missile defenses to protect Alliance forces, 
        territory, and population centers against the range of missile 
        threats.

  <bullet> Second: Platforms (and support capabilities) to transport 
        Alliance forces rapidly to wherever they are needed, and to 
        supply them until their mission is completed.

  <bullet> Third: Communication and information systems that will 
        connect Alliance forces securely before and during combat and 
        peace enforcement operations; and

  <bullet> Fourth: Modern weapons systems--such as all-weather 
        precision guided munitions, jamming systems, and capabilities 
        to suppress enemy air defenses--that will enable Allies to make 
        first-tier contributions to combat operations.

To achieve these goals, we believe that Allies should seek both to 
increase defense spending and to use their resources more effectively 
by pooling efforts.
    At Prague, the United States will also seek agreements to 
streamline NATO's command and force structures. As you know, the United 
States is changing its own Unified Command Plan. Likewise, NATO should 
ensure that its command and force structures are reorganized for 21st 
century missions.
    One of the U.S. Unified Command Plan changes has implications for 
the job of the Supreme Allied Commander, Atlantic (SACLANT). SACLANT 
heads one of the two existing NATO strategic commands. Today, the 
Commander of the U.S. Joint Forces Command serves as SACLANT. The new 
U.S. Unified Command Plan, however, will refocus the U.S. Joint Forces 
Command solely on its transformation mission. Secretary Rumsfeld has 
approved the decision to divest the Commander of the U.S. Joint Forces 
Command of his SACLANT responsibilities.
    Various Allied officials have told us that NATO's connection to an 
American four-star Combatant Commander, based in the United States, is 
an important trans-Atlantic link for the Alliance. We are consulting 
with Lord Robertson, NATO's Secretary General, and with the Allies on 
the future arrangements for SACLANT. We are intent on bolstering, not 
cutting, the Alliance's trans-Atlantic links. We shall do so in ways 
that serve the common interest in promoting defense transformation and 
streamlining the NATO Command Structure.
                              new members
    Our second goal at Prague will be to invite additional European 
democracies to join the Alliance. President Bush declared his policy on 
NATO enlargement in a speech last June in Warsaw:

          I believe [the President said] in NATO membership for all of 
        Europe's democracies that seek it and are ready to share the 
        responsibility that NATO brings . . . As we plan the Prague 
        summit, we should not calculate how little we can get away 
        with, but how much we can do to advance the cause of freedom.

    Mr. Chairman, I recall that you, Senator Helms, and other Members 
of this Committee wrote to President Bush a few weeks before his Warsaw 
speech, saying:

          It is in America's strategic interest that the process of 
        NATO enlargement continue.

    The events of September 11 have intensified the President's 
commitment to this goal. The administration wants to preserve a 
bipartisan approach as we move forward. An enlarged Alliance of 
democratic states with improved military capabilities and 
interoperability, joint defense and operational planning, and realistic 
training exercises will be better able to fulfill the Alliance's 
purpose to increase the security of its members and provide for their 
common defense against terrorism and other threats.
    The aspirant countries are demonstrating their ability to operate 
with the Alliance. For example, in the past year, seven of the nine 
NATO aspirants contributed forces to the NATO-led operation in Kosovo, 
and eight of the nine participated in the NATO-led operation in Bosnia. 
Aspirants also have contributed in various ways to Operation Enduring 
Freedom--for example, through intelligence, over-flight rights, use of 
their air bases, offers of personnel to support operations in the 
region, and public and diplomatic support. They have conducted 
themselves as we want our Allies to act.
    Mr. Chairman, we recognize that enlargement of the Alliance is not 
an exercise free of risks and difficult judgments. People of experience 
and wisdom warn of the dangers of making the Alliance unwieldy. They do 
not want the Alliance to dilute its military capabilities through 
enlargement and they are concerned about NATO's relations with 
neighbors. They want to ensure that any enlargement will strengthen 
NATO's ability to perform its defense mission. They want to ensure that 
the commitment of new members to the Alliance's principles and work 
will be real and enduring. We respect these views and share the 
concerns. Enlargement must be done with care.
    As part of this process, the Defense Department is working with the 
aspirants through bilateral and NATO channels to help them become the 
best possible candidates. We are assessing the state of each aspirant's 
military structures, its implementation of defense reforms, the 
readiness of its military units dedicated to NATO-led missions, and the 
military value it can bring to NATO. We are telling them clearly where 
improvements are necessary.
                           new relationships
    A third goal for the Prague summit is to strengthen NATO's 
relationship with Russia and revitalize its relations with members of 
NATO's Partnership for Peace.
    President Bush has made a top priority of creating a new, 
cooperative U.S.-Russian relationship. That effort is integrated with 
the work we are doing with the NATO Allies to enhance the NATO-Russia 
relationship based on specific, practical cooperation. The goal is to 
erase any vestiges of Cold War hostility. Fostering improved NATO-
Russia cooperation can induce further democratic, market and military 
reform in Russia and contribute to improving Russia's relations with 
its neighbors. President Bush supported a NATO-Russia summit at the end 
of this month as a means to press forward on this path.
    As we do so, NATO will take care to retain its ability to decide 
and act on security issues as its members see fit. Protecting Alliance 
solidarity and effectiveness is of the utmost importance. The North 
Atlantic Council will decide, by consensus, on the form and substance 
of our cooperation with Russia. Russia will not have a veto over 
Alliance decisions. And we shall ensure that NATO-Russia cooperation 
does not serve to discourage or marginalize other Partners.
                               conclusion
    Mr. Chairman, we plan to use the Prague summit to improve the 
Alliance--to make it more capable militarily, better able to secure the 
peace and more tightly knit across the Atlantic. I believe we have 
strong, bipartisan support for this approach. I look forward to 
continuing to work with you and all Members of this Committee as we 
move toward the Prague summit. Thank you.

    The Chairman. Thank you very much, Mr. Secretary.
    Because we have good attendance and we have a second panel 
of two very distinguished Americans, I am going to suggest 
after consultation with Senator Lugar that we limit our rounds 
to 5 minutes, even though I am confident we each have a good 
half hour or more worth of questions apiece. But you both have 
always been available, so we still have you at our disposal.
    Let me also point out in our audience today, that I and the 
staff have recognized, and we may not have recognized them all, 
Ambassadors to the U.S. from NATO aspirant countries, including 
Bulgaria.
    Would each of the Ambassadors stand up? We have the 
Bulgarian Ambassador to the United States, the Romanian 
Ambassador to the United States, the Slovenian Ambassador to 
the United States, the Lithuanian Ambassador to the United 
States, the Estonian Ambassador to the United States, and the 
Latvian Ambassador to the United States.
    The Chairman. We welcome you all.
    Thank you very much for your interest and the efforts your 
countries are making.
    Now, let me--you can begin the time for me, Bertie.
    Let me state at the outset, I think Senator Lugar's 
statement was brilliantly succinct and to the point and laid 
out in stark relief what the most pressing concern is. We are 
all talking about this in three parts, one of which is 
expansion.
    I would argue that the single most significant aspect of 
expansion of NATO is the process itself. The aspirant countries 
may very well have engaged in every reform even without the 
carrot of admission to NATO, but I would suggest that the last 
three admittees, which was significant.
    So I think we should not lose sight of the process itself. 
The process itself has had an incredibly democratizing impact 
on Europe as a whole. And if we did nothing else, in my view, 
that would make it all worthwhile, even beyond getting to the 
question, but Secretary Feith talked about our shared 
democratic values. Aside from meeting the military criteria, 
all the aspirant countries have to demonstrate that they do 
share those values, and in particular that they have rejected 
the very ugly remnants of wartime fascism that must be totally 
and permanently suppressed. It is something of great 
consequence.
    I realize this is a difficult time in Europe, and I realize 
that circumstances in the Middle East and population shifts as 
well as immigration in many of the countries that are part of 
NATO, or are seeking to be part of NATO, have resulted in some 
real demonstrations of anti-Semitism speaking only for this 
Senator, and I am not making any accusations, but I suggest 
that just speaking for myself, were I to conclude that any of 
the aspirant countries, when picked, were not doing every 
single solitary thing in their power to deal with that issue, I 
would be part of a one-man band to keep them from becoming part 
of NATO, whether or not the administration recommended them.
    But let me speak to, and I ask permission of my colleague: 
I ask if I can see his statement. I just want to read two 
sentences from Senator Lugar's statement, because it is what I 
want to focus on in my remaining 3 minutes or so.
    He said, ``We have the most successful Alliance ever 
created, but it is or seems to be marginal or even irrelevant 
when it comes to dealing with the most urgent issues of the 
day.'' Continuing the quote, ``And the fact that NATO, 
ostensibly America's premiere alliance and the linchpin of 
transatlantic relationship, sometimes appears to be absent in 
our strategy on these critical issues, raises important 
questions about NATO's future, centrality and vitality.''
    I could not agree more with any statement that I have heard 
about NATO in the last 10 years.
    One of the things I know you know, but I want to emphasize, 
is that we are having, ``increasing difficulty,'' though that 
may be an exaggeration. I find myself, as a strong proponent of 
NATO over the past 30 years being a United States Senator 29 
years, having to ``make the case'' for NATO among my 
colleagues. I have never had to ``make the case'' for NATO 
before. It was sort of self-evident. But the case is having to 
be made. And unless there is a growing understanding and a 
resolution of what role NATO plays outside of Europe, I fear 
that you may find the very support you both spoke to so 
eloquently, that you found in the Senate, not there.
    And so my question is to you, Secretary Grossman: What is 
your sense of our NATO allies' sense of the need to resolve 
this issue, the relationship issue? My discussions with our 
NATO allies have primarily been discussions about the 
relationship issue vis-a-vis Russia and vis-a-vis this force 
that the Europeans are talking about, having this ESDP, this 
European Security and Defense Policy.
    I get very little blowback about the larger question which 
is, in my view, the central question. So can you give me a 
sense--not how high in the agenda--but how concerned and/or 
interested our allies are in an enhanced if not an initial, 
definition, of this new relationship?
    Mr. Grossman. Mr. Chairman, let me try to do exactly that. 
If I could, though, first say that I very much agree with your 
opening comment that the process itself of having people get 
ready to be NATO members has been hugely important, both to the 
three new members in 1998 and to the aspirants today.
    And may I, also speaking for myself, associate myself with 
your comments about remnants not only of wartime fascism, but I 
would also say of remnants of communism as well. And I think 
you are exactly right. We would not come to you with a 
recommendation that those countries get a nod from the United 
States if these are problems. So I personally associate myself 
with your remarks.
    In terms of the Alliance and what Europeans are thinking 
about us and our commitment to the Alliance, as I said, I was 
in Europe. I visited with all the allies a couple of Mondays 
ago. I went to 8 different European countries after that to 
talk about the Prague summit.
    And I will tell you a couple of things. First, most people 
are very pleased with the three themes that we have got for 
Prague, and I think that is a start.
    Second, there is some anxiety in some of the European 
countries about where we are headed with NATO, and whether we 
believe in NATO. And one of my jobs, and I think one of Under 
Secretary Feith's jobs and our Secretary's job, is to keep 
making the case, not just in the United States, but to 
Europeans, that this Alliance still matters.
    Part of it, Senator, of course, is not our problem. Part of 
it is their problem----
    The Chairman. I agree.
    Mr. Grossman [continuing]. In the sense that they do not 
have the capabilities. It makes them feel bad. They are focused 
in on the European Union. That is a big project. They wonder 
where we are headed. They worry about that.
    But what we have got to do, it seems to me, at Prague and 
before Prague, is make sure that we are all focused in on the 
same new threats. And that is why Senator Lugar's speech at 
NATO, your comments, other comments from the committee are so 
important.
    It seems to me that if you can have a terrorist operation 
that is planned in Afghanistan, refined in Hamburg, financed in 
other places in Europe and around the world, and then carried 
out in the United States of America, that what you have got is 
not an issue here of out of area, but a return in many ways to 
the fundamentals of the 1949 treaty.
    I thought what was interesting was you quoted the 1949 
treaty, Under Secretary Feith quoted the 1949 treaty, Senator 
Lugar did, and I quoted President Truman's speech on the day it 
came into being. In a way, we are not talking about new things 
for the Alliance. We are going back to the old thing about the 
Alliance, which was the defense of----
    The Chairman. But do they sense that? My sense is they are 
not anxious to talk about that right now. But I have not 
recently, meaning in the last couple of months, made the tour 
that you and Senator Lugar, and others have.
    Mr. Grossman. Well, I think our European allies are 
certainly interested in talking about capabilities. I also 
believe that if we do this right and keep working at it, we 
will get more and more conversation going in Europe about 
weapons of mass destruction.
    And I just highlight the point that my colleague made in 
his presentation: We have got to focus Europeans on the threat 
that they face from weapons of mass destruction and their 
delivery systems.
    The Chairman. I am trespassing my own rule, but the only 
thing that I got from allies whom I met in Afghanistan, as well 
as here is that they are somewhat miffed that once they did 
invoke Article 5, they were not, in fact, embraced and used 
immediately. And I found that to be a diplomatic problem in 
terms of my discussions with them. But the----
    Mr. Grossman. May I say, I think that that was probably 
true, with all due respect, kind of September and October. But 
if you see where we are now, with the collective response of 
NATO, AWACS and ships, and then with the number of allies that 
are fighting with us in Enduring Freedom, the number of allies 
and aspirants that are in ISAF, the number of allies that have 
provided all these kinds of rights, I mean, it may not be that 
everything started as fast as everybody wanted. And part of it 
also is that I think we kind of blew off, a little bit, the 
NATO AWACS. I mean, people at first, said, ``Oh, it's no big 
deal.''
    But as you said in your opening statement, it was a big 
deal. So as I said, it took time to get some traction, but when 
you now have collective and individual responses of allies, I 
think we are doing a lot better.
    The Chairman. Well, this is the blowback again, and I yield 
to the Senator, we are saying that we do not want to be part of 
ISAF, and they are saying, ``Whoa, wait a minute.'' But I will 
go to that later. Thank you.
    Senator Lugar. Thank you, Mr. Chairman. I ask unanimous 
consent that a statement by the committee's Ranking Member, 
Senator Helms, be placed at the start of the hearing.
    The Chairman. Without objection.
    Senator Lugar. I thank the Chair.
    Secretary Feith, I appreciate your four ideas on 
capabilities. And I want to center on the last two; 
communication and information, weapons or equipment and modern 
weapon systems.
    The Senate has heard, recently, testimony by a young member 
of our Special Forces, who was in Afghanistan. He described, 
among other things, communication gear that allowed him to 
bring air power over a target that he had designated with 
special gear and provided its coordinates, he called in the 
requisite aircraft, and they destroyed the enemy with a precise 
hit.
    Now, I mention this because without going into more 
elaborate detail from a classified briefing, this illustrated 
for many of us the equipment and communications dilemma of 
NATO.
    For example, NATO countries have special forces; many of 
them highly trained, extraordinarily capable, but without the 
lift capacity to get the special forces to the scene, in this 
case Afghanistan; or the communications equipment and targeting 
equipment, or finally, the aircraft, they are unable to deploy 
sophisticated tactics. We had aircraft being deployed to attack 
targets just as if they were taxicabs being summoned to the 
Hart Building. An extraordinary way in which a war is being 
fought, which most of us still only barely comprehend, and the 
American people have really not been introduced to it. But this 
is at the heart of the issue.
    Now, how do we work with NATO allies so that they are able 
to produce either the equipment to locate the enemy, the 
communication gear, quite apart from the aircraft with 
precision munitions that have the ability in a humane way, to 
eliminate the target without civilian casualties or unintended 
consequences?
    Should we create a united fund, in which the United States 
and various European countries collectively provide capital? 
And do we begin to have production facilities for such 
equipment in other NATO countries? Should we share with our 
allies the extraordinary expertise and technical capabilities 
that underlie this breakthrough?
    Secretary Feith, I ask this question because you have 
touched on a critical question, but the solution to it, given 
classification, given all of the intellectual property issues, 
quite apart from the security issues, is really quite profound, 
even if absolutely necessary, if everybody is to contribute.
    I mention this because as I said in my statement, special 
forces without the gear, equipment, aircraft, or the lift 
capability, are limited to very limited missions.
    Can you give any insight as to how you think we might begin 
to make headway? I do not ask you for the solution, because I 
know you and the Secretary of State and others are working very 
arduously in these areas, attempting to think about Prague.
    Mr. Feith. Senator, the attempt, a few years ago, to 
address this problem was the Defense Capabilities Initiative, 
which, looking back, we think was not as successful as it might 
have been, partly because it was diffuse. There were so many 
capabilities cited as deficient, that we did not concentrate 
attention on the highest priority problems.
    Senator Lugar. There were 58, apparently, on the list.
    Mr. Feith. And one of the ways that we are going about 
this, addressing this problem now, in the hope that we can 
actually get some of these problems fixed, is to narrow our 
focus to the highest priority problems. That is why I wanted to 
emphasize these four categories of deficiencies.
    Another thought that we have is it is time to set 
deadlines. And we are going to be working with the allies to 
see if we cannot talk about performance the ways serious people 
talk about performance, with real time lines to accomplish 
different jobs. And we also want to try to use the summit 
meeting in Prague to get the highest level of commitment.
    And one of the things we find is, you get a bunch of 
Defense Ministers sitting around a table, they are all happy to 
talk about a commitment to higher defense spending and 
remedying deficiencies. It is not that hard to get Defense 
Ministers to support that. But the Defense Ministers cannot 
always deliver. And working to get the heads of government 
committed to these goals, we think, is an important step, also.
    You have raised a number of other ideas, talking about the 
usefulness of sharing expertise, technology, and the like. 
Those are also good ideas and are, I think, part of the 
solution to this problem.
    And overall, what I think we also need to address is an 
attitudinal problem within the Alliance: the notion that there 
is something belittling about a country having less than the 
full range of military capabilities. Specialization is 
sometimes considered a dirty word, but I think it does not make 
a whole lot of sense that every country within the Alliance 
should have the full range of capabilities.
    This is sometimes, when this topic is raised, it is the 
response of some of our Allies, is America wants to do the high 
end work and wants to leave, you know, the clean-up, as I think 
you and the chairman referred to it earlier, leave the cleanup 
or the less glamorous tasks to the allies. That is not at all 
the case. And specialization does not mean that the United 
States would have a monopoly on the high-end work. We would be 
delighted if some of our allies could provide some of the 
highest-end military capabilities to the Alliance. And we 
should work toward that. But it does not have to be the case 
that every one of our allies has strategic lift capability.
    I mean, if we could get some countries specializing in lift 
and other countries specializing in other aspects, that could 
be a way of addressing this deficiencies problem and could help 
us make sure that our allies are spending smart and not just 
spending more.
    Senator Lugar. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The Senator from Florida, Senator Nelson.
    Senator Nelson. In his visit to Texas last year, what did 
President Putin discuss and what did he express about his 
concerns over the expansion of NATO next year?
    Mr. Grossman. I have to refresh myself, Senator Nelson, 
about the specific conversations in Texas. What I can tell you 
is that it is my impression that this was not a main subject of 
conversation, it was not a subject of controversy; and that for 
their own reasons, I think the Russians have come to realize 
that the first NATO expansion added to stability in Europe, 
made better the relationship between Russia and some of the new 
members, and Russia and NATO; and that President Putin, like 
many of us, has focused hard on the war on terrorism.
    Senator Nelson. Will this be a discussion item when the 
President goes, Memorial Day, to Russia?
    Mr. Grossman. I think it would not be a discussion, in the 
sense we have to be very careful that we are not asking the 
Russians for permission to expand. We are not consulting with 
the Russians on our expansion. I would be very surprised if the 
President would not take the opportunity and perhaps give 
President Putin a report on where things stand in the Alliance.
    But I want to be very clear, here, that we would not want 
to put ourselves in a position of even looking like we were 
asking that question of the Russians.
    Senator Nelson. The most recent countries that came in, 
what have we learned from their entry? Have their defense 
budgets met the expectations? And how about the political and 
military aspects of their admittance?
    Mr. Grossman. First, I think the answer to your question 
is, have they met our expectations? And the answer is yes, in 
my view. I mean, these countries got involved in NATO, and 3 
weeks later they were at war in Kosovo. And so, they are living 
proof that they did not join a country club.
    They have all contributed in the Balkans. They have all 
contributed in Afghanistan, both to the larger war and to ISAF.
    Have their defense budgets met the standards that we would 
like to see? No. Everybody's defense budgets, with perhaps the 
exception of the United States, ought to go up. I mean, if you 
look at the chart of NATO defense spending, too many of our 
NATO allies are under 2 percent. And we need to increase 
defense spending for everybody. I would also say that in terms 
of the politics of the expansion, that worked out extremely 
well, also.
    When the President visited Warsaw last year, one of the 
things that every single Pole told him was that their relations 
with Russia had never been better since they joined the 
Alliance.
    We also saw that there were a lot of internal and intra-
controversies between those countries that got settled in the 
weeks running up and the months running up to their accession.
    So, I think the presentation that we made, that they ought 
to have become members, the decision that the Senate took to 
amend the treaty to make them members, as we look back on it, 
was the right decision.
    If I might say one other thing, Senator Nelson, it is that 
we have got a better process this time, which is, I think, that 
one of the great lessons we learned, was to have a Membership 
Action Plan and a Membership Action Program. And we did not 
have that last time.
    We made good judgments and it turned out right, but we are 
better off, now, having a much better and longer and stricter 
set of criteria.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, thank you for appearing this morning. We are 
grateful for your service and your leadership.
    Secretary Feith, I want to read back one of the points you 
made in your testimony. From your prepared statement on page 5, 
``To achieve these goals, we believe that allies should seek 
both to increase defense spending and to use their resources 
more effectively by pooling efforts. At Prague, the United 
States will also seek agreements to streamline NATO's command 
and force structure. As you know, the United States is changing 
its own Unified Command Plan. Likewise, NATO should ensure that 
its command and force structures are reorganized for 21st 
century missions.''
    What is happening with that effort? Can you report any 
progress? What's going on? Is there a panel? Is there a task 
force? Are we leading that, or what is actually tangibly 
occurring to address these issues, especially in light of what 
both of you have mentioned this morning, as has been mentioned 
by my colleagues, the wide and widening gap of capability? So, 
where are we?
    Mr. Feith. Senator, there is work underway; analysis of how 
the NATO command structure can be modified and simplified. 
There are studies that we have been working on within the 
Pentagon. We are talking with the allies about them. There is a 
general sense that NATO is a little top-heavy. And there are 
ways of flattening the organization and rationalizing it, that 
will eliminate a lot of wasteful bureaucracy. And we have begun 
the consultation process with the allies. It is going to 
intensify in the defense ministerial meetings that are coming 
up in a few weeks.
    Senator Hagel. So, we are at the study phase.
    Mr. Feith. Well, we have done studies. We are actually in 
the phase of engaging our allies in talking about specific 
changes that we are going to be proposing.
    Senator Hagel. To actually have NATO do what the United 
States is doing, and some of the recent decisions that we have 
made, in fact, are changing some of Unified Command structure--
--
    Mr. Feith. Yes, sir.
    Senator Hagel [continuing]. Would you anticipate that we 
are a year away from NATO command structure changes, or what 
would you put as a time line?
    Mr. Feith. I do not have that schedule in mind. I know that 
there is a schedule. I just happen not to have it in my head.
    Senator Hagel. When we are talking about that universe of 
change command, address the challenges of the 21st century, 
which we have heard much about today, which you both live with 
daily, the widening gap of capability and all of the 
consequences that flow from that. Then, in addition to that, we 
are talking about, most likely, inviting new members in NATO.
    I happen to be one, as you both know, who thinks it is a 
good idea to do that. So, my question should not be interpreted 
as slighting off that position I have had since I have been in 
the Senate.
    But is there some inconsistency here? As you have noted, 
Secretary Feith, you say, ``Our first goal at Prague must be to 
begin to remedy the capabilities deficiencies within NATO,'' 
what we are talking about, but yet we are going to load NATO up 
with more members.
    Is that a complicating factor to what we are trying to 
accomplish here: to reinstitute a more capable organization to 
deal with the new complexities of the challenges of this new 
century? Is it contradictory? Or maybe you could give me an 
answer to that.
    Mr. Feith. Senator, I do not believe it is contradictory. 
The Alliance is a complex organism. And we need to do more than 
one thing at a time within it. Addressing the capabilities 
problem, I think, we all agree, everybody who has spoken on the 
subject this morning agrees, is the top priority project for 
the Alliance.
    At the same time, there are other very high priority 
projects for us, if we are going to preserve the well being, 
the relevance, the capabilities of the Alliance, and enhance 
the security of the Atlantic community. And expansion of 
members is one of those things.
    I see no contradiction at all between the effort to expand 
members and the effort to enhance the capabilities of the 
Alliance. If we do the expansion properly, it will contribute 
to additional capabilities.
    We saw, with the last expansion, that NATO had greater 
capability. The new allies came in and contributed valuably to 
the operations that Secretary Grossman just cited in the 
Balkans, in Afghanistan. New members have the ability to be not 
a drag on resources, but a revitalizing and valuable 
contribution to the Alliance.
    Senator Hagel. Thank you.
    The Chairman. Senator Smith.
    Senator Smith. Thank you.
    Gentlemen, you have both said that invoking Article 5 was 
an important thing and that the NATO allies contributed to the 
war on terrorism, but I have heard, also, I think, in your 
words, some disappointment in the gap between what different 
members can do and what the United States had to do in 
responding to terrorism. And I have heard recently from high-
ranking Foreign Ministers in Europe that they are deeply 
disappointed in the way the United States responded to the 
invocation of Article 5 and now believe it was a mistake to 
invoke it at all.
    And I think we are all saying the same things in, perhaps, 
slightly different ways. Is the gap just so great, now, that it 
is inevitable that when action is called for, we have to 
disregard NATO and send a message to them that they are just 
not important in our national security pursuits?
    Mr. Feith. Senator, I do not believe that we have to 
disregard NATO, and I do not believe that we did disregard 
NATO.
    Senator Smith. But Secretary Grossman indicated that we 
could have done some things better. What could we have done 
better?
    Mr. Feith. Well, let me, if I may, having played a role in 
this issue, I think that it might be useful to offer you a 
worms-eye point of view on this particular subject of how we 
dealt with the allies in the days after September 11.
    We received, from the allies, an impressive and gratifying, 
spontaneous outpouring of offers of support after September 11. 
These came at a time when the entire United States, not least 
the Government, was stunned by an attack that nobody expected. 
We were quickly organizing a response. We were organizing a war 
in a place that we did not expect to go to war before that. 
There was an enormous amount going on. And pulling together the 
efforts of the whole government, working with CENTCOM to 
develop the war plan, was an enormous challenge. And as you 
recall, after being attacked, we actually went to war within a 
month, having had no plan for going to war in Afghanistan.
    This involved a lot of work, to put it mildly. And while we 
were doing that work, we were giving thought to how we could 
best make use of these very generous offers that we got from 
many allies, but it was not the easiest thing in the world to 
organize the receipt of those offers, the integration of those 
forces, into our own war effort. It took a little time.
    We have since organized for excellent relations down in 
Tampa, at CENTCOM, where we have liaison officers from numerous 
countries, from the NATO Alliance and outside. And that system 
is working extremely well, now. And I think if you talk to any 
of the NATO allies or the other coalition members and ask them 
how that operation is going, where General Franks is running 
this ``coalition village'' and his people meet daily with the 
coalition representatives down there, they say it is going 
extremely well.
    I cannot say that it went extremely smoothly and well from 
day one, because nothing in the government, regarding the war, 
went extremely smoothly and brilliantly from day one. It was a 
hectic and difficult time in the immediate aftermath of the 
September 11 attack.
    I think a lot of the comments that you are hearing are 
actually vestiges of the few weeks immediately after September 
11. We have worked on integrating--I mean, it is hard enough 
within the U.S. Government to integrate the actions of 
different combatant commanders, let alone different countries, 
in an effort like that--within weeks of the kind of attack that 
we suffered on September 11.
    We have managed to do so. We are taking advantage of allied 
forces that have been made available to Operation Enduring 
Freedom. We are now benefiting from it enormously. I believe 
the allies have the opportunity to take a role of significance 
in the war. And they are doing so, and we are grateful for it. 
And I think they are, as I said, if you were to check with them 
now, you would find that they are quite gratified.
    One other point that I would make about this that helps 
explain some of the comments, there is an interesting 
phenomenon among coalition partners, and that is a phenomenon 
that we recognize from our own experience within the U.S. 
Government. Not every part of every government speaks all that 
clearly and well and easily to every other part of the 
government. And one of the things we have found is that the 
liaison officers, the military officers that are representing 
coalition partners down in Tampa, are thoroughly wired in with 
CENTCOM, but there are sometimes problems that what they know 
and are being told is not necessarily getting back to the 
Foreign Ministries or the Prime Minister's office in those 
countries.
    And one of the things that we discovered is that to keep 
our coalition partners informed and happy, we have to not only 
rely on the liaison people down in Tampa, but have direct 
contacts from Washington with the other offices of their 
government. Because one of the things that they were 
complaining about, when they said, you know, ``We, as a 
coalition partner, we are not being informed,'' they were 
complaining about lacking information that, in fact, their 
liaison people had in Florida, but they have their own internal 
communications issues.
    So, I think we are doing a whole lot better on that subject 
now. And I actually think the situation is quite good. But 
there was a sense, in the first weeks of the war, that some of 
the allies did not feel that they were being responded to as 
quickly as they would have liked.
    Senator Smith. Do you have a comment on that?
    Mr. Grossman. I do, Senator Smith If you would allow me, I 
will just make two short comments--three.
    One is I agree with Doug. As I tried to say to the 
chairman, I think a lot of this is sort of vestige of things 
from last September and October.
    Second, though, a very important point that he makes, 
without the 50 years of practice and working together that NATO 
brought to the 11th of September and afterwards, we would still 
be trying to set up all of these arrangements. I mean, as 
confusing, and perhaps it is not as perfect as it was, without 
50 years of practice of this, it would never have happened.
    And third, I just wanted to pick up on one question that 
was imbedded in yours, which is, is this capabilities gap 
inevitable? And I think the answer to that question is no, but 
we ought to get on this fast. And the reason I say no is that 
some of the capabilities that we have been talking about are 
not mysteries. They are: buy more ships, buy more planes, buy 
some communications, make sure you can sustain people once you 
get them to the fight. This is not a mystery. These are things 
that you have to spend your money on.
    Senator Smith. Well, gentlemen, I think Senator Lugar has 
offered some ideas. I do not know if they are right or they are 
wrong, but I think they ought to be seriously considered, 
because the truth is, if the gap is not closed, then it is 
going to be irrelevant in how you fight and defend your nation; 
NATO is going to become less relevant.
    I also think we have got to have a more focused purpose. I 
mean, it used to be the Soviet Union. Today it is weapons of 
mass destruction in the hands of terrorists. And that ought to 
be clearly stated at Prague.
    And, Mr. Chairman, if I may have permission to ask one more 
question.
    The Chairman. Sure.
    Senator Smith. It will be brief.
    I am concerned, as we bring in a whole lot of new members, 
all of whom I am anxious to see a part of this coalition, that 
we do not have a mechanism in NATO for, frankly, suspending or 
expelling members that may simply stray away from values that 
the Western civilian includes.
    As we look at the rise of ultra-rightists or racists or 
people who would expel Jews, not return their property, these 
kind of things, ultimately, as we take in new countries whose 
democratic traditions are just being born, I think we need to 
really consider if there ought not to be a mechanism for 
inclusion in NATO, because if it is not about values, it is not 
about much.
    Mr. Grossman. Thank you, Senator Smith. It is about values. 
And that is what this is about, because it is about defending 
values.
    I have been giving this question a huge amount of thought. 
Senator Lugar and I have talked about it on a number of 
occasions. Here is where I have come to on this question of 
suspending or putting in a mechanism to kick people out of the 
Alliance. One, we have got a lot better process now, it seems 
to me, for bringing people in. As I tried to say to Senator 
Nelson, I think the MAP process gives us a much better feel for 
who it is that we are taking in, what their challenges are, 
what their opportunities are.
    Two, that we have made utterly and totally explicit the 
fact that values and democracy and long-term commitment to 
democracy matter, and you are not getting in the door unless 
there is a commitment to democracy.
    But third, and here is the part I am debating, is if you 
have a process for suspending people or kicking people out, 
what I worry about is then it drives people to the bottom. 
Everybody is trying to meet those minimum standards. How do I 
keep here?
    Whereas, with the NATO treaty and NATO being an Alliance of 
values, we ought to be making sure that people meet the highest 
standard. And I have to tell you that the only way I can figure 
out to keep people meeting the highest standards, is to keep 
them in, and not figure out a way to kick them out. And this is 
a conversation we are going to have to have lots more, because 
that is not a complete answer, but it is where I have come to 
at the moment.
    I did a little research over the last few weeks, and if you 
look back at some of the things that were said about Greece and 
Turkey, for example, in 1951, when they became members of the 
Alliance, ``Oh,'' people said, ``it is too far away. They 
cannot possibly manage the Alliance. They are not really like 
us in culture or tradition.'' And I think the fact that Greece 
and Turkey have been in the Alliance for 50 years has been a 
good thing for them and has raised their standards, rather than 
lowered them.
    So, I do not want to rush to the bottom. And my worry is, 
given the way bureaucracies and human beings work, as soon as 
you set that lower standard, that is where everybody is going 
to head.
    The Chairman. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. Thank you for 
holding this hearing. It is very instructive. And I very much 
appreciate your remarks and those of Senator Lugar, and I 
associate myself with them. I thank Secretary Feith and 
Secretary Grossman for your comments.
    Secretary Grossman, your remarks about how historic and 
appropriate it is that this meeting is in Prague in October of 
this year, it struck me, as well, while I was Governor, we were 
on a trade mission, and Westvaco had made an investment, it is 
a Virginia company, an investment in the Czech Republic. We 
were going into a building to try to get the Czechs to get an 
agreement with the Slovaks, so, thereby, Westvaco could get the 
export from the Czech Republic into Poland, but Poland wanted 
that deal with the Slovaks, which also helped out the mill in 
Covington, Virginia, and so, showing all of these deals being 
done.
    And we go into this building, which was, it was maybe about 
an 80-year-old building. It was an old bank. And this was where 
the Czech Ministry of Commerce and Trade was located. And I 
walked in, and you saw a Star of David, with a wreath on it. 
And I said, ``What is this here for?''
    And it was in memory of the killing, murder of many Jews. 
And they said that this was once a bank, before the Nazis took 
it over. And when the Nazis took it over, this was where the SS 
headquarters were. Then, after the Communists took over, that 
was a Communist office building.
    I was thinking, ``What great progress is being made, that 
we are talking about something as simple as paper products 
being transported.''
    And more and more people, obviously, diverse cultures and 
people in Central Europe are now enjoying the sweet taste of 
the nectar of freedom. And this is all very, very positive.
    That is why I am a supporter of the enlargement of NATO, 
and signed onto this bill, Senate bill 1572, because I think 
NATO, with all of the problems we are talking about here, has 
had a positive impact. I think it will help bring more peace 
and stability. And I also think it will enhance freedom and 
advance freedom when terrorism remains a constant threat.
    I think it is vital, some of the issues were mentioned for 
expanding the NATO Alliance, as to the threat of global 
terrorism. We see that this threat is a more multifaceted 
threat. Yes, military is important; logistics, intelligence. 
Those sort of efforts are important, as well as there are 
corridors. I think it also a good signal to these nations that 
have battled back from dictatorships and communism. They have 
made tremendous strides; some in different ways, but strides, 
as far as freedom.
    Now, these countries also want to, not just taste the sweet 
nectar of freedom, they also want to be responsible; 
responsible in securing it for themselves and for their 
neighbors in Europe, as well as for this country.
    And then, as far as militarily, on the southern region of 
Europe, with that enlargement approach, that would provide a 
bridge with the central part of the Alliance with Greece and 
Turkey.
    There are also a lot of improvements in business, such as, 
as far as Virginia companies, Phillip-Morris is the second 
largest U.S. investor in Lithuania; not necessarily for 
Marlboros, but for Kraft Foods there. And they are the No. 1 
taxpayer in Latvia. They have business interests in Romania. 
There are Virginia information technology corporations that 
have business in Romania. All of those who have come to me have 
had positive remarks and experiences in Romania.
    Now, Secretary Grossman, you have visited these 8, at least 
8 of the allies in Brussels. And what I would like to know is, 
as we are going forward with this MAP or this, I want to use 
the right term, the Membership Action Plan, which comes up with 
an objective criteria for membership, requiring military 
modernization, economic/political reform, and so forth. No. 1, 
what are the reactions of our European existing members in 
NATO? And if you could, share with us how various interested 
countries, such as Lithuania, Slovakia, Slovenia, Romania and 
other aspirants, are progressing to fulfill the requirements of 
the Membership Action Plan.
    Mr. Grossman. Thank you very much, Senator Allen.
    First, I thank you very much for your comments. As I did in 
my statement, I just also would like to join you in another 
pitch for S. 1572, for the Freedom Consolidation Act. We would 
like to see that passed in a bipartisan way.
    The other thing I would agree with you completely, also, is 
that we need to look at a multifaceted response to terrorism. 
And one of the things that we have all looked at, not only in 
NATO countries, but in aspirant countries, is how they have 
responded, for example, to U.N. Security Council 1373, on the 
financing of terrorism, and what they are doing in the 
intelligence and law enforcement fields. And, here, I think we 
have seen a lot of progress, as well.
    In terms of views, first, of our allies, in terms of 
expansion, what I found on my trip was that there is a 
consensus forming around President Bush's view that we ought to 
have as robust an enlargement as possible. It ought to be as 
big as possible. There is nobody yet, thank goodness, ready to 
name names. We are way too soon, I think, to name names, 
because people have a lot more work to do. But I think, 
generally, when I went around, people felt that a bigger rather 
than a smaller enlargement would be good for all of the reasons 
that you cited.
    Second, in terms of what we have found in terms of the 
aspirant countries, the aspirant countries are working away on 
their Membership Action Plan, but every single one of them has 
more work to do. And that is why we are not ready to name 
names. People have more work to do in the military area. As you 
said, they have maybe more work to do in the democracy area. 
People have issues about security and the sanctity of NATO 
documents.
    So, there are a whole range of things that are yet to be 
accomplished, but Nick Burns, when he was around in all of the 
aspirant countries, laid this out pretty clearly; said they had 
more work to do. And the thing that gratifies us is that every 
single one of them seems to want to do the work.
    Senator Allen. Mr. Chairman, if I may followup?
    The Chairman. Go right ahead.
    Senator Allen. I guess if you are having this for a school 
report card, you just get a final grade. It would be good to 
know where they are.
    It is, first, encouraging to hear that our NATO allies in 
Europe are, as you said, a consensus is forming that it ought 
to be a larger enlargement, as opposed to a smaller 
enlargement.
    I am not going to pressure you to name names. I could 
understand that. Secretary General Robertson asked not to start 
backing particular ones. Do you foresee progress, though, that 
by October, there will be sufficient action taken, that there 
would be the evidence, the progress, the developments along 
these requirement lines, that there could be a larger 
enlargement of NATO?
    Mr. Grossman. Yes, sir. I do.
    Senator Allen. Good. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlemen, thank you very much for being here. As I said, 
you have always been available, and you know we will continue 
to call on you.
    I would like to make one brief comment before I bring the 
second panel up on a slightly different subject; but what 
triggered my thinking was a comment made by you, Mr. Secretary. 
And I am not expecting any of you to comment on this, but that 
is the cooperation of the U.N. on terrorism.
    I would like to make the point, I am going to be making a 
longer speech on the floor of the Senate about this today, that 
all of the furor over ``the massacre in Jenin'' and the U.N. 
sending a, wanting to send an investigative team. I know all 
three of the people that Kofi now is suggesting to send. Two of 
those people are what you might call, had less than a 
sympathetic view toward Israel, that they have expressed over 
years. I tried to get a hold of Kofi, the Secretary-General, to 
hope that he would expand that team, if we were going to be a 
team, so there was more, it was fair.
    But, second, I would also point out that it is interesting 
the Palestinians and the Fatah chief now is arguing that it was 
not a massacre but a victory for the Palestinian people. And I 
quote from today's Washington Times, which I seldom do, 
``Jenin, West Bank. Palestinian officials yesterday put the 
death toll at 56 in the 2-week Israeli assault on Jenin, 
dropping claims of a massacre of 500 that had sparked demands 
for U.N. investigation. The official Palestinian body count, 
which is not disproportionate to the 33 Israeli soldiers killed 
in the incursion, was disclosed by''--and I am embarrassed, I 
cannot pronounce the name of the official--``the director of 
Yasser Arafat's Fatah movement for the northern West Bank, 
after a team of four Palestinian-appointed investigators 
reported to him in his Jenin office.''
    So, I think we should have prospected this so-called 
massacre. And I would note that the United Nations, and I am, 
as you know, a strong supporter of the United Nations, I think 
they shoot themselves in the foot frequently, like this team 
that was being put together. And I know he's a great man, Kofi 
Annan. I have great respect for him, but I think it was a 
serious mistake, the team he picked.
    And the closing comment before you leave, so you hear my 
comments, not to respond though you are welcome to, if you 
wish--but the other point is that since the curfew has lifted, 
there have been hundreds of international press there. Now, if 
I want to keep something secret, the first thing I want is the 
U.N. team in and not reporters. If I worry about something 
being reported, the last folks I want are international 
reporters wandering all over the site. I find it fascinating 
that there were probably hundreds, I do not know how many 
international reporters. Every major news outlet in the world 
has sent their ``best'' to Jenin. I have not seen any reports 
about the stench of bodies coming from the rubble and the rest.
    So, I hope we, and I know the President has, but I hope we 
keep in perspective a little bit of what is happening and not 
jump to conclusions.
    But, again, as a supporter of the United Nations, I am 
occasionally frustrated by the ineptness in the way in which 
they proceed, but I did not want to say that in your absence. 
But I am not asking you to comment. You are welcome to comment. 
You are both good diplomats, otherwise I will recommend that 
you not comment.
    I thank you both very, very much. And I will call the next 
panel of witnesses.
    Gen. Wesley K. Clark, U.S. Army, retired, former Supreme 
Allied Commander of Europe, The Stephens Group, he now 
represents, but he is representing himself here.
    Lt. Gen. William E. Odom, U.S. Army, retired, former 
Director of National Security Agency, Yale University and the 
Hudson Institute.
    I welcome you both. And as you know, this committee, and I, 
in particular, have an inordinately high regard for both of 
you. You are two of the best. I have to say this while folks 
are moving out; I have said this to both of you before, when I 
got here as a 29-year-old kid, during the Vietnam war, my image 
of every general in the United States military was someone like 
that movie--what was that movie? Doctor No?
    Staff Member. Dr. Strangelove.
    The Chairman. Yes; where there is a general on top of a 
bomb, smoking a cigar, riding down on an atom bomb. And I have 
found, over my career, that the single most informed group of 
people I have come across are you guys with stars and bars on 
your epaulets. And we have two of the finest before us today.
    And if the room does not clear shortly, I will say more 
nice things about you, but really and truly, it is an honor to 
have you both here. I know you have gone out of your way to 
adjust your schedules to be here.
    Why do I not begin in the order in which you were called? 
General Clark, welcome; great to have you back. And we are 
anxious to hear from you.

  STATEMENT OF GEN. WESLEY K. CLARK, U.S. ARMY (RET.), FORMER 
     SUPREME ALLIED COMMANDER EUROPE; THE STEPHENS GROUP, 
                         WASHINGTON, DC

    General Clark. Thank you, Mr. Chairman, Senators. Thank you 
very much for the opportunity to appear before the committee 
today. I did prepare a statement. I would like to just 
summarize from it if I could.
    First, I want to thank you on behalf of all of the men and 
women who have served in the military for your dedicated 
attention to our foreign policy needs and especially for your 
support of NATO. It has meant a lot to me personally and to all 
of us who have served there throughout the years.
    Of course, as the hearing has acknowledged, there are many 
questions about NATO today including its possible enlargement 
and its relationship with Russia, its continued role in the 
Balkans. And each of these is an important question. But the 
fundamental question is different.
    That is a question about NATO's purpose and whether NATO is 
going to simply become a cold war relic which is usefully 
maintained as one channel of communication to our friends in 
Europe, or whether it is going to serve a vital purpose in 
facing the ongoing and fundamental challenge to American 
security that we face today, including the threat of 
international terrorism.
    The answer to this important question is not yet resolved, 
not today, not in Washington, not in the administration. Yet on 
this answer hangs the perspective and the basis from which to 
address all of the other questions about NATO's membership, 
relationships, and the scope of its activities. And the answers 
to these, in turn, will determine whether NATO has value and 
even whether it survives as an organization.
    When we launched the North Atlantic Treaty Organization in 
1949, we faced a worldwide challenge and threat, the challenge 
of Marxism-Leninism, the threat of the Red army. We knew that 
the United States could not survive if the Continent of Europe 
were occupied by a power hostile to us, and we fought two world 
wars to prevent it. We recognized we could not meet the 
challenges and threat of the cold war unless our wartime allies 
recovered and resumed their place alongside us.
    Now, at that point, we recognized our European allies were 
weak, their economies wrecked, their militaries consumed, their 
morale and expectations shattered, but we organized, supported 
and led these countries, recognizing their sovereign 
prerogatives. Consulting repeatedly, we gained the consensus 
required to meet the challenges of the day.
    NATO was the principal framework for these consultations 
and for the exchange of information. It was never a collection 
of equals, but in fact, it was a collection of a group of 
equals in law. And we acted on the principle of unanimity and 
we recognized NATO as the essential underpinning for our 
actions.
    At the end of the cold war, when some predicted NATO's 
demise, urgent problems of instability and conflict in Europe 
forced NATO reform and evolution. And with the support and 
encouragement from this committee, NATO did evolve and change, 
and NATO also acted, as you all know and supported, helping to 
enforce a peace agreement in Bosnia, going to war to halt and 
reverse ethnic cleansing in Kosovo, and subsequently 
establishing the peace implementation force there to provide 
stability en route to a final status.
    NATO in all of these actions, some completed, some ongoing, 
has been remarkably successful. Today we are facing another 
challenge: the resentment, despair, and hatred fueled by 
extremism and poverty, and the threat of international 
terrorism. And it should already be clear that the United 
States cannot face this challenge and defeat this threat alone.
    We prevailed in the cold war by organizing our friends in 
Europe. And if we are to prevail today, we are going to need 
the strong and full commitment of those same allies.
    Now much has been made this morning of the so-called 
capabilities gap. I am very much aware of that gap. I 
participated in some of the initial work that went into the 
Defense Capabilities Initiative. But to be quite honest, we 
lack the proper analytical framework, and we vastly overstated 
the requirements, when we are dealing with the forces and 
capabilities of our European allies. The Alliance was never an 
organization of equals. We never sought, nor should we seek, 
mirror images of forces.
    We worked in the 1990s to create a new command structure 
for NATO so that it could operate beyond the NATO area. We call 
it the Combined Joint Task Force. We organized it, voted on it, 
exercised it, and we have even funded it. And its equipment is 
coming on. I have heard no discussion about using this in the 
most obvious place, in the peacekeeping mission in Afghanistan 
where, in fact, it could be very carefully used.
    And when we look at the Defense Capabilities Initiatives, 
it is true: there were 58 initiatives, and they were 
overstated. What we need to do instead is, we need to go back 
to the fundamentals of NATO. What is it militarily we expect 
the Alliance to do today? I would submit that it is not to be 
measured in terms of armies, navies, and air forces. Rather it 
is to be measured in terms of operational tasks.
    We know we have to be able to take down enemy air defenses 
and air defense networks. We have to be able to destroy command 
centers. We have to be able to attack and defeat land forces. 
We have to be able to fight in urban areas to finish the job. 
And we have to handle the post-conflict operation. These are 
five combat tasks. They can be performed by any combination of 
service members or service members from differing services or 
differing nations.
    We should be using these as a basis for organizing NATO's 
forces, not the methods we have been using of the cold war. And 
then, from that basis, we can logically draw the requirements.
    And I very much support what former Assistant Secretary 
Kramer gave in terms of sharpening the focus. We need some 
special forces with communications, with laser rangefinders, 
and with the kind of courage and hardiness to get in there up 
front.
    Every nation does not need a B-2. Every nation does not 
need satellites. Every nation does not need the long-range 
unmanned aerial vehicles. We can share this. What we 
desperately need is an organizing rationale for our forces and 
a purpose.
    But let me go beyond where this discussion has gone so far. 
I believe we would be making a classic and egregious mistake if 
we believe that the allied contribution is measured by the 
strength and capabilities of the Armed Forces or even those 
that they commit to NATO. It is not and cannot be.
    Now some have included the nonforce contributions, such as 
bases, facilities, and access rights. But even this is not 
enough. Bombs, bullets, and bases alone are not going to be 
adequate to win the war against terrorism. And in some ways it 
may be counterproductive in facing the broader challenges that 
the United States is going to face in the 21st century.
    Instead of just looking for additional manpower, ships, and 
aircraft, we need to focus on the problems of eliminating al-
Qaeda through the exchange of information and sensitive 
intelligence, through the harmonization of legal and judicial 
standards and procedures and the coordination of law 
enforcement activities. We need to make the international 
environment as seamless for our counterterrorist efforts as it 
is seamless to the terrorists themselves.
    However, exchanges of information, harmonization, 
coordination of activities are extraordinarily difficult. There 
is no international organization to do this. In fact, even 
though this is mentioned in the NATO strategic concept, the 
United States' position in the past has always been: We would 
prefer to do this bilaterally.
    The problem is that you cannot have effective coordination 
when every different agency of the U.S. Government is working 
bilaterally with 10, 15, 20 different governments. Getting this 
coordination involves compromises in long-standing procedures, 
changes in laws, and probably a perceived sacrifice of 
sovereignty.
    Definitions of crime, standards of evidence, requirements 
for extradition, many other aspects of the overall systems of 
law enforcement and judicial processes must be worked. That is 
the only way we are going to ever be able to root out the 
networks, indict and punish the perpetrators, and prevent the 
use of our allies and other democratic states as forward bases 
and staging grounds for continuing attacks on us.
    Beyond simply attacking al-Qaeda and Afghanistan and 
elsewhere, we have to ensure we maintain our legitimacy 
throughout the process. And we must concert our work in dealing 
with conditions in failed states wherever poverty and extremism 
may provide the breeding grounds for future threats.
    And all of this is simply more than the United States can 
do by itself. In fact, U.S. efforts that are perceived as 
unilateral can set us back in our efforts. We need to work with 
and through multinational institutions, taking full advantage 
of the backing of international law and seeking the deepest 
possible commitments from our friends and allies.
    The experience of over 40 years suggests that all this work 
is best concerted in institutional, rather than ad hoc, 
relationships. As we heard in a previous panel, military 
liaison is not enough. It has to be imbedded at every level of 
the government. It has to go from the top down.
    If we did not have NATO, we would be in the process of 
inventing it or reinventing it today. But I think NATO, if it 
were properly utilized, could provide the institutional 
framework that we need. We did reference terrorism in the 1999 
strategic concept. The NATO machinery is a time-proven 
consensus engine. It forces nations to grasp issues and resolve 
them in a timely manner.
    There has been a lot of discussion about what the real 
meaning of the Kosovo campaign was. And I have been told by 
some high-ranking members of the Defense Department and other 
places that they have learned the lessons of Kosovo, and nobody 
is going to tell us what we can or cannot do. They prefer 
flexible arrangements rather than institutional arrangements.
    But the simple truth is that it was the consensus engine of 
NATO that enabled us to break the will of Slobodan Milosevic 
and his Russian backers during the Kosovo campaign. Working 
with allies is always difficult because, when you deal with 
them as sovereign nations, they all have their own sovereign 
opinions. And yet what we found in Kosovo was that the use of 
NATO was the way to get the camel into the tent with us. We let 
them stick their nose into the tent. They came into it. And 
when they came to us and said, ``Please, you cannot fail at 
this or our governments will fall,'' then we knew we had allied 
support.
    The question we have to ask ourselves is: What needs to be 
done to ensure today that in capitals in our closest allies, 
they are treating this problem just as seriously as we are? And 
what I would suggest is that it needs to be worked through 
institutional channels and that NATO is the most important and 
central institution in this process. It can give us the vital 
edge in winning, just as it did during the cold war.
    Can we operate beyond contiguous areas? Yes. Can we survive 
if we admit five or seven or more new members? Yes. Can we 
establish a NATO at 20 relationship with Russia and still 
remain NATO? Yes, but only if NATO remains a centerpiece of 
American security efforts worldwide. Together with our European 
allies, we are close to 700 million people. We are one-half of 
the world's gross domestic product. We are three of five vetoes 
on the European Security Council.
    These allies in NATO constitute our base. It is not a 
matter of collecting forces. It is a matter of mobilizing our 
base. With NATO we can move the world. We can move it 
successfully. And we can move it with legitimacy. The 
alternative, of course, is to play with the form of NATO, to 
preserve the myth, as some would say, but to do the real work 
elsewhere.
    If that is to be the American approach, then NATO can be 
enlarged. It can be altered. It can be showcased. But it will 
inevitably lose its relevance and vitality. And the greatest 
impact of that loss will be felt not abroad, but here, for NATO 
has been our creation, our instrument, and vital to the United 
States. We need it every bit as much today in the current 
challenge as we have in the past.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, General. I think that 
was a brilliant statement.
    [The prepared statement of General Clark follows:]

      Prepared Statement of Gen. Wesley K. Clark, U.S. Army (Ret.)

    Mr. Chairman, Senators, thank you very much for the opportunity to 
appear before this committee today. I know I speak on behalf of all the 
men and women who have served in the military in thanking you for your 
dedicated attention to our foreign policy needs and activities, and 
especially your support of NATO.
    There are many questions about NATO today, including its possible 
enlargement, its relationship with Russia, and its continued role in 
the Balkans. I believe each of these is important. But the fundamental 
question is different. It is about NATO's purpose, and whether it is 
simply a Cold War relic which is usefully maintained as one channel of 
communications to our European friends, or whether it serves a vital 
purpose in facing the ongoing and fundamental challenges to American 
security, including the threat of international terrorism.
    The answer to this important question is not yet resolved, not 
today, and not in Washington. Yet on this answer hangs the perspective 
from which to address questions about NATO's membership, relationships, 
and scope of activities. And the answers to these will in turn prove 
NATO's value and even determine its survival.
    When the United States launched the North Atlantic Treaty 
Organization in 1949, the United States and its friends faced a world-
wide challenge and threat, the challenge of Marxism-Leninism and the 
threat of the Red Army. We knew then that the United States could not 
survive if the continent of Europe were occupied by a power hostile to 
us--and we had fought two World Wars to prevent it. We also recognized 
that we could not meet the challenges and threat we were to face in the 
Cold War unless our wartime Allies recovered and resumed their place 
alongside us.
    At the dawn of the Cold War we recognized the weakness of our 
European Allies, their economies wrecked, their militaries consumed, 
their morale and expectations shattered amidst the bomb craters and 
casualties. But we organized, supported, and led these countries, 
recognized their sovereign prerogatives and consulted repeatedly to 
gain the degrees of consensus required to meet the challenges of the 
day. NATO was the principal framework for these consultations--never a 
collection of equals, but nevertheless acting on the principle of 
unanimity and recognized as essential underpinning for American actions 
and policies.
    At the end of the Cold War, when some predicted NATO's demise, 
urgent problems of instability and conflict in Europe forced NATO 
reform and evolution with support and encouragement from this 
Committee. NATO created a new strategic concept, changed its force 
structure, revised its plans, created outreach to former enemies in the 
partnership for peace, developed new relationships with Russia and 
Ukraine, and brought in three new members. NATO also acted, with strong 
support from this Committee, helping to enforce the peace agreement in 
Bosnia, and going to war to halt and reverse Slobodan Milosevic's 
design for ethnic cleansing of the Serb province of Kosovo, an 
subsequently establishing the peace implementation force to provide 
stability en route to a final status determination for that province. 
NATO in all these actions, some completed, some ongoing, has been 
remarkably successful.
    Today, the United States is faced with another world-wide 
challenge--resentment, despair and hatred fueled by extremism and 
poverty, and the threat of international terrorism. And it should 
already be clear that the United States cannot face this challenge and 
defeat this threat alone. We prevailed in the Cold War by organizing 
and leading our friends in Europe. We brought stability to Europe in 
the post-Cold War period in conjunction with allies and partners. And 
if we are to prevail today, the strong support and full commitment of 
our Allies will be required.
    We would make a classic and egregious mistake if we were to believe 
that this Allied contribution is measured by the strength and 
capabilities of their armed forces. It is not, and cannot be. Some 
recognize that we must also include non-force contributions such as 
bases, facilities, and access rights in the classic Cold-War 
burdensharing type of discussion. But even this is not enough. For 
bombs, bullets and bases alone will be inadequate to win a war against 
terrorism, and may well be counterproductive in facing the broader 
challenges of extremism and poverty.
    Instead of just looking for additional manpower, ships and 
aircraft, we need to focus now on the problems of eliminating al-Qaeda 
through the exchange of information, the harmonization of legal and 
judicial standards and procedures, and the coordination of law 
enforcement activities. We need to make the international environment 
as seamless for our counterterrorist efforts must be at least as 
seamless as that environment is for the terrorists.
    But these exchanges, harmonization and coordination are 
extraordinarily difficult. They need the strongest possible 
encouragement, protection, and incentives. They will inevitably involve 
compromises in longstanding procedures, changes in laws, and some 
perceived sacrifice of sovereignty. Definitions of crimes, standards of 
evidence, requirements for extradition, and many other aspects of the 
overall systems of law enforcement and the judiciary must be worked. 
This is the only way that we will actually be able to root out the 
networks, indict and punish the perpetrators and prevent the use of our 
Allies and other democratic states as forward bases and staging areas 
for continuing attacks on us.
    Beyond simply attacking al-Qaeda in Afghanistan, and elsewhere with 
military and law enforcement methods, we must also insure that we 
maintain our ``legitimacy'' throughout the process. And we must concert 
our work in dealing with the conditions in failed states and wherever 
poverty and extremism may provide breeding grounds for future threats, 
as well as against those states who would acquire and proliferate to 
terrorists weapons of mass destruction.
    All of this is simply more than the United States can do by itself. 
And, in fact, U.S. efforts which are perceived as ``unilateralist'' can 
even set us back. We need to work with and through multinational 
institutions, taking full advantage of the backing of international 
law, and seeking the deepest possible commitments from our friends and 
allies. And in Europe we have the strongest possible base, over 350 
million people, a GDP as large as ur own, and nations whose values most 
closely reflect our own.
    And the experience of over forty years suggests that all of this 
work is best concerted in institutional rather than ad hoc 
relationships. The methods must be to gain commitments, to bind 
governments, to insure that these issues are so central to the 
governments themselves that they cannot afford to fail or neglect them.
    NATO could today, if properly utilized, provide the institutional 
framework for the vast coordination and concerted activities that must 
be worked between states. The problem of international terrorism is in 
fact referenced in the 1999 Strategic Concept. The NATO machinery is a 
time-proven consensus engine, forcing nations to grasp issues and 
resolve them in a timely manner. It was this consensus engine which 
enabled us to modernize nuclear forces during the Cold War, and it was 
this consensus engine which broke the will of Slobodan Milosevic and 
his Russian backers during the Kosovo campaign. To be sure, operating 
the Alliance and employing it for these tasks is arduous work. It 
certainly was during the Kosovo operation. But there is simply no 
better mechanism available for the task. Today, NATO could be central 
to our effort against terrorism, instead of peripheral, and it could 
today, just as in the Cold War, provide us the vital winning edge.
    Can NATO operate beyond it's contiguous areas? Can it survive if it 
admits five or even seven new members? Can it establish a NATO at 
twenty relationship with Russia and still ``remain NATO?''
    The answer to these questions is yes, but only if NATO remains a 
centerpiece of the American effort worldwide, if we tend it, consult 
with, and use it at the heart of operations.
    The alternative is to play with the form, to ``preserve the myth,'' 
as some would say, but to do the real work elsewhere. If that is to be 
the American approach, then NATO can be enlarged, altered, and 
showcased, but it will inevitably lose its relevance and vitality. And 
the greatest impact of that loss will be felt not abroad but here, for 
NATO has been our creation, and our instrument. . . . And we need it 
today as much or more than ever.
    Thank you, Mr. Chairman. I would be pleased to answer questions of 
the Committee.

    The Chairman. General Odom.

STATEMENT OF LT. GEN. WILLIAM E. ODOM, U.S. ARMY (RET.), FORMER 
  DIRECTOR, NATIONAL SECURITY AGENCY; YALE UNIVERSITY AND THE 
                HUDSON INSTITUTE, WASHINGTON, DC

    General Odom. Thank you, Mr. Chairman. It is a pleasure to 
be back and testifying----
    The Chairman. It is nice to have you back, General.
    General Odom [continuing]. Before you again. I think it is 
a terribly important hearing, as other people have said. I 
endorse that enormously, because I have long been a great 
supporter of NATO. Senator Lugar and I have exchanged many 
common opinions and views on the first round of enlargement, 
and so it is good to be onto the second round now.
    I have written a fairly long statement, which I will not 
read, but ask you to enter into the record.
    The Chairman. Your entire statement will be placed in the 
record.
    General Odom. I will just touch on a few points in the name 
of shortening time, so you can spend more time for questioning 
than listening to me read.
    I did try to draw a historical perspective, because I think 
it is important. It is important to realize, in light of some 
of the questions about missions that General Clark has raised 
and that Senator Lugar and others raised, the Alliance did not 
start out as a military alliance. In 1949, Truman stopped all 
the military planning. Every initiative to put forces in Europe 
was stopped. It became a military alliance only with the 
outbreak of the Korean war.
    Senator Vandenberg was promised we would not put troops 
there to get him to sponsor the ratification of the alliance 
here. The purpose of NATO was, in fact, to put a political 
military authority over our allies in Western Europe so they 
would not fight each other, so they could cooperate in economic 
reconstruction. Europe has never been able to provide that kind 
of thing for itself. We gave them a surrogate. And after the 
Soviet military challenge became central, we were continuing to 
perform this mission throughout the subsequent decades.
    Today in Eastern Europe it looks very much like 1948. We 
have a band of states from north to south that do not like each 
other, have difficulties with each other, have different 
legacies. It was the destruction by a hot war as opposed to 
destruction by cold war Communist rule that created the 
differences. But again, NATO's purpose is bringing them under a 
supranational political military authority so they can begin to 
create these values that were emphasized by Secretary Grossman 
and others.
    So I would just make that point for thinking about NATO's 
continuing missions.
    The next point I wanted to raise is about countries to 
admit to NATO. I certainly strongly support 5, 7 if possible. I 
have questions about going further right now. I would like to 
emphasize a specific reason for admitting the Balkan countries. 
We do not have really a good framework for containing an 
outbreak of general hostilities in the Balkans. I think General 
Clark--I would be interested in his views on this, too.
    Bosnia and Kosovo were not contiguous to the external 
borders of Yugoslavia. Therefore, containing them was easier 
than it would be if war broke out in Macedonia. You could see 
the Bulgarians and the Macedonians begin to dispute borders 
then, the Greeks, the Albanians, and others. Having Romania and 
Bulgaria in the Alliance gives us at least the building blocks 
for a larger framework. So I would emphasize that.
    On the Baltic States, I am for their inclusion, and I will 
not repeat my points as to why.
    On Russia, I do not think that deserves a lot of time now, 
because it has been pretty adequately covered. I will just say 
that I think President Putin has come to recognize what I 
remember discussing with Senator Biden here before the first 
round of NATO enlargement, that Russia's interests are served 
well by prosperity and security in the states between Russia 
and the central part of Europe. He does not have the military 
power or the economic power to provide either. Only NATO does. 
Therefore, Russia benefits from NATO enlargement.
    Now to the missions: I agree with what has been said about 
new challenges. I may differ a little bit about how we go about 
achieving what General Clark wants to achieve, what I have 
heard you say, Senator Lugar, and others. Senator Brownback 
also emphasized this.
    If we have a big open debate about this in NATO, it will 
end up with a lot of hot air and no real results. I have gone 
back and looked at some of the arguments in the 1950s and 
1960s. And it is instructive. We have always had these debates. 
We have never achieved a consensus throughout the whole 
Alliance, period. It has been constantly a struggle to keep the 
Alliance behind simple policies.
    I picked up Kissinger's old book, ``The Troubled 
Partnership,'' 1965. And, you know, it is deja vu. You would 
think we were right back to the arguments of that time. I am 
sure we could have had a hearing like this, we would have wrung 
our hands about the future of the Alliance.
    So I have a more optimistic view about where we can go 
without a debate on NATO mission. But I do share the views, 
some of the points, that General Clark expressed, on 
institutional arrangements. It is my impression, as an outside 
observer, that the number of big NATO exercises, like Reforger 
were dropped in the 1990s. We also reduced troop levels rather 
dramatically.
    If we want to run those kinds of training programs to 
maintain integrability standards, helping close the military 
capabilities gaps, I am not sure we have the capability to do 
so. Rather than talking about the new mission, he suggests, 
choosing skillfully exercises of the kind General Clark talked 
about with his strategic reserve force is a more promising way 
to bring NATO to accept it.
    I mentioned in my testimony what may sound outlandish to 
some people, that the United States should take the initiative 
and run an exercise in place of a Reforger which picks up two 
divisions, moves them to Europe in 2 weeks, and force the 
Defense Department to begin to build the capabilities that 
would be required. They will realize that two divisions cannot 
get to urope in 2 weeks unless we quadruple the number of C-
17s, which the Defense Department realizes it needs more of, as 
a result of the stretch to Afghanistan.
    I would then reverse the exercise and let the Europeans 
move heavy forces the same way to North America. If you started 
doing those kinds of things, you will end up creating a lot of 
the coordination, overcoming many of the gap capabilities that 
you discussed earlier and have been concerned about. I think we 
will never get everybody up to speed on NATO, but we will get a 
coalition of the willing that will come along. And then, if 
those capabilities are sufficiently exercised, when we have a 
particular problem, like Afghanistan, we will have to work the 
politics inside the Alliance, generating the consensus to do 
such an out-of-area kind of operation. But we will already have 
had the operation details for how to do it worked out.
    I am not so sure that you will get the kind of interagency 
coordination General Clark wants through nonmilitary 
departments either here in the United States or among the 
allies. That seems to me to be a big stretch. Maybe that is 
something to look at way down the road. But right now, a lot of 
the capabilities issues and a lot of the debate about the 
future of NATO can be best dealt with by very vigorous program 
of military activities or the kind NATO once had but we dropped 
out of and have just not committed the resources to continue.
    That is the main point I would emphasize there. And let me 
just end on that point.
    The Chairman. Thank you very much.
    [The prepared statement of Lt. General Odom follows:]

    Prepared Statement of Lt. Gen. William E. Odom, U.S. Army (Ret.)

    Good morning Mr. Chairman and members of the committee. It is an 
honor to appear before you to discuss the wisdom of NATO enlargement. I 
would like to address four topics concerning this important issue: (1) 
historical perspective on contemporary challenges in absorbing more 
countries into the alliance; (2) how much to enlarge and why; (3) the 
Russia factor; and (4) NATO challenges.
                         historical perspective
    Let me begin by offering some historical perspective. Europe's 
security needs today are similar to those of the period right after 
World War II. The end of the Cold War, like the end of that war, left a 
band of weak European states from the Baltic Sea to the Mediterranean, 
more connected by wars and ethnic conificts than by cooperative 
relations, mutually suspicious, and uncertain about how to pursue 
postwar reconstruction. The debates in Europe about creating NATO at 
that time ignored the Soviet military threat while focusing more on 
economic reconstruction and fear of Germany. Even the United States saw 
the Soviet threat as more political than military until the outbreak of 
the war in Korea in 1950. The initial purpose of the alliance, 
therefore, was not to ``keep the Russians out,'' but ``to keep old 
enemies in Western Europe from drifting back toward war'' while 
proceeding with economic recovery.
    Reconstruction in Western Europe, therefore, succeeded dramatically 
because traditional enemies--France and Germany--cooperated in the 
European Coal and Steel Community which was soon eclipsed by the 
European Economic Commission, based on the 1957 Treaty of Rome. This 
story is well known, but we tend to forget that it was only possible 
because the United States took a hegemonic role in the North Atlantic 
Alliance and maintained large military forces in Europe. This 
effectively made NATO a surrogate for a supranational political-
military authority that could keep the peace, something modern Europe 
has never been able to do. Although the ensuing five decades have 
produced the European Union, this organization is a long way from being 
able to assume the governing role that NATO has played.
                         contemporary problems
    Today's parallels to 1949 are striking when we consider Eastern 
Europe. Again, we see a band of states from the Baltic Sea to the 
Mediterranean in economic distress, mistrustful of their neighbors 
because of nationalism and ethnic tensions, and uncertain about how to 
proceed. Their problems, however, differ somewhat from those faced by 
Western Europe in the 1940s and 50s. Rather than the destruction in war 
suffered by Western Europe, they confront a different kind of 
destruction, namely, the devastating legacies from Communist party 
rule, command economic systems, and Soviet hegemony. Let me describe 
each briefly.
    Communist party rule. The Soviet regime-type had as its core a 
single dictatorial party tightly embracing the secret police and 
military officer corps. The post-communist leaders in these states 
mostly come from these old organizations, which socialized them in ways 
that are inimical to liberal democracy and market economies. Some are 
able to change sufficiently to play a positive role in the new 
political and economic systems, but many are not. The problem was 
different in Western Europe where the Nazi and fascist elites were 
deposed and destroyed. No Nazi Party was left to compete in elections. 
The old communist elites have not suffered the same fate; they survive 
in large numbers and lead successor communist parties and communist-
like parties, actually winning office in a case or two. I am not 
suggesting that the communists are likely to re-establish durable 
communist regimes throughout the region (although Belarus and Moldova 
have such regimes, Bulgaria had one for a couple of years). They have 
neither the public support nor the organizational discipline necessary, 
but because they play a significant role in the politics of these 
countries, they obstruct and slowdown progress in effective reform.
    Command economic systems. The old economic system in all of these 
countries squandered capital in unprofitable investments for four 
decades, making most of their industries unviable in a market economy. 
Perhaps more troublesome are the institutional legacies of command 
economies. Western Europe did not lose its old legal and economic 
institutions, but in Eastern Europe the communists destroyed them, such 
as they were; thus they must be rebuilt today. This is a much bigger 
challenge than anything faced in Western Europe after 1945.
    Soviet hegemony. The effects of Soviet control over these countries 
were many, but the residue of a few of them is especially worrisome. A 
few former party, military, and intelligence officials, now well-placed 
within the post-communist regimes, still have personal connections with 
their old Russian counterparts. Not only does this allow Russian 
intelligence officers to make political trouble in these countries, but 
it also permits cooperative criminal activities with Russian 
intelligence and criminal circles. Western European communist parties 
after WW II, of course, caused some, but not all, of the same problems 
we see today in Eastern Europe.
    Nationalism and ethnic tensions. Not something attributable to 
Soviet influence, these problems are most conspicuous in the breakup of 
Yugoslavia. To presume, as critics of NATO enlargement have done, that 
only Yugoslavia is afflicted by them is a dangerous illusion.
    The history of Europe from the Protestant Reformation right up 
through WW II is a record of religious, ethnic, and nationalist strife. 
England's border with Scotland saw continuous war from 900 to 1746 with 
two brief pauses. No border in the Balkans can match that record!
    It is frequently said that peace is now permanent in Western 
Europe, but such a claim may be premature. European leaders would have 
laid the foundations for future wars in 1990 had not the United States 
overruled them. Lady Margaret Thatcher and President Francois Mitterand 
struggled to prevent the reunification of Germany. Suppose they had 
succeeded. Germany probably would have reunited anyway, quitting NATO 
and expelling U.S. troops, being furious at Britain and France, and 
more beholden to Moscow than Washington. That might also have allowed 
the Warsaw Pact to survive. British and French handling of the Bosnian 
crisis in the early 1990s actually contributed to the spread of civil 
war in Yugoslavia. Unlike in the case of German reunification, the 
United States did not become involved and overrule until much too late.
    In Eastern Europe, Yugoslavia provides a picture of what will 
inexorably occur there over the next several years without NATO 
enlargement. The Hungarian minorities in Romania, Serbia, and Slovakia, 
Poles in Lithuania, Belarus, and Ukraine, the Roma in several 
countries, Turks in Bulgaria, and Albanians in Macedonia are other 
potential sources for ethnic strife and wars throughout the region. The 
Czech government recently used the old Sudeten German issue to sour its 
relations with Berlin. And Russia's province of Kaliningrad, part of 
old East Prussia, is a potential source of many problems.
    Why have most of these ``sleeping dogs'' not barked, or not barked 
louder? Because prospective NATO members do not want to spoil their 
prospects for admittance. Without that hope, some of their leaders 
would feel free to exploit these issues for domestic political 
purposes.
    Anyone who objects to enlarging NATO, therefore, should be obliged 
to explain how we are to deal with the plethora of problems that these 
four legacies have bequeathed Eastern Europe if admitting new members 
is ruled out. Still, we must face the question, how much enlargement 
and how fast?
                    how much to enlarge and why now?
    The answer to how much is at least five countries, although seven 
would be better. Thereafter, a long interval should precede any 
additional enlargement. The answer to ``why now'' varies.
    The Baltic states have been very successful in their political and 
economic transition programs. Latvia, having the largest Russian 
minority, faces more difficulties but has made impressive progress. 
Bringing them into NATO will help sustain what is being accomplished in 
these countries.
    Some observers insist that the Baltic countries are militarily 
indefensible. This judgment is wrong on two counts, technical and 
strategic. On the first count, given the great lethality of U.S. and 
NATO forces against the greatly deteriorated Russian military, a local 
defense is highly feasible in Estonia, the most exposed of the three 
countries. On the second count, Berlin was indefensible during the Cold 
War, but the strategic context prevented a Soviet attack on it. The 
same holds for the Baltic states today. If Russia invaded them, it 
would risk general war with Europe and the United States. The strategic 
question, therefore, is the defensibility of Europe, not the Baltic 
states. Thus the indefensibility objection is a red herring, not to be 
taken seriously.
    Romania and Bulgaria can arguably be given a higher priority than 
the Baltic states, not because they are better prepared. Far from it. 
They face large internal difficulties. Romania, surprisingly, has done 
more to get ready for NATO membership after its disappointment in 1998 
than most observers expected. The key reason for including both 
countries now is stability in the Balkans.
    Bosnia and Kosovo are terrible problems, but compared to civil war 
in Macedonia, they could look small. It most likely would lead to the 
country's breakup, which could bring Bulgaria, Albania, Serbia, and 
Greece into a conflict there. In other words, a general Balkans war 
could arise from it unless NATO creates a framework for maintaining 
security in the entire Balkans. Making Romania and Bulgaria NATO 
members is the most obvious way to begin, because it puts NATO astride 
all countries there rather than entangled on one side or the other. 
This probably explains why Turkey and Greece are uncharacteristically 
cooperating to support Romanian and Bulgarian admission.
    Slovenia and Slovakia might as well be included if these other five 
countries are. Slovenia is well-prepared, but Slovakia needs to make 
greater progress.
                           the russia factor
    After the dire warnings about Russian reactions to the first round 
of NATO enlargement failed to materialize, new ones should not disturb 
us this time. Russia is now conciliatory toward enlargement, and for 
very good reasons.
    Stability and economic prosperity in the states of Eastern Europe 
are very much in Russia's interest. Civil war and poverty are not. 
Russia lacks the military power to prevent the latter and the economic 
power to provide the former. Only a U.S.-led NATO has both. Several 
Russian political and economic leaders have come to recognize this, 
especially Putin, who seems determined to integrate Russia's economy 
into the West.
    Then why not include Russia in NATO? First, its policies in the CIS 
and Chechnya are incompatible with NATO membership. Second, it is too 
big and its problems too intractable for Putin to achieve broad Russian 
integration with Western economies any time soon. Third, inside NATO 
Russia would periodically play a spoiling and blocking role that could 
fatally weaken the alliance. Fourth, the seven states now seeking 
membership want security against Russia. Russian membership, some of 
them have warned, would be dangerous for them. We should not 
underestimate their fears as an important subjective political factor.
    All of these reasons argue strongly against upgrading Russia's link 
to NATO beyond the 1999 ``founding act.'' Until Moscow uses this 
connection constructively for several years, it would be unwise to 
allow it greater access to NATO deliberations and policy discussions.
                             whither nato?
    Serious questions need to be addressed about where NATO is headed 
with enlargement. Will it lose its vitality? Is it being diluted so 
that it amounts to little more than OSCE? Does it really have a mission 
today? Is NATO being displaced by the EU's moves to take over 
responsibility for Europe's security?
    Dilution is a danger if more than the seven candidates now being 
considered are admitted. That must wait until the present prospective 
members are successfully integrated into NATO. Experience already 
gained from the three new members shows that it takes time. For 
example, the Czech Republic is creating serious problems, especially 
with the increasing signs of unpunished criminal activities by high-
level government officials. No doubt, some of the candidates for 
admission this year will prove troublesome once they become members. 
Still, dealing with these problems is a major reason for enlargement. 
If the Czech Republic were outside of NATO, our leverage for solutions 
would be less.
    At some point, however, troublesome new members could prove more 
than NATO can handle. For that reason, the alliance ought to consider 
amending the treaty to establish rules and procedures for expelling 
members that have become a danger to NATO from within. Alternatively, 
it needs to review the measures it contemplated in the past when the 
domestic politics of a member country appeared to endanger the 
alliance, e.g., Portugal in the early 1970s when it appeared headed 
toward a revolution and possibly a communist regime coming to power, 
and Greece when it became a military dictatorship for a time.
    The analogy with OSCE is instructive on the dilution issue, not 
against expansion, however, but as a strong reason for not including 
Russia or increasing its status in Brussels. The weight of the mature 
liberal democratic countries in an expanded NATO must greatly exceed 
that of countries still struggling with internal transformations into 
liberal regimes with market economies. U.S. hegemony guaranteed that in 
the early years of the alliance and still does to considerable degree, 
but change in Western Europe added to NATO's capacity to handle the 
proposed enlargement today.
    NATO's mission has become a matter of debate. That is unfortunate 
and to a large degree the fault of the United States, which seems 
confused about it. It has always been ``missions'' plural, not 
singular, and there have always been lingering differences between 
Europe and the United States over them. If NATO proved highly effective 
for fifty years with these differences, I do not see the need to iron 
them all out today in a major public debate. It cannot lead to 
agreement, and that cannot be good for NATO.
    More important, if we consider the traditional NATO missions, it is 
not at all clear that the United States would be better off if they 
were changed. It is clear, however, that the United States deserves 
most of the blame for neglecting two of its most serious missions. Let 
me review them.
    1. Providing a substitute for a European supranational political-
military authority. This oldest and implicit mission remains valid 
today, and NATO enlargement gives it added importance in the decades 
ahead. We need to be more conscious of it without talking more about 
it. The Europeans know its importance but do not like to admit it. If 
the European Union achieved a political federation with an effective 
central government, it might well displace NATO, something the United 
States cannot oppose, not least because Washington was the original 
sponsor of European integration. The danger today, however, is that we 
could forget this mission while the Europeans create unjustified 
illusions about EU defense capabilities. The combined misunderstandings 
could precipitate a premature U.S. withdrawal from Europe, catalyzing 
the slow but sure process of growing tensions and instability in 
Europe.
    2. Training for coalition warfare. The coalition that fought the 
Gulf War against Iraq was greatly facilitated by NATO interoperability 
standards and practices. No other organization but NATO provides the 
development and maintenance of interoperability essential for effective 
multilateral coalition warfare. If we did not have NATO to provide this 
service, we would have to invent it. In a word, NATO needs no direct 
enemy to justify its existence. This training mission alone is enough.
    The greatest threat to NATO's future has been U.S. neglect of this 
mission since the end of the Cold War. It requires a yearly set of 
large-scale exercises involving multi-national operations. And those in 
turn demand a series of smaller scale national level training endeavors 
to prepare for them. Large-scale NATO ``combined'' exercises have 
virtually ceased. The militaries of the new NATO members, Poland, 
Hungary, and the Czech Republic, therefore, have had neither the chance 
nor the demand to become involved in such training at more than a very 
low-level. Their national defense staffs are not forced to become 
operationally involved on more than very limited small unit operations. 
Thus they can drift along with little change from their old communist 
military practices.
    One of the reasons for the huge gap in military capabilities 
between the United States and Europe is the lack of a regular and 
demanding combined exercise program. If, for example, the United States 
began an annual exercise, projecting three to six heavy Army brigades 
to Europe, almost entirely by airlift (C-17s can carry M-1 tanks), to 
participate with NATO forces, that would draw them into demanding 
operations, showing up their ``gaps'' and needs for modernization. 
Their defense ministries could not easily ignore them.
    The Cold War REFORGER exercises accomplished this with the Central 
Front scenarios, but the United States had weapons and equipment 
already deployed in Europe (POMCUS stocks), making the lift 
requirements relatively small. Today, such exercises should involve 
lifting ALL of the weapons and equipment in very short time periods. A 
score of fast RO/RO ships and a fleet of 300 C-17s could put two U.S. 
heavy divisions in Europe in two weeks.
    On alternate years, heavy brigades of European forces should be 
projected on the same high-speed basis for exercises in the United 
States and Canada. If the United States offered the lift and invited 
European militaries to ``play'' in this game, their military commanders 
would likely jump at the opportunity. The professional enhancements 
offered and the chance to show their own governments what their real 
shortfalls are in capabilities for operating with U.S. forces would be 
powerful incentives to European officers. The new NATO member states 
would scramble to be the first to participate.
    Two major gains could result from such training. First, it would 
show up the EU's ``common security and defense policy'' for what it 
is--little more than a piece of paper. And it would do so without any 
public comments from U.S. officials, comments that infuriate European 
leaders without changing their behavior.
    Second, the technological gap between U.S. and European forces 
would likely narrow. Moreover, it does not exist in some areas, 
something that exercises would force the U.S. defense department to 
acknowledge. And it would be especially helpful for military reforms in 
NATO's new member states.
    3. Out-of-area operations. The Europeans long opposed so-called 
``out of area'' operations. The crisis in Bosnia changed that. As 
Senator Lugar argued at the time, NATO had to go ``out of area or out 
of business.'' The biggest obstacle to NATO's undertaking the operation 
in Bosnia was initially Britain, supported by France, but then the 
United States itself became a hurdle--ambivalent and unwilling to 
commit troops to the enterprise for the decades-long operation it would 
obviously become.
    When Washington finally became engaged, it did not put NATO fully 
in charge but left the United Nations involved as well. The resulting 
feckless organizational arrangements have caused much slower progress 
than could have been achieved. The task was defined as 
``peacekeeping,'' a term given operational meaning by the United 
Nations' experiences in the 1950s. It should have been defined as 
transforming the political and economic institutions of all the 
republics of Yugoslavia, i.e., the task the United States carried out 
during its occupation of Germany between 1945 and 1955. UN 
``peacekeeping'' allows only very specific and limited activities, 
which cannot create the new institutions needed there. Only military 
occupation and governance can.
    The Kosovo operation produced much the same kind of ineffective 
arrangements for accomplishing the long-term transformation task, again 
because the United States never really took it seriously enough to 
accept the full scope of the challenge involved.
    I review this record briefly because it is the backdrop for the 
occasional proposals for turning NATO in an alliance committed to 
fighting terrorism everywhere. Gaining a consensus on a comparatively 
limited ``out of area'' operation in the Balkans proved difficult 
although it deals with a problem within Europe and directly threatening 
Europe's internal well-being. Moreover, the United States was and 
remains the reluctant participant although its role is critical to 
success.
    To convince all countries in NATO to commit to a vastly larger and 
more ambiguous mission, making NATO the vehicle for the war on 
terrorism, would be infinitely more difficult, probably impossible. 
Because one country's terrorist can be another country's freedom 
fighter, the United States could rue the day it signed up to such a 
mission. We already have this problem with Russia over the war in 
Chechnya where the United States does not consider President 
Maskhadov's forces terrorists although Russia does. Within NATO the 
problem exists between Turkey and Europe over Kurdish insurgency 
groups. The United States has been generally more aligned with Turkey 
on this issue than with its European allies.
    There will be times that NATO can reach a consensus to act ``out of 
area,'' but it will be on a case-by-case basis. And in some cases, the 
United States itself may be the spoiler. At the same time, a few NATO 
countries are likely to be willing to form ``coalitions of the 
willing,'' to use Secretary Donald Rumsfeld's felicitous term, in 
support of military operations far out side of NATO's region. And the 
multilateral training and interoperability provided by NATO will make 
those coalitions far more effective if the United States has pushed 
ahead with NATO exercises of the kind suggested above. If it has 
neglected that NATO mission, ``out of area operations'' and 
``coalitions of the willing'' will be far less effective.
    4. Collective defense, as prescribed by Article 5 of the treaty, 
remains a core NATO mission, just as it was during the Cold War. It is 
no longer pressing in the way it once was, but it still deserves a lot 
of thought. Enlargement contributes to it. Some out-of-area operations 
can improve the alliance's collective defense, e.g., the ones in the 
Balkans do so in the long run by preempting the spread of civil war and 
instability. Diverse and varied NATO exercises also improve collective 
defense if they are properly conceived. In sum, all four foregoing 
missions contribute in different ways to this basic NATO mission.
    This brief review should demonstrate why NATO need not worry about 
new missions. The present puzzlement about them reflects forgetfulness 
about the alliance's old missions and especially the constant 
disagreements about them.
    For example, most European countries never took the Soviet military 
threat as seriously as did the United States. As Henry Kissinger 
pointed out in his book, ``The Troubled Partnership'' (1965), the 
United States focused on the technical military issues at the expense 
of the larger political consensus issues in the late 1950s and early 
1960s. De Gaulle's image of Europe's future clashed with the U.S. 
image, and dilemmas of managing nuclear weapons employment strategy 
remained irresolvable. In fact, technical progress was slowly achieved 
while political consensus on all the big issues never was reached. 
Today's debate over the ``military gap'' has much in common with the 
gaps that troubled the United States in NATO's early decades. Looking 
back to how it narrowed them suggests that slogging along with military 
house-keeping to overcome the ``military gap'' today is a better 
approach than engaging in a major political debate over NATO's purpose.
                               conclusion
    Let me end by applauding this committee's efforts to put the case 
for NATO enlargement--pros and cons--before the American public. 
Admitting new members is not a step to take lightly. Moreover, if the 
United States continues to let the alliance drift without leadership 
and direction, and if it spends more time condemning the EU's military 
planning than improving NATO's military activities, enlarging NATO will 
yield few of the results and possibly contribute to the alliance's 
decline.
    I strongly favor enlargement this year not only because it serves a 
broad range of interests, including those of Russia, Europe, and the 
United States, but also because it should force the United States to 
wake up to most of these long neglected tasks.

    The Chairman. Since there are three of us, maybe we can go 
to 7-minute rounds. OK? Actually, the three of us have all 
worked a lot on this. Why not just feel free to interrupt, if 
you have a follow-on question?
    Senator Lugar. Can I introduce a statement?
    The Chairman. Yes.
    Senator Lugar. I ask unanimous consent that the statement 
by Senator Enzi be entered in the record at the front end of 
the hearing.
    The Chairman. And again, I invite my colleagues, at least 
on my time here, to jump in and follow up.
    General Clark, you talked about the CJTF in Afghanistan. It 
seems to me a pretty interesting and important notion and 
concept. I mean, you both made a generic point, we do not have 
to reinvent the wheel. NATO, which is now viewed and discussed 
only in terms of military and interoperability and procurement 
and the like, is, it started off something far beyond that, 
unrelated initially. And I think its most significant role in 
50 years has been the initial responsibility it had, which was 
not in effect military.
    Now obviously, it played a gigantic role, the dominant 
role, in the ultimate victory over communism. But the initial 
role still is the reason why, I think, we must remain a 
European power, why it is so vitally important. To use your 
phrase, general, it is the platform for everything else.
    But can you expand for me a little bit on how, if you were, 
if Senator Lugar were President and you were Secretary of State 
and he said, ``OK. Afghanistan, coordination from this point 
on,'' how do you engage the CJTF? How do you deal with that?
    General Clark. Well, the central idea behind the CJTF was 
to be able to operate outside the area of the major NATO 
commanders and to do so by bringing in other non-NATO members. 
And so you would form a command structure. You would have a 
core of it from the NATO elements, but you could bring outside 
players in. It could be Chinese, it could be Russians, it could 
be Pakistanis. And you would put them inside that command 
center.
    And so the question is: Can you form a command center and 
deploy it? And does it have the communications it needs to 
coordinate? And then does it take its guidance from the North 
Atlantic Council? And then you would have to, of course, 
augment the Council appropriately.
    But all these mechanisms have been talked out for a long 
time. You could have done it in the case of Afghanistan. You 
would have simply said you would want General Franks to be the 
NATO CJTF commander. And he would have a carved-out portion for 
the U.S. special capabilities that are U.S.-only classified 
capabilities, just like we did during the Kosovo campaign. You 
have a U.S.-only NATO, if necessary, and so forth, so you 
protect sensitive national information. Then you buildup the 
command center around it.
    But the important point is not the military point. It is 
the political point. It is the fact that NATO and NATO 
governments are going to have to engage and agree, ``Are we 
going to bomb here? Are we going to do this?''
    We have to provide them the information. We have to build 
the case. And they, in turn, have to accept their 
responsibilities for acting on that case, making decisions, and 
carrying it to their own public.
    The Chairman. Now there is an obvious reason why I asked 
the question, because I, quite frankly, am beginning to wonder 
whether it is the military, whether it is the Defense 
Department and the civilian leadership, whether it is the 
administration, or whether it is us in the Congress, or a 
combination of all.
    But I thought we did learn, and you and I have had many 
conversations on this, we did learn some important lessons from 
Bosnia and Kosovo. I am not at all sure we have learned many 
lessons from Kosovo to Afghanistan at all. And granted, I only 
spent 5 days on the ground in Afghanistan. So I am not going to 
extrapolate from that the universe.
    But I have not met anyone that wears a uniform, who is on 
the ground, from colonel to one star, British, German, anyone, 
Turk--although I did not meet any Turks at the time--who 
suggests that there is any possibility, any real possibility, 
of achieving the agreement masterly reached by the President of 
the United States in Bonn, to put an interim government in 
place with a mechanism to provide for the historic way in which 
Afghanis chose an elected leadership, a Loya Jirga, and an 
ultimate government 2 years down the road, that was probably a 
loosely federated democratic republic, that had a military that 
was untrained, in training, that was multiethnic, that probably 
by that time would be in the area of 20,000 moving to 40,000.
    I have not found one single person who says you can get 
from here to there without a significant increase in security 
capability and requirements on the ground. I found myself, and 
I am going to ask you both to comment on this. I found myself 
confronted with the following dilemma. And I will not name the 
military personnel wearing non-American uniforms with whom I 
met in the International Security Force in Kabul, which was, 
when I was there, about 1,700, working toward 4,800 or 5,000.
    Every place I went and every political leader I met from 
various NATO countries made the following statement, ``If you 
want us in, you have to be in.''
    I actually had an interesting meeting; I think we both did. 
I am about to say something that I am not positive on, but I 
think Senator Hagel was at the meeting when Kofi Annan came 
down.
    And Kofi Annan was saying, ``Hey, no blue helmets here. You 
guys have to do the hard job'' which is an unusual thing for a 
head of the United Nations to say. And Kofi Annan was saying to 
us that ``You have to understand, if,'' in my phrase, if the 
big dog is not in the hunt, no one else is going to be in the 
hunt.
    So I do not, basically, I do not care how you guys work it 
out, but you have to work out something that satisfies the 
British, the Germans, the Turks, and/or anyone else that CJTF 
would envision and I realize that is not the operational 
organization right now, but you have to make sure the big dog 
is on the ground.
    If you are there, you may find they are really willing. I 
found the Turks excited about taking over command until they 
found out that we announced, I would argue prematurely, we 
wanted no part. We were not going to be any part of the 
International Security Force.
    Then, I thought we were going through a period where that 
was just a way to avoid the political dilemma, which I fully 
understand--I am not being critical--the administration may 
have about nation-building, because of 2, 4, 6, 8 years of 
beating up the other team about nation-building. So I thought 
it was going to be OK.
    Basically, here is the deal, guys: We are staying on the 
ground, going after al-Qaeda and the Taliban. We will get that 
job done. It is going to take us awhile, but we are on the 
ground. We may not be part of the force, but we are here. Do 
not worry. And extraction capability resides with us, and we 
will do it.
    But then I found without, again quoting administration 
officials, very high-ranking administration officials, when I 
continually raise the security issue in Afghanistan, say, ``Do 
not worry.'' One very high-ranking official said to me, ``Well, 
it is--do not worry. Izmail Khan has everything under 
control.''
    I am serious. This is not a joke. I am being very earnest 
about this. And my response was, ``Well, Izmail Khan. We have 
always worried about Izmail Khan and the Iranians.''
    One of the things I thought the purpose of an international 
force was was to let this government mature, let this 
government come into being. And the only way that government 
has any chance--is if you keep the six surrounding countries 
out of the deal, so they do not think they are invested in the 
outcome, et cetera.
    So I am thoroughly confused right now. And I am not being 
facetious. It seems to me that it is still not too late, 
although it may be, that something has to happen here. I am 
convinced the administration is going to reach the conclusion 
that with 4,800 troops in Kabul, extended 3 months under 
Turkish leadership, a U.N. mandate evaporating, will increase 
concern about our longevity in the deal, because rightly or 
wrongly--and I am not making any assertion--our allies assume 
the reason we do not want to be there is we want to amass a 
significant force to be prepared to go into Iraq.
    Therefore and I want to conclude with this--this is a long 
non-question, but it is the core of what I think one of the 
problems is.
    The case I keep trying to make is: One of the reasons why 
the Europeans and the Arab nations are worried about us going 
after Saddam is not that they like Saddam. As one prominent 
Arab leader, one of the most prominent Arab leaders in the Arab 
world said, ``Hey, he tried to assassinate me twice. I do not 
like him.'' It is that they have no doubt we will take him 
down, but they have great doubt as to whether we are going to 
stick around and help build a stable nation so there is not 
chaos in the region.
    And they now are looking and saying to me, ``Afghanistan, 
if you are ready to leave Afghanistan before it is secure, what 
the heck are you going to do''--and so I have two questions.
    One, is my concern, not illegitimate, but out of proportion 
to how I have described the problem? And two, if it is not, 
what is able to be done, based on where we are at the moment?
    That is a heck of a question. But, General Clark, we will 
start with you and then General Odom.
    General Clark. Well, I think the concern for security in 
Afghanistan is well-founded. And I have favored an expansion of 
the mandate and structure of the ISAF for some time and have 
said so on a number of occasions. But I understand also the 
dilemma that the administration is in with the overhang of the 
expectations for moving against Iraq and elsewhere.
    And the United States Armed Forces, as two of the 
commanders stated, are stretched thin, unless you call up the 
National Guard and Reserves and get very serious about this. It 
is probably very difficult for the administration to do that in 
the absence of knowing what they are going to do and making the 
firm decisions on war plans. But at some point, I think that 
will come.
    In the meantime, what is going on in Afghanistan is a 
holding action. It is a gamble. It is a calculated gamble that 
you can use the forces that are there, attack the remnants of 
al-Qaeda, show strength around the country, particularly in the 
eastern part, and intimidate and cow the opposition so that 
Hamid Karzai will survive, that the Loya Jirga will happen, and 
there is a chance.
    I think there is a chance. But there is one other factor in 
that, you know, we do have allies that are in there now. The 
Turks are in there. They are going to put, I think, the latest 
I heard was 1,100 people on the ground. And for some of our 
allies and friends, participation in ISAF may be a good 
alternative to participation in U.S. action elsewhere in the 
region. So there may be some countervailing recruiting pull for 
ISAF, as we go forward with plans elsewhere.
    But in the near term, I think what we have to do is 
recognize that the creation of the Afghan National Army is an 
enterprise fraught with difficulties. And we have to be 
preparing some kind of a fallback position that, as we begin to 
phase out the active combat operations with the 5,000 to 7,000 
troops and airmen that are there we move toward a more active 
participation in ISAF, because I think in the near term there 
is no alternative to an enlargement of its mandate and some 
involvement on the part of the United States, if active combat 
operations there decline.
    The Chairman. Let me just--and then I will yield to you, 
General Odom. Well, actually, I will withhold.
    General.
    General Odom. I think your point is exactly right and 
should have been asked early on. It is easy to go in and knock 
off Saddam. We did not think it was going to be so easy to go 
in and knock off the Taliban Government, but it has proved to 
be easier than we anticipated. But the bigger question is what 
you do next.
    I am not sure. I think the dilemma we face now is whether 
we get into what is called nation-building in Afghanistan and 
stay with it for 10, 15, 20 years or not, it is an issue we 
have to face. And if you are going to intervene someplace else, 
if you are going to invade Iraq, you certainly are going to 
take on a nation-building mission there. If you do not, then 
you will create a situation that is as bad as what you have 
right now.
    You can, of course, make an argument that it is too risky 
to stay involved in Afghanistan and just say, ``We are going to 
take the calculation that political instability is inevitable 
and get out.'' And I do not think we ought to leave our allies 
trapped there, if we do.
    There is another terribly important point about what you 
said that I want to underscore. If you are going to have a 
common policy for an occupation, the United States had better 
have the lion's share of the troops on the ground. In Kosovo 
right now, there are 6 armies. And they all talk directly to 
their national governments, so you do not have a common 
occupation policy.
    If the United States had put in 40 to 50 percent of the 
troops, we could impose a working policy. The model is Germany 
1945. We had the lion's share of occupying forces in Germany. 
Therefore, the British and the French coordinated their 
policies with us. ``Nation-building'' is now a bad odor, I 
know, because of Vietnam. But we have had successful nation-
building: Germany, Austria, Italy, South Korea, Japan, other 
places. So one failure should not put this whole issue of 
nation-building in such bad odor.
    And I think it has to be brought back. When we make these 
decisions about where to go to war, we have to think about the 
next act, what we do after the war.
    Let me just end this by commending to you an article that 
Sir Michael Howard wrote a couple years ago in Survival. I 
think it was his IISS speech, ``When are wars decisive?'' 
Winning the military victory is only the first criterion, in 
his view. For the second victory has to be so overwhelming, 
that you destroy the old elites and make it clear that the 
outcome cannot be reversed.
    Then third, a new elite has to be cultivated that wants to 
bring that country into the Western international system. That 
certainly is what we ought to be doing in Kosovo and Bosnia.
    Whether we should try to do that in Afghanistan is an open 
and very debatable question. Whether it could be done in Iraq 
strikes me as a debatable question.
    So that is how seriously I take your point.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    I wanted to also thank the two of you for appearing here 
today and for your selfless service to this country over many 
years. This country has depended on the two of you many times 
over, and we are grateful for that service. And you continue to 
each contribute.
    And this kind of exchange is important, as you know, 
because it further develops a base of understanding for us and 
knowledge and appreciation for all the complications here that 
go into these policies. And people like you can give us that, 
and we appreciate it.
    Following up a bit on where Chairman Biden has taken this: 
As you know, there has been some conversation about the 
possibility of peacekeeping troops in the Middle East, if we 
would get to that point. There has been conversation about the 
possibility of a NATO force, should the United States be in 
that force, if it would come to that, if we have a peace to 
guarantee, if both parties would want us in. All those things 
have to obviously fit.
    I would be very interested in each of your thoughts about 
that issue. Take it wherever you like. It is my opinion that we 
are going to have to face this question. And it is probably 
sooner rather than later. And I am not advocating that we do 
that. But I think the reality of what we have before us demands 
us to think this through a little bit sooner rather than later.
    General Clark.
    General Clark. Senator, I think it is a critical question. 
First, I think that the sequence has to be right. And I think 
that the right sequence for consideration of introduction of 
U.S. troops or peacekeeping troops is a sequence we had in 
Bosnia from 1995 on. That is, get in agreement; then let the 
cease-fire fall out during the process of getting the 
agreement. And then if there are tasks that have to be 
enforced, then you can put in a force so that it has pre-agreed 
authorities to go with the responsibilities that are given it.
    It is absolutely foolhardy and likely to be ineffective, as 
well as dangerous to the people that are involved, to put a 
force in with hopes and responsibilities but no authorities 
from the parties it is engaged with.
    This is what happened to UNPROFOR in the early days in 
Bosnia. They were responsible for everything. They were 
authorized to do nothing. And they ended up getting people 
hurt, lots of people hurt, and failing. And the consequences 
are still being felt from that.
    So what we learned in the Bosnia mission is: The 
authorities for the force have to be greater than its 
responsibilities. And that is what we secured through the 
agreement.
    So I would not want to put a force on the ground until 
there was a comprehensive peace agreement, until the tasks of 
that force were clearly laid out. What are they? Are they to 
search for terrorist cells inside Palestinian encampments? Do 
they have the authority to go through every police desk in 
Gaza, to search tunnels, to go into a cell when people are 
under interrogation, to view the records of that interrogation, 
to search for wire tapping?
    I mean, all of those authorities were written into our 
police annex in Bosnia, for example. They have not all been 
implemented well, but they gave total assurance to the 
international community that we had the authority to do 
whatever was necessary to maintain the peace.
    And I think that is the precondition for putting any forces 
in. Obviously, in the best of circumstances, I would not want 
any forces in there at all, because I think, I would like to 
see us get a comprehensive peace agreement out of this that 
would obviate the requirement for enforcement activities. And 
then we are out of it.
    If we do have to put a force in there, and it is a NATO 
force, it has to include American forces. Our views, our forces 
are the bona fides of NATO moderation and of NATO perspective 
in there. We cannot turn responsibility like this over to the 
European Union, for obvious reasons, nor would they accept it, 
nor would the Israelis accept it.
    So if we write a peace agreement that requires enforcement, 
then we are going to be involved in it. And we should be 
endeavoring to write a peace agreement that does not require 
enforcement, that has some very clear, openly acknowledged 
phases and meets the needs well enough that it can be enforced 
by the parties who are benefiting from it, not by us.
    Senator Hagel. Would you keep the possibility on the table, 
that if it would require, and all of the pieces were right, as 
you suggested, that that NATO force, obviously with American 
troops, should be on the table as a discussion?
    General Clark. I would not take it off of the table, 
because I think it is premature to take anything off of the 
table that could lead toward a resolution of the problem there.
    But here is what is critical about that: Thus far, 
terrorism has proved to be an effective weapon in the views of 
the Palestinian Authority. They have used it. Yes, a lot of 
destruction has been brought to bear; but on the other hand, a 
lot of public heat has come against Israel. And Israel has 
basically lost the public relations battle. And so terrorism 
has not been invalidated as a weapon. In fact, if anything, it 
has sort of been confirmed.
    We know that any peacekeeping force we put in there is 
going to be effective in deterring or enforcing actions on the 
Israelis and, overtly, on the Palestinians. But to deal with 
terror, no. Can we stop suicide bombers with a NATO mission on 
the ground? No, we cannot do it. We will be less effective than 
the Israelis.
    So what we have to understand is that we keep this force on 
the table, but if we do not get a peace agreement and the full 
support of outside powers like Saudi Arabia and Egypt----
    Senator Hagel. Exactly.
    General Clark [continuing]. That completely cuts off any 
possible resources for Palestinian terror to reemerge, then we 
are building ourselves a long-term problem.
    Senator Hagel. Thank you.
    General Odom.
    General Odom. I would add to that, that this is a good 
example for making the distinction between peacekeeping and 
nation-building. This is really quite different from what we 
are doing in Bosnia or Kosovo. It is really quite different 
that what we will be doing in Afghanistan, if we go down the 
road you are suggesting.
    This is really to presume that there is a settlement, and 
many of the things he said, obviously, have to occur before you 
get to a settlement. If you are going in there to deal with 
terrorists, I am not for going in. It seems to me that that is 
just a hopeless endeavor.
    If you are going to go in that way, you might as well say, 
``Well, I am going to go in and occupy both Israel and 
Palestine and we are going to be the political authority as an 
occupation force. We will operate a military government.''
    But if you can pull off these other things, such as support 
from the outside, and there is a genuine faction in the 
Palestinians that seem to accept whatever it is, then I could 
see putting a force in there in those conditions. But it 
strikes me as very unlikely right now.
    I would end my point by saying it is terribly critical, in 
my view, to have the Europeans and the Americans both involved. 
This issue can end up dividing the United States from Europe, 
and we do not want that to happen. That is not to the United 
States' advantage. It is not to Europe's advantage. And I do 
not think it is to Israel's advantage.
    So keeping us all together on that issue strikes me as 
probably the most critical thing about thinking through the 
alternatives in the future.
    Senator Hagel. Thank you.
    The Chairman. Can I followup on an aspect of that with both 
of you?
    I will start with you, General Clark. The EU as a force--
Macedonia is about to be a handover. There is a ``peace 
agreement,'' quote/unquote, there. I am, I think it is fair to 
say, one of the biggest boosters of NATO and along with some of 
my colleagues here in this committee, and a strong, strong 
supporter of doing all we can to get it right in NATO, I do not 
want to offend our European friends. But I am very concerned 
about the ``handoff,'' quote/unquote, in Macedonia.
    But again, you were on the ground. You are the guy that ran 
the show, not the entirety of it, but you are the guy that got 
us to the point where there are not people hiding up in the 
mountains and tens of thousands of people being killed like the 
couple hundred thousand people that were killed before we did 
it the right way in Bosnia.
    Tell me, just talk to me a minute about the EU taking over 
the baton from us, which is scheduled to occur----
    Staff Member. It is not for sure yet.
    The Chairman. It is not for sure, but if it is, we are 
talking about scheduling, it being something, A, to be decided 
upon and, B, as a matter of fact, I suspect one of the reasons 
why Prodi and Patton want to talk to me today at 5 o'clock may 
have something to do with that. Maybe not. But talk to me about 
that for a minute.
    General Clark. Well, Senator, my view on it would be that 
there is, assuming that all generally stays at the same level 
of discomfort and low-level violence that it is right now in 
Macedonia, that it will not make any practical difference 
whether the EU is running the mission or not, because there is 
close and continuous coordination between the European Union 
forces on the ground, Europeans, and the Europeans who are 
running the force in Kosovo.
    The Chairman. KFOR.
    General Clark. Right. The only difference is that the 
United States' voice will be missing in deciding what the 
missions are in the force in Macedonia. But we will have a U.S. 
Ambassador there. The real question is, will the United States 
still be interested in the outcome? It is my impression that 
the whole move to the European Union force has been driven by 
Washington----
    The Chairman. Right.
    General Clark [continuing]. Not by the Europeans. And I 
understand the need to conserve resources. I understand the 
need to withdraw forces from the Balkans if they are not needed 
there and so forth. But I think, as General Odom indicated, 
these are long-term problems.
    General Odom. Yes.
    The Chairman. Yes.
    General Clark. When you go into an area and you attempt to 
rectify it, the military does not do the nation-building. The 
military puts the stability there so that nation-building can 
take place. But that nation-building will not take place 
without strong leverage from outside powers and especially from 
the United States.
    So the European Union does have some leverage, but not 
much, even though it is economically dominant. The principal 
leverage will come from the United States. The question is: If 
things start to go wrong, will the United States step back in 
and exert that leverage, or will it not?
    And this is the start of a pattern that is going to, it is 
going to be troublesome if it is the start of a pattern in 
which we go in at the start, we withdraw, we go somewhere else, 
because these are decade-long problems that require 
persistence. We are going to end up destabilizing countries 
rather than stabilizing them, if all we do is enter and leave 
and turn the problem over to others less capable.
    The Chairman. I would agree, yes. You are right.
    General Clark. So that is the concern.
    The Chairman. Especially since, as you talked about in your 
statement, that in Prague the organizing rationale and purpose 
of NATO is a little bit in flux here. And one of the reasons 
why I agree with General Odom's recommendation about the 
expansion of NATO, particularly including some of the Baltic 
States and Balkans, is for that very reason, as part of the 
stability.
    I mean, I am not where I was; I pushed very hard in the 
first round for Slovenia, not because I think people in Peoria 
or in Salisbury, Maryland or in Seaford, Delaware, were going 
to rest easier--and I do not mean to denigrate Slovenia--rest 
easier knowing the Slovenian military is with us, but as a 
window to the rest of the Balkans saying, ``You behave 
correctly, you can become part of NATO.'' One of the two 
methods of being permanently integrated into Europe are NATO 
and the EU. And if we have to go first with NATO, so be it.
    And so I am even more inclined to give the benefit of the 
doubt and a close call to Bulgaria and Romania. And Romania has 
had some, how can I say it, regression. But, so that is the 
reason why I think it is important that your recommendation, 
General, as I read your statement relative to that area. But do 
you have a view on the EU and its role?
    General Odom. Speaking bluntly, I think it will be a 
disaster to turn it over to the EU. And I do not think it will 
be a force-heavy requirement for the United States to play a 
very significant role there. General Clark is much more 
familiar with the details over there, but I suspect a battalion 
reinforced is a big enough capability in that country to deal 
with these ragtag Albanian dissidents or any parts of the 
Macedonian Government forces that might make trouble. It is the 
presence that is so critical.
    The Chairman. Yes.
    General Odom. And we will have as much say there as we have 
troops. If we do not have troops, we will not have any say.
    The Chairman. Right.
    General Odom. It will go to pot, and I hate to contemplate 
how to get back in effectively.
    The Chairman. Last question. And I am sorry to keep you so 
long, but having you both before me is a great opportunity, for 
me anyway, and for us.
    And I will end with this: General Clark, you talked about 
the need for seamless cooperation and coordination relating to 
what everyone acknowledges is, in a sense, the greatest concern 
of the war of the future. And that relates to terrorist 
activities and it relates to the breakout, if it occurs, in my 
words, not yours, of ethnic conflict in Europe and other 
places. And I was intrigued by your raising the possibility, 
because if I understand it correctly, I agree with you, raising 
the possibility, I would argue the necessity, of somehow 
integrating institutionally the elements of the war on terror 
which we talk about fighting, that are almost as critical as 
what we think of as the military component of that war. And 
that is: I do not know how you actually engage in that war 
without integrating the non-military----
    General Clark. Right.
    The Chairman [continuing]. Intelligence components of these 
various governments, i.e., the FBI and Scotland Yard. We can go 
down the list.
    I do not know how that will happen absent a successful 
coordination in what every European leader recognizes is a 
serious possibility, particularly as it relates to the prospect 
or the possibility, on which I have held extensive hearings, 
including secret hearings, on access to weapons of mass 
destruction, either rudimentarily made nuclear weapons, of 
fissile material if it is available, radiological weapons, 
biological weapons, chemical weapons.
    That is a genuine and legitimate concern that every 
informed nation in the world has, particularly us. No one 
pretends the desire does not exist among the terrorist 
organizations to gain access to this.
    And so, I agree with your assessment, and I am doing all 
that I can to avail myself of all of the information in the 
hands of our Government, within the domain of the Federal 
Government, but there is no effective coordination right now. 
There is coordination on an ad hoc basis, but not seamless, you 
know, cooperation. And so you talk about the need for there to 
be an institutional relationship.
    And I will end with this: It would seem to me that this 
could be, if we could ever articulate it well enough and sell 
it without creating more of a bureaucratic drag within NATO 
than need be, that the debate about our failure to participate 
in the International Criminal Court could, in fact, dissipate a 
great deal.
    One of the reasons why we do not want to be part of the 
International Criminal Court, and one of the reasons why the 
last President said there had to be changes for us to be there, 
and I have said there had to be changes, and this 
administration has flatly, as I understand it, rejected the 
idea, which I do not--is that we have not done the things that 
you have said.
    We have not rationalized the rules of the road. And this 
seems to me to be a way that is difficult, but, to begin to try 
to rationalize the rules of the road, if there were an 
institutional coordinative capability.
    Am I getting the drift of what you are suggesting 
correctly? And can you expand on it a little bit?
    General Clark. Yes, sir, you are. And that is, what I am 
suggesting is that you enhance the use of NATO to deal with 
problems of information sharing and judicial and legal reform. 
Now, in reality, every ambassador has an FBI representative or 
a CIA representative and they all have somebody who can deal 
with law and so forth. But NATO does not. And we have always 
said we want to deal with these things bilaterally because 
these agencies in our own Government like to work on a case-by-
case basis. Can we extradite so-and-so? Can we take specific 
action against a ship, such-and-such, which is registered 
somewhere carrying this set of parts to this prescribed 
country?
    And the problem with that is that we have so many issues 
right now that we have a, probably a 5- or 10-year backlog in 
trying to work our way through this. We need to jumpstart the 
program. This is very, very tough stuff.
    The European Union is working right now to harmonize some 
of their laws, but that does not let us in the door directly. 
We are aware of it through our ambassador there and through 
their ambassador here, but we need to do more on a day-to-day 
basis, on an issue-by-issue basis. I think we need an 
institutional framework.
    And the NATO framework is as good as any other. Yes, when 
you add more issues, it becomes difficult. And to be very 
candid with you, people in government hate NATO issues. The 
cables are long; the language is abstract. People are arguing 
over where the comma is and where the sentence is. And it is 
very unpleasant to do that kind of work.
    But it just happens to be the kind of work that is 
necessary to bring agreement forward between countries. And I 
would very much like to see us move toward a broader definition 
of what NATO does, not only a geographic extension of its 
conventional activities, because the world we are moving into 
requires a deeper level of cooperation between governments. And 
if we cannot create a multilateral structure that can handle 
these issues, we are not going to be able to be safe in the 
global environment on which our prosperity and freedom depend.
    The Chairman. I will never forget sitting around that very 
large table with you, a group of U.S. Senators, when you were 
directing the operation in Kosovo. I am not reporting any 
specific conversation, but the issue at the time was, when we 
Senators marched in to sit with you on our fact-finding trip, 
was whether or not someone, whoever was picking targets, and 
that the difficulty that existed was in dealing with sovereign 
nations who are part of an institutional structure called NATO 
and conducting a war in Kosovo.
    And some of my colleagues, and it surprised me--most of 
them were of the World War II generation--some of my colleagues 
were insisting that there had to be in the future the ability 
to eliminate that kind of confusion.
    And I kept thinking to myself, ``What the hell would 
General Eisenhower ever have done if these guys were in the 
room?'' I cannot think of a more difficult task than being in 
the midst of a life-and-death struggle, having to deal with the 
personalities and the heads of state of all of the allied 
countries and deciding on things like when and if D-day, where 
D-day, whether or not to go into--I mean, I--has there ever 
been a time--you are both military historians, by your 
backgrounds. Has there ever been a time where there has been a 
collective action of allied countries where there has not been 
the needed, difficult and painful process of reaching 
consensus?
    General Clark. Well, no, but normally it is handled on an 
ad hominem basis.
    The Chairman. Yes.
    General Odom. I would like to offer a dissenting view on 
this right now.
    The Chairman. I would like to hear it.
    General Odom. If you look at Governor Ridge's problems in 
homeland security, you run up against the Constitution and the 
Federal system. Now, you can eliminate his problems by 
canceling the Constitution. Now, you know this very much, sir. 
You cannot even get coordination across agencies. There are at 
least nine agencies that deal with the border controls. They 
are in five departments. And we, I think legitimately, could 
create a border control department, put those agencies in it, 
and make some progress.
    Consider Europe. Just look at the EU trying to coordinate 
these things seamlessly. It may be a good goal to go for, but I 
suggest it is a goal like the horizon. You will approach it, 
and it may be healthy to try to approach it, but you are not 
going to reach it. I think it unrealistic in a policy time 
horizon of 4 to 8 years.
    The Chairman. Well, that is----
    General Odom. If we get off onto a debate of this kind, it 
will be more counterproductive than productive, in that you do 
have to deal with that group of people that are giving you a 
hard time. And General Eisenhower did not have an easy time of 
it either, dealing with DeGaulle and Churchill and Montgomery 
and a few other tough guys to get to support one course of 
action.
    The Chairman. That is kind of my point. I guess what I am 
trying to say here is that we seem to have gotten ourselves 
into, up here, not you all, we in the Congress, have gotten in 
this sort of false debate, in my view a false debate. And it 
really comes down to--and I realize this is a philosophic--it 
seems to get down to, the alternative to the hard slogging you 
had to do sitting there, and you got it right. You got it done. 
The alternative to that hard slogging is to go it alone. I 
mean, I do not know how you do it. I do not know what the in-
between is. And given those options, it seems to me it is an 
incredibly easy choice, that the very hard slogging has to take 
place.
    General Odom. Yes. There are some in-betweens. I said in my 
statement that if NATO has no foreign enemy, if it does not 
declare war on terrorism, we would still need it because it is 
the only place we train for coalition warfare. You need it as a 
training area.
    The Chairman. I agree.
    General Odom. And then if you have these capabilities, you 
do not have to go with a NATO flag, but you could go as a 
coalition willing to do other things. I do not mind a NATO flag 
if NATO wants to go on the operation. But I think we can manage 
NATO and exercise it in a way that it gives us, de facto, this 
interoperability, as we had in the gulf war.
    Let me add one point, having had more than a little 
experience with dealing with the multinational intelligence in 
NATO. It is better not handled in NATO. It is----
    The Chairman. It is better what? I am sorry.
    General Odom. It is better not handled in NATO. 
Multinational intelligence is not intelligence. There are other 
ways to do this, and if you try to get NATO agreement on them, 
you run into the sovereignty issues. If you leave it to the 
professionals, it is amazing how far you can get toward de 
facto multinational cooperation without a problem. Those 
problems I would want to surface. I suspect a lot of the law 
enforcement cooperation is of the same order.
    And until we have our own intelligence structures more in 
line, particularly the FBI's with the other intelligence 
community, we are not in any good position whatsoever to begin 
to interface with a changed or even the contemporary situation 
in Europe.
    General Clark. I think all of those concerns are valid. The 
question is, putting those concerns on the table and looking at 
what the task is ahead, how can you succeed? You cannot succeed 
in this campaign with bombs and bullets. You cannot. I mean, 
you cannot use bombs and bullets in Germany and France and 
Italy and Spain. That is where the terrorists are.
    Now I was in Germany last weekend, and we finally got, 2 
weekends ago, and we finally got traction with Germany. You 
know how? Because the mosque that was blown up in Tunisia 
killed, I think, 17 Germans, and they finally realized that the 
terrorist threat was real, and they would actually make changes 
in law. So maybe that is going to take some traction.
    The Chairman. Yes.
    General Clark. But we do not have our allies engaged on the 
domestic side in the way we are engaged in this country. And 
until they are, we are not going to resolve this problem. It is 
a very clear social sciences problem. It is: How large and 
complex a system can you create before the system fails? We are 
trying to go to a global system in trade, in communications, 
and in many, many other ways. And we are at the boundary; we 
are at the horizon right now. Can we push it further? That is 
the challenge.
    The Chairman. Well, this is tough, hard work. I think you 
meant to say a synagogue was blown up, not a mosque.
    General Clark. I am sorry. Yes.
    The Chairman. Yes.
    General Clark. I said----
    The Chairman. I think it was a synagogue, not a mosque.
    General Clark. Right.
    The Chairman. It is not, I mean, it is relevant either way, 
because it got the Germans' attention. Germans were killed and 
it got German attention.
    Well, gentlemen, I think we all agree on one thing, that 
the hard part is now beginning. That is not to suggest that the 
sacrifices made by our military thus far and the risk we have 
taken as a Nation has not been difficult, but compared to what 
we have to do to coordinate this from here on out is really 
going to get tough.
    And because of the accumulated--and I am not being 
facetious--the accumulated wisdom of men like you and women out 
there who have thought a lot about this, we will get through 
it. But it is going to be painful. It is going to be a painful 
ride. And, you know, I do not see any simple solutions here, 
but I do see solutions. And with you all, we will get through 
it, and we will figure it out.
    And with that, I thank you both for coming. I apologize for 
keeping you so long, but you have a lot we can learn from you. 
And we are adjourned.
    General Clark. Thank you.
    General Odom. Thank you.
    [Whereupon, at 1:15 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


            Responses to Additional Questions for the Record


Responses of Hon. Marc Grossman, Under Secretary of State for Political 
 Affairs, to Additional Questions Submitted for the Record by Senator 
                              Gordon Smith

        administration support of the freedom consolidation act
    Question. I and many of my colleagues are co-sponsors of the 
Freedom Consolidation Act. The bill, which passed the House 
overwhelmingly last session, support the vision of NATO enlargement 
articulated by President Bush in his Warsaw speech. Is the 
administration supportive of this legislation and do you believe that 
it would be useful in your deliberation with our allies?

    Answer. Secretary Rumsfeld and Secretary Powell plan to jointly 
send letters to Senators Daschle, Lott, Elden, Helms, Levin, and Warner 
to express the Administration's strong support for the Freedom 
Consolidation Act. A draft of the letter is attached.

The Honorable Joseph R. Biden, Jr., Chairman,
Committee on Foreign Relations,
United States Senate.

Dear Mr. Chairman:

    The Administration strongly supports S. 1572, the Freedom 
Consolidation Act. This bill, which reinforces the efforts of European 
democracies preparing themselves for the responsibilities of NATO 
membership, will enhance U.S. national security and advance vital 
American interests in a strengthened and enlarged Alliance.
    Speaking in Warsaw last June, President Bush said that ``Yalta did 
not ratify a natural divide, it divided a living civilization.'' From 
the day the Iron Curtain descended across Europe, our consistent 
bipartisan commitment has been to overcome this division and build a 
Europe whole, free, and at peace. The 1997 Alliance decision to admit 
Poland, Hungary, and the Czech Republic brought us a step closer to 
this vision.
    Later this year at NATO's Summit in Prague, we will have an 
opportunity to take a further historic step: to welcome those of 
Europe's democracies, that are ready and able to contribute to Euro-
Atlantic security, into the strongest alliance the world has known. As 
the President said in Warsaw, ``As we plan the Prague Summit, we should 
not calculate how little we can get away with, but how much we can do 
to advance the cause of freedom.''
    We believe that this bill, which builds on previous Congressional 
acts supportive of enlargement, would reinforce our nation's commitment 
to the achievement of freedom, peace, and security in Europe. Passage 
of the Freedom Consolidation Act would greatly enhance our ability to 
work with aspirant countries as they prepare to join with NATO and work 
with us to meet the 21st century's threats to our common security.
    We hope we can count on your support for this bill, and look 
forward to working closely with you in the months ahead as we prepare 
to make historic decisions at Prague.
            Sincerely,

    Question. Secretary Grossman, you recently traveled to eight NATO 
capitals including Brussels. What is the current atmosphere in Europe 
regarding enlargement? Does Europe have a sense of what this round of 
enlargement is all about?

    Answer. All of our NATO Allies support further enlargement. A broad 
consensus is forming behind President Bush's vision of the most robust 
round possible, as long as aspirants are ready to assume the 
responsibilities of membership. In our talks, Allies shared the U.S. 
view that the events of September 11 highlight the importance of 
building the broadest, strongest possible Alliance.
    Allies have agreed that the question of which countries should be 
invited to join NATO should not be addressed until later this fall. 
They, like us, are continuing to assess aspirant countries' efforts to 
meet reform goals through the Membership Action Plan.

    Question. Many of the aspirant countries, if not all, have 
contributed to KFOR, SFOR, and Operation Enduring Freedom in 
Afghanistan, and the phrase that I hear being thrown around by these 
countries is that we are already acting as a ``de facto'' ally. While 
the United States is greatly appreciative for their assistance, what is 
the administration doing to ensure that acting as a ``de facto'' ally 
is not a guarantee for NATO membership?

    Answer. While we welcome the support of the aspirants in the 
international efforts to fight terrorism and stabilize the Balkans, we 
have made clear that their efforts receive no guarantee of either an 
invitation, nor of any protection that is due to Allies under Article V 
of the Washington Treaty.

    Question. Have the aspirant countries done enough with regard to 
property restitution?

    Answer. Both the U.S. Government and prominent NGOs maintain an 
active dialogue with all the aspirant countries and with the Jewish 
communities in each of them on restitution issues. In the context of 
that dialogue, aspirant countries are not only conducting the necessary 
historical research, but are also undertaking the framing of laws and 
responsive measures. For example, Romania has twice extended the filing 
deadline for restitution claims, and other aspirant countries are 
continuing to evaluate their restitution programs.
    We have strongly supported these actions and underlined their 
importance in the context of NATO's commitments to democracy, the rule 
of law, tolerance, and pluralism. As in countries that are already NATO 
and EU member states, resolving the issues of restitution is a complex 
undertaking. We have consistently encouraged and built upon the 
aspirant countries' political will to resolve outstanding issues 
rapidly.
                     european defense capabilities
    Question. Addressing the growing capabilities gap between the 
United States and its NATO allies has been placed on the agenda of the 
Prague Summit. In your view, what are the costs of this capabilities 
gap continuing to grow and how can we persuade our European allies that 
it is in their interest to put more resources toward their defense?

    Answer. Current and projected levels of Allied defense spending are 
a source of significant concern. Allies need to invest more in defense 
if they intend to field a 21st century force. It is estimated that 
overall European Allied defense spending will fall roughly 1 percent 
from 2001 to 2002. The downward budget trend is unlikely to reverse 
soon because Allies are dealing with sluggish economies and continued 
domestic pressure to increase spending on priorities other than 
defense. Moreover, Europe's fragmented defense industries and 
investments in outdated force structures are two major contributors to 
their capabilities shortfalls.
    To address the capabilities gap, we are encouraging our Allies to 
concentrate in the immediate future warfighting requirements in four 
areas:

  <bullet> Defense against weapons of mass destruction.
  <bullet> Strategic lift and logistical support.
  <bullet> Communications and information connectivity.
  <bullet> Precision guided munitions, unmanned aerial vehicles, and 
        other combat systems.

    Over the next several months, we intend to work closely with our 
Allies in developing a new capabilities initiative for the Prague 
Summit that will produce tangible, significant improvements in these 
four areas. These needed improvements will provide key military 
capabilities to the entire range of NATO missions, ensuring strong and 
relevant contributions to the war on terrorism by NATO.

    Question. Slovakia has national elections scheduled in October 
shortly before the Prague Summit. The party of former Prime Minister 
Meciar is polling very well. I believe it is the view of Slovakia's 
neighbors, NATO allies, and the EU that when Mr. Meciar was in power, 
the actions of his government fell well below what we would call 
upholding Western values. In fact, when he was Prime Minister, the 
other Visegrad countries would not even meet together with him. How 
will the administration view the inclusion of Slovakia into NATO should 
Mr. Meciar's HZDS be part of the governing coalition?

    Answer. NATO is not simply a military alliance but is a community 
of countries with shared values. NATO is open to countries that can 
show an enduring commitment to democracy, free markets, and the rule of 
law, and add to the security of NATO. In making invitation decisions, 
the United States and our Allies will take into careful consideration 
the extent to which a country shares NATO's commitment to these core 
values.
    Prior to the election of the Dzurinda government in 1998, the 
former Slovak government did not demonstrate a record of commitment to 
democracy and rule by law. There is no evidence that Meciar or the 
party leadership have changed. There is also no reason to believe that 
Meciar or his party, should they return to power, would share the core 
values and principles of the other Member States of the NATO Alliance. 
Almost every European official who has visited me has indicated that 
the return of Meciar or his party to government raises serious concerns 
about Slovakia's NATO candidacy.
    The current Slovak government has passed a significant number of 
laws since 1998, as well as amending the constitution, in order to 
guarantee that Slovakia will be a democratic country that is ruled by 
law.
    We believe that a cornerstone of democracy is informed voter 
participation. We encourage all Slovak voters to understand the issues 
and vote for whomever they believe can best lead the Slovak Republic in 
the future.

                                 ______
                                 

  Responses of Hon. Douglas J. Feith, Under Secretary of Defense for 
  Policy, to Additional Questions for the Record Submitted by Senator 
                              Gordon Smith

        administration support of the freedom consolidation act
    Question. I and many of my colleagues are co-sponsors of the 
Freedom Consolidation Act. The bill, which passed the House 
overwhelmingly last session, support the vision of NATO enlargement 
articulated by President Bush in his Warsaw speech. Is the 
administration supportive of this legislation and do you believe that 
it would be useful in your deliberation with our allies?

    Answer. On May 7, Secretary Rumsfeld and Secretary Powell jointly 
sent letters to Senators Daschle, Lott, Biden, Helms, Levin, and Warner 
to express the administration's strong support for the Freedom 
Consolidation Act. The text of the letter jointly sent by Secretary 
Powell and Secretary Rumsfeld to Senators Daschle, Loft, Biden, Helms, 
Levin, and Warner is attached.

                                               May 7, 2002.
The Honorable
United States Senate.

    Dear Senator:

    The administration strongly supports S. 1572, the Freedom 
Consolidation Act. This bill, which reinforces the efforts of European 
democracies preparing themselves for the responsibilities of NATO 
membership, will enhance U.S. national security and advance vital 
American interests in a strengthened and enlarged Alliance.
    Speaking in Warsaw last June, President Bush said that ``Yalta did 
not ratify a natural divide, it divided a living civilization.'' From 
the day the Iron Curtain descended across Europe, our consistent 
bipartisan commitment has been to overcome this division and build a 
Europe whole, free, and at peace. The 1997 Alliance decision to admit 
Poland, Hungary, and the Czech Republic brought us a step closer to 
this vision.
    Later this year at NATO's summit in Prague, we will have an 
opportunity to take a further historic step: to welcome those of 
Europe's democracies, that are ready and able to contribute to Euro-
Atlantic security, into the strongest Alliance the world has known. As 
the President said in Warsaw, ``As we plan the Prague summit, we should 
not calculate how little we can get away with, but how much we can do 
to advance the cause of freedom.''
    We believe that this bill, which builds on previous congressional 
acts supportive of enlargement, would reinforce our nation's commitment 
to the achievement of freedom, peace, and security in Europe. Passage 
of the Freedom Consolidation Act would greatly enhance our ability to 
work with aspirant countries, as they prepare to join with NATO and 
work with us to meet the 21st century's threats to our common security.
    We hope we can count on your support for this bill, and look 
forward to working closely with you in the months ahead as we prepare 
to make historic decisions at Prague.
            Sincerely,
                                        Donald H. Rumsfeld,
                                              Secretary of Defense.

                                           Colin L. Powell,
                                                Secretary of State.

                     european defense capabilities
    Question. Addressing the growing capabilities gap between the U.S. 
and its NATO allies has been placed on the agenda of the Prague summit. 
In your view, what are the costs of this capabilities gap continuing to 
grow and how can we persuade our European allies that it is in their 
interest to put more resources toward their defense?

    Answer. Current and projected levels of allied defense spending are 
a source of significant concern. Allies need to invest more in defense 
if they intend to field a 21st century force. It is estimated that 
overall European allied defense spending will fall roughly 1 percent 
from 2001 to 2002. The downward budget trend is unlikely to reverse 
soon because allies are dealing with sluggish economies and continued 
domestic pressure to increase spending on priorities other than 
defense. Moreover, Europe's fragmented defense industries and 
investments in outdated force structures are two major contributors to 
their capabilities shortfalls.
    To address the capabilities gap, we are encouraging our allies to 
concentrate in the immediate future warfighting requirements in four 
areas:

  <bullet> Defense against weapons of mass destruction.
  <bullet> Strategic lift and logistical support.
  <bullet> Communications and information connectivity.
  <bullet> Precision guided munitions, unmanned aerial vehicles, and 
        other combat systems.

    Over the next several months, we intend to work closely with our 
allies in developing a new capabilities initiative for the Prague 
summit that will produce tangible, significant improvements in these 
four areas. These needed improvements will provide key military 
capabilities to the entire range of NATO missions, ensuring strong and 
relevant contributions to the war on terrorism by NATO.

                                   - 

</pre></body></html>
